<html>
<title> - ENGLISH AS THE OFFICIAL LANGUAGE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    ENGLISH AS THE OFFICIAL LANGUAGE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             July 26, 2006

                               __________

                           Serial No. 109-49

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California,
    Chairman                           Ranking Minority Member
Mark E. Souder, Indiana              Danny K. Davis, Illinois
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Ric Keller, Florida                      Virginia
Joe Wilson, South Carolina           Ruben Hinojosa, Texas
Marilyn N. Musgrave, Colorado        Ron Kind, Wisconsin
Bobby Jindal, Louisiana              Dennis J. Kucinich, Ohio
John R. ``Randy'' Kuhl, Jr., New     Susan A. Davis, California
    York                             George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 26, 2006....................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     5

Statement of Witnesses:
    Ellison, Art, policy chair, National Council of State 
      Directors of Adult Education...............................    27
        Prepared statement of....................................    28
    Gonzalez, Raul, legislative director, National Council of La 
      Raza.......................................................    12
        Prepared statement of....................................    14
        Letter opposing English-only policies....................    20
        Letter in response to questions from Mr. Grijalva........    50
        Newspaper article: ``The GOP Lag Among Latinos,'' 
          Washington Post, July 23, 2006.........................    19
    McKinley, Hon. Paul, Iowa State Senator......................     8
        Prepared statement of....................................     9
    Mujica, Mauro, chairman of the board, U.S. English, Inc......     5
        Prepared statement of....................................     7
    Trasvina, John, interim president and general counsel, 
      Mexican American Legal Defense and Educational Fund 
      (MALDEF)...................................................    21
        Prepared statement of....................................    23

Additional Materials Supplied:
    Alons, Hon. Dwayne, a State representative from the Fourth 
      District of Iowa, prepared statement of....................    58
    American Library Association, letter.........................    70
    Amorosino, Charles S., Jr., executive director, Teachers of 
      English to Speakers of Other Languages, Inc. (TESOL), 
      prepared statement of......................................    55
    Boulet, Jim, Jr., executive director, English First, letter..    48
    Crawford, James, Director, Institute for Language and 
      Education Policy:
        ``Frequently Asked Questions About Official English''....    58
        Prepared statement.......................................    66
    Congressional Hispanic Caucus, letter........................    39
    Inhofe, Hon. James, a U.S. Senator from the State of 
      Oklahoma, prepared statement of............................    52
    Sheketoff, Emily, executive director, American Library 
      Association, letter........................................    47
    Williamson, Kent, executive director, National Council of 
      Teachers of English, prepared statement of.................    50


                    ENGLISH AS THE OFFICAL LANGUAGE

                              ----------                              


                        Wednesday, July 26, 2006

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 12:35 p.m., in 
room 2175, Rayburn House Office Building, Hon. Michael Castle 
[chairman of the subcommittee] presiding.
    Present: Representatives Castle, Osborne, Souder, Platts, 
Kuhl, McKeon, Woolsey, Grijalva, Hinojosa, Kucinich, and Davis 
of California.
    Staff present: Kathryn Bruns, Staff Assistant; Pam 
Davidson, Professional Staff Member; Steve Forde, 
Communications Director; Jessica Gross, Press Assistant; 
Richard Hoar, Professional Staff Member; Lindsey Mask, Press 
Secretary; Susan Ross, Director of Education and Human 
Resources Policy; Deborah L. Emerson Samantar, Committee Clerk/
Intern Coordinator; Rich Stombres, Deputy Director of Education 
and Human Resources Policy; Toyin Alli, Staff Assistant; 
Gabriella Gomez, Legislative Associate/Education; Lloyd 
Horwich, Legislative Associate/Education; Ricardo Martinez, 
Legislative Associate/Education; Joe Novotny, Legislative 
Assistant/Education, Clerk; and Rachel Racusen, Press 
Assistant.
    Chairman Castle [presiding]. A quorum being present, the 
Subcommittee on Education Reform will come to order.
    We are meeting today to hear testimony examining views on 
English as the official language.
    Under committee rule 12(b), opening statements are limited 
to the chairman and ranking minority member of the 
subcommittee. Therefore, if other members have statements, they 
will be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow member statements and other 
extraneous materials referenced during the hearing to be 
submitted to the official hearing record. Without objection, so 
ordered.
    Good afternoon, and thank you for joining us. I welcome you 
here today as a part of a series of discussions the committee 
and its subcommittees are holding here in Washington and 
throughout the Nation over the next several weeks to discuss 
U.S. immigration policy and proposals.
    Today's hearing will closely examine the pros and cons of 
making English the official language. It is designed to be a 
balanced hearing, allowing members to hear views on both sides 
of the issues and to provide them with an opportunity to ask 
questions as to whether or not English should be the official 
language of the United States. We are simply here to listen and 
learn.
    The issue of making English the official language of the 
United States has long been controversial. The last time this 
committee and the Congress discussed the issue by itself was in 
the 104th Congress. Now, due to the steady growth of new 
immigrant populations within U.S. borders whose primary 
language is other than English, the discussion and the issues 
of language diversity has once again brought attention to the 
public policy debate.
    Further, as you may be aware, the Senate recently revived 
this issue by including two amendments declaring English as 
both the national and common and unifying language of the 
United States as part of its immigration bill. We hope to learn 
more about the differences of these amendments today so that we 
can make an informed decision as we move forward with 
negotiating the House and Senate immigration bills.
    It should also be noted that 27 states have enacted laws 
declaring English as their official language in various forms. 
However, I think the one thing most of us do agree on is the 
importance of learning English. Anyone who hopes to achieve the 
American dream must first know, understand and use English. As 
such, I hope to also discuss this topic today to learn more 
about not only the importance of learning English, but the 
importance of providing opportunities to learn English.
    Before us today is a balanced, diverse panel of witnesses 
who are experts and representatives of those on both sides of 
the issue. I look forward to gathering valuable input from them 
and allowing members the opportunity to ask the tough questions 
that need to be asked as we work through this process. Again, 
we are here today to just listen and learn about this important 
issue.
    I now yield to Ms. Woolsey for whatever opening statement 
she wishes to make.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I have to go on record saying that I believe we are here 
today because your House Leadership is trying to put a real 
discussion on comprehensive immigration reform as far away as 
they can, so we are holding hearings like this. But having said 
that, I want to thank you, Mr. Chairman, because your efforts 
have made this hearing very balanced.
    The testimony of the two witnesses opposed to English-only, 
or English-as-the-official-language policies, will persuasively 
make the case against such policies, but ironically I also 
think that the testimony of the two witnesses in favor of such 
policies make a case against those policies.
    In his written testimony, Mr. Mujica states that no serious 
person is suggesting that we become an English-only nation, and 
State Senator McKinley, a supporter of the Iowa official 
language bill, admits that the reality was that in Iowa they 
already had an official language in practice, English.
    So, to me, that shows a lot of support for what we already 
know, and are going to hear today, that English is not under 
attack, that it is overwhelmingly the language of our 
government; that immigrants want to learn English; and that 
instead of promoting unnecessary divisive policies, we ought to 
simply help immigrants to learn English, because we will hear 
in a few minutes, according to the most recent census, that 92 
percent of our population speaks English.
    Another recent survey found that 90 percent of Latinos 
believe that it is important for immigrant children to learn 
English. In fact, Latinos were even more likely than others to 
say that. Unfortunately, and not surprisingly, the president 
and this Congress have been going in the opposite direction.
    Last month, the House Appropriations Committee approved a 
bill that provides less funding for the year 2007 to help 
students learn English than the year 2003. The same bill 
provides less funding for 2007 to help adults learn English 
than in the year 2002. And the Government Accountability Office 
will release a report today that concludes that the U.S. 
Department of Education needs to do more to help states help 
students learn English. Not only are English-only or English-
as-the-official-language policies unnecessary and divisive, 
they truly can be harmful.
    First, they do nothing to help immigrants learn English. 
They also jeopardize public safety. In the case of a natural 
disaster or a terrorist attack or a health crisis, it is 
critical that government be able to communicate quickly and 
effectively with the entire public. For example, if there is a 
pandemic flu and non-English speakers cannot understand the 
government's instructions, everyone will be at risk.
    So I look forward to hearing our witnesses, but again, Mr. 
Chairman, I believe that the policies we are discussing today 
are a solution in search of a problem.
    I thank you.
    Chairman Castle. Thank you, Ms. Woolsey. We appreciate your 
opening statement.
    Now we will turn to our witnesses.
    Basically, I will introduce each of you before you speak, 
and then we will go back to the beginning, back to Mr. Mujica 
being introduced first, who will start the discussion.
    You will each have 5 minutes, which will be on that little 
monitor in front of you, which is green, 4; yellow, 1; and red 
thereafter. So when you see the yellow, think about summing up 
and hopefully finish up when you hit the red.
    We are all very pleased to have all of you here. I will now 
give a little bio on each of you.
    Mr. Mauro Mujica has been chairman of the board and CEO of 
U.S. English since 1993, the nation's oldest, largest citizen 
action group dedicated to preserving the unifying role of the 
English language in the United States.
    Since his election to the position, Mr. Mujica has overseen 
a renewed drive to pass official English legislation at the 
state and Federal level. As an immigrant from Chile who became 
a naturalized citizen in 1970, he has a firsthand understanding 
of the obstacles facing non-English speakers.
    Mr. Mujica holds a bachelor's and master's degree in 
architecture from Columbia University. He was also a member of 
the advisory board of the U.S.-U.K. Fulbright Commission from 
1995 to 2000, and former chairman of the U.S. Fulbright 
Advisory Board of the U.S.-U.K. Fulbright Commission from 1997 
to 2000.
    State Senator Paul McKinley represents the 36th Senate 
District for the state of Iowa, where he is now serving his 
second term. He is co-chairman of the Education Committee and 
also serves on the Commerce, Economic Growth and Ways and Means 
Committees, as well as on the Education Appropriations 
Subcommittee.
    State Senator McKinley was a cosponsor of legislation 
making English the official language of the state of Iowa, 
which in 2002 became the most recent state to enact an official 
English language law. Before heading to the state senate, he 
built his career as a businessman and an entrepreneur. Senator 
McKinley received his bachelor's degree from the University of 
Iowa.
    Mr. Raul Gonzalez is the legislative director for the 
National Council of La Raza. The National Council of La Raza is 
the largest national Hispanic civil rights and advocacy 
organization in the United States that works to improve 
opportunities for Hispanic Americans. Focusing on education 
policy, Mr. Gonzalez works with Congress, the administration, 
advocacy groups and the council's affiliated community-based 
organizations to improve educational opportunities for Hispanic 
Americans.
    He is a former legislative assistant to Representative 
Major Owens, a member of our committee, and a former New York 
City public school teacher, where he taught writing, algebra 
and special education. Mr. Gonzalez was born in Puerto Rico and 
was raised in Brooklyn, New York. He graduated from City 
College of New York with degrees in English and psychology.
    John Trasvina is the interim president and general counsel 
of the Los Angeles-based Mexican American Legal Defense and 
Educational Fund, or MALDEF, located in Los Angeles. MALDEF is 
the leading nonprofit Latino litigation advocacy and 
educational outreach institution in the United States 
protecting their civil rights. Mr. Trasvina is the former 
western regional director for the U.S. Commission on Civil 
Rights and a former deputy assistant attorney general for 
legislative affairs at the U.S. Department of Justice.
    He is also the former general counsel and staff director 
for the Senate Judiciary Subcommittee on the Constitution. For 
the past two decades, he has played a major policy role at the 
local and Federal levels on immigration and civil rights 
matters affecting immigrants, women and minority communities. 
He is a graduate of Harvard University and Stanford Law.
    Mr. Art Ellison has been the director of the New Hampshire 
Department of Education's Bureau of Adult Education for over 25 
years. He has also worked as a road construction laborer, high 
school social studies teacher, and a local adult education 
teacher. In addition, he is the founder, executive producer and 
actor with the Northern New England Literacy Theater.
    Mr. Ellison received his undergraduate degree from Earlham 
College, his master's degree from Northwestern and his doctoral 
degree from the University of Massachusetts. Mr. Ellison is 
also here today representing the National Council of State 
Directors of Adult Education.
    It is an impressive array of individuals we have here 
today. We thank all of you very much for being here.
    Just to go through the format again, you will have 5 
minutes. When all of you are done, we will then open it up to 
members who are here to ask questions, alternating from one 
side to the other.
    So we welcome you. We look forward to a lively and 
interesting and hopefully informational discourse today on this 
important subject.
    Mr. Mujica, we will start with you, sir.

Prepared Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good afternoon and thank you for joining me. I welcome you here 
today as part of a series of discussions the committee, and its 
subcommittees, are holding here in Washington and throughout the nation 
over the next several weeks to discuss U.S. immigration policy and 
proposals.
    Today's hearing will closely examine the pros and cons of making 
English the official language. It is designed to be a balanced hearing 
allowing members to hear views on both sides of the issue, and to 
provide them with an opportunity to ask questions as to whether or not 
English should be the official language of the U.S. We are simply here 
to listen and learn.
    The issue of making English the official language of the United 
States has long been controversial. The last time this committee and 
the Congress discussed the issue by itself was in the 104th Congress. 
Now, due to the steady growth of new immigrant populations within U.S. 
borders, whose primary language is other than English, the discussion 
and issues of language diversity has once again brought attention to 
this public policy debate.
    Further, as most of you may be aware, the Senate recently revived 
this issue by including two amendments declaring English as both the 
``national'' and ``common and unifying'' language of the United States 
as part of its immigration bill. We hope to learn more about the 
differences of these amendments today so that we can make an informed 
decision as we move forward with negotiating the House and Senate 
immigration bills. It should also be noted that 27 states have enacted 
laws declaring English as their official language, in various forms.
    However, I think the one thing most of us do agree on is the 
importance of learning English. Anyone who hopes to achieve the 
American dream must first know, understand, and use English. As such, I 
hope to also discuss this topic today to learn more about not only the 
importance of learning English, but the importance of providing 
opportunities to learn English.
    Before us today is a balanced, diverse panel of witnesses who are 
experts and representatives of those on both sides of the issue. I look 
forward to gathering valuable input from them and allowing members the 
opportunity to ask the tough questions that need to be asked as we work 
through this process. Again, we are here today to just listen and learn 
about this important issue. I will now yield to my friend and ranking 
member, Ms. Woolsey, so that she may make any opening statement she may 
have.
                                 ______
                                 

       STATEMENT OF MAURO MUJICA, CHAIRMAN OF THE BOARD,
                       U.S. ENGLISH, INC.

    Mr. Mujica. Thank you, Mr. Chairman, for the opportunity to 
testify regarding H.R. 997, legislation that would make English 
the official language of the United States.
    My name is Mauro E. Mujica, and I am the chairman of the 
board of U.S. English, Inc., a nonprofit organization based 
here in Washington, D.C. U.S. English was founded in 1983 by 
former Senator S. I. Hayakawa, and we have since grown to more 
than 1.8 million members. Our organization focuses on public 
policy issues that involve language and national identity, 
particularly official English laws.
    As an immigrant and naturalized citizen, the issues we are 
discussing today are of great personal importance to me. When I 
came to the United States from Chile in 1965, there was no 
doubt in my mind that I had a civic duty to learn the common 
language of this country.
    Mr. Chairman, one-third of U.S. English members are either 
immigrants or the children of immigrants. A Rasmussen poll this 
June found that 84 percent of Americans favor a law to make 
English our nation's official language, and a Zogby poll last 
summer found that support for official English is higher among 
first-and second-generation Americans than it is among native-
born Americans. In both its motivation and content, H.R. 997 is 
a pro-immigrant bill.
    While there is certainly a need for government to 
occasionally operate in other languages, that need must be 
balanced by a legitimate insistence that immigrants are on the 
road toward learning English. That balance is embodied in H.R. 
997, which requires that routine government operations be in 
English, while listing a number of exceptions where 
multilingual operations make sense.
    In a country where residents speak 322 languages, 
multilingual government must be the exception, not the rule. 
Unfortunately, instead of promoting English learning, 
government agencies increasingly seek to cater to immigrants in 
as many languages as possible. The result is that I, a 42-year 
resident of the United States, can walk into virtually any 
government office and demand services in my native language, 
and I will receive them, no questions asked.
    My frustration is shared by Hispanic columnist Alicia 
Colon, who wrote in the June 28 New York Sun, ``What made us 
different from immigrants who were forced to conquer the 
language gap to succeed? Do all Italian-Americans speak 
Italian?''
    If the millions that do not speak English were on their way 
toward learning English, there would be no reason for concern. 
Unfortunately, survey data suggests that the state of limited 
English proficiency is often terminal. Last march, the Pew 
Hispanic Center surveyed Mexican migrants regarding English 
proficiency. Pew found that among those residing in the United 
States for 6 to 10 years, 45 percent spoke English not well or 
not at all. Pew also found that among those residing in the 
U.S. for 15 or more years, 45 percent spoke English not well or 
not at all. The implication is contrary to prevailing opinion. 
If English learning is not stressed to immigrants upon arrival, 
many never learn it at all.
    I highly recommend the recent Time magazine essay by 
Quebec-born commentator Charles Krauthammer, who argues that 
America is at risk of facing Canadian-style linguistic 
divisions unless we change our assimilation norms. And he says, 
``making English the official language is the first step to 
establishing those norms.''
    Mr. Chairman, I am proud to be fluent in four languages, 
including my native Spanish. H.R. 997 is not in conflict with 
our national goal of personal multilingualism or with President 
Bush's recently announced foreign language initiative. 
Furthermore, I fully agree that we still are, as S. I. Hayakawa 
told the Senate 25 years ago, very backwards in our study of 
foreign languages in the United States.
    But we have also been negligent in our promotion of English 
as the unifying language of our nation. We have never been, and 
no serious person is suggesting that we become an English-only 
nation. But the American people decidedly do not want us to 
become an English-optional nation.
    As your former colleague Lindsey Graham noted in last 
month's Senate floor debate on a similar measure, ``From a 
national perspective, we need to promote assimilation in our 
society.'' H.R. 997 is consistent with this policy goal and 
with the values of the American people, and I respectfully urge 
this committee to pass this legislation.
    [The prepared statement of Mr. Mujica follows:]

       Prepared Statement of Mauro Mujica, Chairman of the Board,
                           U.S. English, Inc.

    Thank you, Mr. Chairman, for the opportunity to testify regarding 
H.R. 997, legislation that would make English the official language of 
the United States.
    My name is Mauro E. Mujica, and I am the Chairman of the Board of 
U.S. English, Inc., a nonprofit organization based here in Washington. 
U.S. English was founded in 1983 by former Senator S.I. Hayakawa, and 
we have since grown to more than 1.8 million members. Our organization 
focuses on public policy issues that involve language and national 
identity, particularly official English laws.
    As an immigrant and naturalized citizen, the issues we are 
discussing today are of great personal importance. When I came to the 
United States from Chile in 1965, there was no doubt in my mind that I 
had a civic duty to learn the common language of this country.
    Mr. Chairman, one-third of U.S. English members are either 
immigrants or the children of immigrants. A Rasmussen poll this June 
found that 84 percent of Americans favor a law to make English our 
nation's official language, and a Zogby poll last summer found that 
support for Official English is higher among first- and second-
generation Americans than it is among native-born Americans. In both 
its motivations and content, H.R. 997 is a pro-immigrant bill.
    While there is certainly a need for government to occasionally 
operate in other languages, that need must be balanced by a legitimate 
insistence that immigrants are on the road toward learning English. 
That balance is embodied in H.R. 997, which requires that routine 
government operations be in English, while listing a number of 
exceptions where multilingual operations make sense.
    In a country whose residents speak 322 languages, multilingual 
government must be the exception, not the rule. Unfortunately, instead 
of promoting English learning, government agencies increasingly seek to 
cater to immigrants in as many languages as possible. The result is 
that I--a 42 year resident of the United States--can walk into 
virtually any government office and demand services in my native 
language--and I'll receive them, no questions asked (!) My frustration 
is shared by Hispanic columnist Alicia Colon, who wrote in the June 
28th New York Sun: ``What made us different from other immigrants who 
were forced to conquer the language gap to succeed? Do all Italian-
Americans speak Italian?''
    If the millions that do not speak English were on their way toward 
learning it, there would be no reason for concern. Unfortunately, 
survey data suggests that the state of limited English proficiency is 
often terminal. Last March the Pew Hispanic Center surveyed Mexican 
migrants regarding English proficiency. Pew found that among those 
residing in the United States for 6-10 years, 45 percent spoke English 
not well or not at all. Pew also found that among those residing in the 
U.S. for 15 or more years, 45 percent spoke English not well or not at 
all. The implication is contrary to prevailing opinion--if English 
learning is not stressed to immigrants upon arrival, many never learn 
it at all.
    I highly recommend the recent Time magazine essay by Quebec born 
commentator Charles Krauthammer, who argues that America is at risk of 
facing Canadian-style linguistic divisions unless we change our 
assimilation norms. And ``making English the official language is the 
first step to establishing those norms.''
    Mr. Chairman, I'm proud to be fluent in four languages, including 
my native Spanish. H.R. 997 is not in conflict with our national goal 
of personal multilingualism or with President Bush's recently announced 
foreign language initiative. Furthermore, I fully agree that we still 
are, as S.I. Hayakawa told the Senate 25 years ago, very backwards in 
our study of foreign languages in the United States.
    But we have also been negligent in our promotion of English as the 
unifying language of our nation. We have never been, and no serious 
person is suggesting that we become, an ``English Only'' nation. But 
the American people decidedly do not want us to become an ``English 
Optional'' nation. As your former colleague Lindsey Graham noted in 
last month's Senate floor debate on a similar measure, ``from a 
national perspective, we need to promote assimilation in our society.'' 
H.R. 997 is consistent with this policy goal and with the values of the 
American people, and I respectfully urge this committee to pass this 
legislation.
                                 ______
                                 
    Chairman Castle. Thank you, Mr. Mujica. We will obviously 
be getting back to you soon.
    Senator McKinley?

        STATEMENT OF HON. PAUL MCKINLEY, STATE SENATOR,
                     IOWA GENERAL ASSEMBLY

    Mr. McKinley. Chairman Castle, Ranking Member Woolsey, 
thank you for inviting my views on English as our official 
language. I am serving my second term in the Iowa Senate as co-
chairman of the Iowa Senate Committee on Education. In 2001, I 
was cosponsor of Senate File 165, the Iowa English Language 
Reaffirmation Act, a bill authored by then-Senator, now-
Congressman Steve King.
    The Iowa English Language Reaffirmation Act added a new 
section to the Iowa Code declaring English the official 
language of the state. It requires all state and local official 
government business to be conducted in English, with some 
exceptions.
    Those exceptions are teaching languages; the Individuals 
with Disabilities Education Act; trade, tourism, or commerce; 
actions to promote the public health and safety; any census; 
actions that protect the rights of crime victims or criminal 
defendants; the use of proper names, terms of art or phrases in 
languages other than English; any language usage required by or 
necessary to secure the rights guaranteed by state or Federal 
constitution; and communication, examination or publication for 
driver's licenses if public safety is jeopardized.
    The act also does not prohibit state officials from 
communicating in a language other than English if it is 
necessary to perform official business. Senate File 165, the 
Iowa official English law, was signed by Governor Vilsack, a 
Democrat, on March 1, 2002. Prior to its passage, those who did 
not want English as our official state language raised a few 
objections.
    The opposition to English came primarily from liberal 
activist groups and certain newspapers. Dire consequences were 
predicted, but none materialized. Their main objection was that 
making English our official language would somehow be seen as 
an act not welcoming legal immigrants. This is absolutely 
false. The best way to welcome legal immigrants and help them 
through their naturalization process is to help them learn 
English. Common language is the glue that binds a society and 
an economy.
    Some opponents of English also argued that it was racist to 
have an official language. Nothing could be further from the 
truth. The reality is that in Iowa, we already had an official 
language in practice. It was English. There is nothing new 
about a person's racial background that makes it harder or 
easier to learn English.
    In Iowa, we have a proud tradition of assimilating 
immigrants in our Midwestern melting pot. Iowa is a very 
welcoming state and is grateful for the vast contributions of 
its citizens from assorted backgrounds. A few opponents of 
English claimed that fewer non-English speaking immigrants 
would come to Iowa if we made English our official language. 
They were wrong.
    In fact, I believe the level of immigration in Iowa has 
increased after passage of our official law. In my home town of 
Chariton, we have seen a large number of Ukrainians settle and 
start businesses in markets where we had urgent need. They have 
improved local neighborhoods by fixing up broken down houses. 
Their children go to our local schools, and all of them have 
readily mastered the English language.
    In my experience, the opposition to Iowa's official English 
law before it became law was political, not based on policy or 
practical concerns. An excellent illustration of this 
observation can be found in the Iowa House hearings that were 
held prior to passage. During those hearings, Ngu Alons 
testified to her support for English as our official language.
    I urge you to read her story. She immigrated to the United 
States as a Cambodian refugee with no English skills. She 
learned English quickly and this mastery of English enabled her 
to testify before the Iowa House in support of English as the 
official language.
    At that hearing, English opponents urged by political 
activists booed her during her presentation and did not give 
her the respect she deserved. These same activists who argued 
that English was discriminatory had no qualms about 
discriminating against her that day. In my role in the Iowa 
Senate, I have had the opportunity to monitor the 
implementation of the law. The problems raised by opponents of 
the measure never materialized. The law remains intact and I 
can tell you without reservation it is working.
    In fact, last fall the Iowa legislature conducted hearings 
around Iowa on the immigration issue in Des Moines, Spirit 
Lake, Ottumwa and Davenport. No immigrant objected to English 
as Iowa's official language. The only individual who objected 
was a political activist.
    Finally, I would like to remind the committee that the Iowa 
English law is very similar to English Language Unity Act, 
House Resolution 997, introduced by Congressman King, with 161 
cosponsors. I believe that the Iowa and Federal situation have 
a great deal in common. You will hear a lot of political 
objections to making it the official language, but if it 
becomes law, I think those will dissipate just as they did in 
Iowa.
    Thank you.
    [The prepared statement of Mr. McKinley follows:]

      Prepared Statement of Hon. Paul McKinley, Iowa State Senator

    Chairman Castle, Vice Chairman Osborne and Ranking Member Woolsey, 
thank you for inviting my views on English as our official language. 
For the record, I am serving my second term in the Iowa Senate. 
Currently, I am the co-Chairman\1\ of the Iowa Senate Committee on 
Education. I also serve on the Education Appropriations Subcommittee, 
and the Commerce , Economic Growth, and Ways and Means Committees. I 
have served in the Iowa Senate since 2001.
---------------------------------------------------------------------------
    \1\ The Iowa Senate is currently divided equally between Democrat 
and Republican members, so there are two co-Chairmen of the Education 
Committee.
---------------------------------------------------------------------------
    My career background is as a businessman and entrepreneur. I was 
born and raised in Russell, Iowa. I live nearby in Chariton, Iowa now. 
I have a B.A. degree from the University of Iowa. I serve on the Board 
of Directors of Great Western Bank. I am a member of the Chariton First 
United Methodist Church, Lucas County Farm Bureau, Lucas County 
Historical Society, and Lucas County Arts Council. I am a former member 
of Southern Prairie AEA, Rathbun Lake Association, Area Agency on 
Aging, Iowa Job Training Council, CIRAS, Rathbun Area Health Services 
Board, Wayne County Hospital Board of Trustees, and NFIB.
    In 2001, I was a cosponsor of Senate File 165, the Iowa English 
Language Reaffirmation Act, a bill authored by then Senator, now 
Congressman, Steve King.
    The Iowa English Language Reaffirmation Act added a new section to 
the Iowa Code declaring English the official language of the state. It 
requires all state and local official government business to be 
conducted in English with some exceptions.
    The English language requirement in the Act does not apply to 
teaching languages; requirements under the federal Individuals With 
Disabilities Education Act (what are exceptions required by IDEA); 
actions, documents or policies necessary for trade, tourism or 
commerce; actions or documents that protect the public health and 
safety; actions or documents that pertain to any census of populations; 
actions or documents that protect the rights of crime victims or 
criminal defendants; use of proper names, terms of art, or phrases in 
languages other than English; any language usage required by or 
necessary to secure rights guaranteed by the state or federal 
constitution; and oral or written communications, examinations or 
publications produced or utilized by a driver's license station, if 
public safety is jeopardized.
    The Act also does not prohibit an individual member of the General 
Assembly or an officer of state government from communicating in a 
language other than English if the person deems that communication 
necessary to perform official business.
    The Act specifies that the English language requirement should not 
be construed to limit the preservation or use of Native American 
languages or disparage any language other than English or discourage 
any person from learning or using a language other than English.
    The Act also adds a new Code section that establishes a statutory 
presumption that English language requirements in the public sector are 
consistent with Iowa law and provides that any ambiguities in the Iowa 
English language requirements are to be resolved in accordance with the 
Bill of Rights of the United States Constitution, not to deny or 
disparage rights retained by the people, and to reserve powers to the 
states or to the people.
    Senate File 165, the Iowa English Language Reaffirmation Act was 
signed by Governor Vilsack, a Democrat, on March 1, 2002. Prior to its 
passage, during debate of the measure, those who did not want reaffirm 
English as our official state language raised a few objections. The 
opposition to English came primarily from liberal activist groups and 
certain newspapers. When SF 165 was debated, some predicted dire 
consequences. However, their predictions did not materialize.
    Their main objection was that making English our official language 
would somehow be seen as not welcoming legal immigrants. This is 
absolutely false. The best way to welcome legal immigrants and help 
them through their naturalization process is to help them learn 
English. Common language is the glue that binds a society and an 
economy. Without English, they are strangers. With English they are 
able to communicate, join the community and work their way up the 
economic ladder. The federal government has long recognized the 
importance of English. In fact, proof of English language ability, both 
written and oral, is required of all immigrants in order to naturalize, 
except in certain circumstances.
    Some opponents of English also argued that it was racist to have an 
official language. Nothing could be further from the truth. The reality 
is that in Iowa we already had an official language in practice-it was 
English. There is nothing about a person's racial background that makes 
it harder or easier to learn English. In Iowa we have a proud tradition 
of assimilating immigrants in our Midwestern melting pot. Over the 
years newcomers to Iowa have learned English and fully participated as 
Iowans in our political process. Without English it would have been 
impossible. If Iowa immigrants were unable to communicate in English, 
it would have been impossible for the German, Czech, Lao, Dutch, 
Bosnians, Russians, Ukrainians, Somalians, and numerous others to fully 
assimilate and become the bedrock of our communities and state. Iowa is 
a very welcoming state and is grateful for the vast contribution of its 
citizens from assorted backgrounds.
    A few opponents of English claimed that fewer non-English speaking 
immigrants would come to Iowa if Iowa made English our official 
language. They were wrong. Immigrants continue to make Iowa their home. 
In fact, I believe the level of immigration to Iowa has increased after 
passage of our official English law. In my own hometown of Chariton we 
have seen a large number of Ukrainians settle and start businesses in 
markets with an urgent need. They have improved local neighborhoods by 
fixing up rundown homes. Their children go to our local schools. All of 
them have readily mastered the English language.
    In my experience, the opposition to Iowa's official English law 
before it became law was political, not based on policy or practical 
concerns. An excellent illustration of this observation can be found in 
the Iowa House hearings that were held prior to passage. During these 
hearings Ngu Alons testified to her support for English as our official 
language. She immigrated to the United States as a Cambodian refugee 
with no English skills. She learned English quickly, and this young 
woman's mastery of English enabled her to testify before the Iowa House 
to support English as Iowa's official language. At that hearing, 
English opponents, urged by political activists, booed her during her 
presentation and did not give her the respect she deserved. These same 
activists who argued that English was discriminatory had no qualms 
about discriminating against her that day. The political activists were 
intolerant of an immigrant who took a stand for English. I believe her 
personal story is instructive and have included it with my testimony. 
Those who argue that immigrants do not support English are wrong. 
Immigrants know how important learning English is for the economic 
success of not only themselves, but also for their children.
    In my role in the Iowa Senate I have had occasion to monitor the 
implementation of the Iowa English Language Reaffirmation Act. The 
problems raised by opponents of the measure never materialized. The 
Iowa law has remained intact. It has not been amended. I can tell you 
without reservation that the law is working well and has been 
positively received in Iowa. There are no serious attempts to repeal or 
change the law because it is working well, as intended.
    In fact, last fall the Iowa Senate conducted hearings around Iowa 
on the immigration issue and immigrants and native Iowans. The hearings 
were held in Des Moines, Spirit Lake, Ottumwa and Davenport. No 
immigrant objected to English as Iowa's official language. The only 
individual who raised the issue was not an immigrant, but rather a 
political activist. The hearings were very well attended and people 
were given the opportunity to testify to any issue they believed to be 
a barrier. The only time language was discussed was when service 
providers in the communities spoke about how difficult it was for the 
hospitals, jails, law enforcement and schools to deal with non-English 
speaking people seeking services. One frequently mentioned area of 
concern was that many women's domestic violence centers where called 
upon to serve an increased number of non-English speaking people.
    Finally, I would like to remind this Committee that the Iowa 
English law is very similar to the English Language Unity Act, H.R. 
997, which was introduced by Iowa Congressman Steve King. It currently 
has 161 bipartisan cosponsors. I believe that the Iowa and federal 
situations share a great deal in common. You can expect to hear 
political objection to making English the official language of the 
federal government. After H.R. 997 becomes law, I believe those 
objections will evaporate because they are not well-founded in policy-
based or practical concerns. An official English law, like H.R. 997, 
has the necessary common-sense exceptions while still recognizing the 
need for an official language for the federal government.
Story of Ngu Alons, Immigrant to Iowa
    My name is Ngu Alons, and I am a first generation immigrant from 
Cambodia. I arrived in the US with my family after fleeing my homeland 
as the Khmer Rouge murdered millions of my fellow citizens. My family 
left everything behind and entered a country where we had nothing--no 
assets and no connections. My parents recognized what a blessing it was 
simply to be alive and free and immediately made the commit to become 
``Americans''.
    After escaping Cambodia with literally nothing, we waited over a 
year in a refugee camp in Thailand, hoping for asylum somewhere in a 
free country. I was 8 years old, and witnessed much death and 
destruction in the process, more than anyone should have to endure. I 
watched my parents struggle with the uncertainty of the situation and 
the frustration at having no control over our destiny. Fortunately my 
entire immediate family was together and we were ultimately allowed 
legal entrance into the United States, specifically to Madison, South 
Dakota.
    On arriving, we knew no English, had no money, and were seemingly 
the only non-white people in the entire county! Having attended only a 
few days of school, I was far behind my peers with whom I couldn't even 
converse. I committed myself to learn English as quickly as I could, 
which I accomplished without the assistance of ESL since it wasn't 
provided at that time. Eventually I was enrolled in Advanced Placement 
classes and after completing high school attended college, paying my 
own way through hard work and frugal perseverance.
    My father quickly found a job--making $3.25/hr washing cars for a 
local auto dealership, and worked hard. He also knew no English but 
through determination managed to communicate (in English) with his 
employer and was always thankful for his job. Committed to following 
the law, he shunned welfare support, instead working additional hours 
to earn a position in society. He slowly moved up, eventually running 
equipment for a food processing plant in Michigan, always recognized as 
hard working, rarely ever missing a day of work.
    It is clear to me that the English language was both a unifier and 
an identification that helped the assimilation process for my family. I 
know Cambodian, Chinese, and some French, but I proudly speak English 
since I am an American (I earned my US citizenship in 1988). I think 
learning and knowing multiple languages is a good thing, but not at the 
expense of mastering English--our common bond as a people.
    Without English we simply cannot be American--it is a major part of 
our identity as a nation. English has always been the common language 
of America--it simply has never been formally identified as such which, 
until recently, wasn't necessary. When I arrived there was no question 
that I was the new person and English was the established language. 
Today the necessity of learning English for the good of the individual 
and the nation is no longer obvious nor respected, which is the reason 
that a formal declaration of English as our official language is now 
required.
    I love America and thank God every day that I live as a free person 
enjoying what has been earned through the sacrifice of those that came 
before me. I try to give back more than I take in every way, knowing 
that many have given their lives for our good. While I will always be 
from Cambodia, today I am first and foremost an American and proudly 
so.
                                 ______
                                 
    Chairman Castle. Thank you, Senator McKinley.
    Mr. Gonzalez?

       STATEMENT OF RAUL GONZALEZ, LEGISLATIVE DIRECTOR,
                  NATIONAL COUNCIL OF LA RAZA

    Mr. Gonzalez. Thank you, Chairman Castle, Ranking Member 
Woolsey and members of the subcommittee. Again, my name is Raul 
Gonzalez. I am the legislative director at the National Council 
of La Raza here in Washington. I have been working in the field 
of education for 15 years as a public school teacher, 
congressional aide, and in the nonprofit sector.
    So it is a pleasure to appear before this subcommittee 
which has worked effectively and in a bipartisan manner to 
approve legislation important to Latinos and English learner 
students, including Head Start, which we hope will someday pass 
the full Congress, and the School Lunch Act.
    So I appreciate the subcommittee's efforts to hold a 
balanced hearing on this issue of English as the official 
language of the United States. It is important to remember that 
this hearing is being held within a specific context, which is 
the ongoing debate about immigration reform. We hope that this 
hearing will be productive and will not distract Congress from 
acting on legislation to fix our broken immigration system this 
year. We urge Congress to pass a comprehensive immigration 
reform bill.
    NCLR believes that English is critical to success in this 
nation and certainly supports English language acquisition and 
effective integration of immigrants. In fact, NCLR and its 
affiliated CBOs, community-based organizations, are in the 
business of helping people learn English. About 150 of our 300 
community-based organizations provide some ESL services and our 
network of more than 90 charter schools provide services to a 
variety of students, including ELLs.
    NCLR has invested a great deal of time in shaping the No 
Child Left Behind Act to improve the English language 
acquisition and contact acquisition of students who are not 
English proficient. English-only laws can only weaken, in our 
opinion, NCLB, and we hope to work with the committee to 
strengthen NCLB, not to weaken it for English learner students.
    In my testimony today, I want to focus on the dangers of 
official language or English-only policies and the potential 
impact on education. I propose a policy agenda to help LEP 
adults and children learn English. My written testimony briefly 
discusses how these policies affect health care and safety, as 
well as the Inhofe and Alexander amendments to Senate bill, S. 
2611, which is the bipartisan compromise legislation passed in 
May. I would be happy to answer questions on these issues and 
amendments during Q&A.
    At issue is whether there is a need for English-as-the-
official-language policy. By any rational or historical 
standard, the answer is no. The facts bear this out. Supporters 
of English-only policies argue that English is under attack. 
The fact is, English is already the language of government. GAO 
reports have consistently shown that about 1 percent of 
government documents are printed in a language other than 
English.
    Supporters of English-only policies argue that too many 
people don't speak English. The fact is almost every American 
in this country, and possibly some abroad, speak English, 92 
percent of Americans, according to the U.S. census, speak 
English with no difficulty, and 82 percent speak only English.
    Supporters of English-only policies argue that immigrants 
don't want to learn English. The fact is today's immigrants 
learn English as quickly as previous groups. A study by the 
Lewis Mumford Center at Albany found that second-generation 
immigrants are largely bilingual, and 92 percent of Spanish 
immigrants speak English, as do 96 percent of Asian immigrants.
    This is remarkable, given that there has been insufficient 
investment in English language acquisition programs. Since 
fiscal year 2004, funding for adult education programs in Title 
III, which is the ELL section of NCLB, has decreased by more 
than $22 million and the Even Start family literacy program has 
been decimated with funding cuts of nearly $148 million.
    It is fair to expect immigrants to integrate into American 
society and English language acquisition is a big part of that. 
But we need to adopt policies that will make that happen, and 
Congress hasn't done enough so far to help people learn 
English.
    Most relevant to this committee, English-only policies 
weaken the No Child Left Behind Act, which is intended to hold 
schools accountable for helping English learner students learn 
English and meet the same reading and math requirements as 
other children. They also weaken the parental involvement 
provisions of that law, which is critical.
    Given the facts, English-as-the-official-language policies 
can only be viewed and counterproductive and extremist. First, 
as noted above, translation of documents is not a burden on our 
government. Second, the English language is not under attack. 
Third, recent immigrants are learning English and those who do 
not are seeking the opportunity to learn English. Fourth, 
English-only policies fail an important test of what makes good 
policy. In this case, they don't result in a single person 
learning English.
    Congress can do better. Rather than pursue these policies, 
Congress should take affirmative steps to help people learn 
English. Congress should increase funding for adult education 
programs and approve the Workforce Investment Act. Congress 
should undertake a major new investment in ESL to help people 
learn English and for immigrant integration. Congress should 
increase funding for Even Start, the nation's premier family 
literacy program.
    And Congress should strengthen, not weaken, the No Child 
Left Behind Act. That is a critical part of this effort and we 
hope to work with the Congress to do that.
    I would be happy to answer questions on any of these 
issues. Thank you.
    [The prepared statement of Mr. Gonzalez follows:]

       Prepared Statement of Raul Gonzalez, Legislative Director,
                      National Council of La Raza

Introduction
    My name is Raul Gonzalez; I am the Legislative Director at the 
National Council of La Raza (NCLR). NCLR is a private, nonprofit, 
nonpartisan organization established in 1968 to reduce poverty and 
discrimination and improve opportunities for the nation's Hispanics. As 
the largest national Hispanic civil rights and advocacy organization in 
the U.S., NCLR serves all Hispanic nationality groups in all regions of 
the country through a network of nearly 300 Affiliate community-based 
organizations.
    NCLR appreciates the Subcommittee's efforts to hold this hearing on 
the issue of English as the official language of the United States. 
Debates on language often shed more heat than light on what is 
appropriate policy for the nation; we are hopeful that today's hearing 
will be productive. It is important, however, for the Subcommittee, the 
entire Congress, and the American people to remember that this hearing 
is being held within a specific context, namely the current debate on 
immigration reform. We hope that the hearing will not distract Congress 
from acting on legislation to fix our broken immigration system this 
year. We urge Congress to pass comprehensive immigration reform.
    As a preliminary matter, I would like to state unequivocally that 
NCLR believes that English is critical to success in this nation and 
strongly supports English language acquisition and effective 
integration of immigrants. We realize that in the past we may not have 
made our views on this issue clear. The fact is, NCLR and its Affiliate 
Network are in the business of helping Latinos and immigrants acquire 
English. For example, about half of our nearly 300 Affiliates provide 
some English language acquisition services. In addition, NCLR's network 
of more than 90 charter schools serves a diverse group of students, 
including English language learners (ELLs).
    NCLR has also invested a great deal of time in shaping the No Child 
Left Behind Act (NCLB) and in working toward more effective 
implementation of that law, which we see as a lynchpin for the future 
of Latino students, nearly half of whom are ELL--and which can only be 
weakened by adopting English-only policies. NCLR worked with Congress 
to craft a new bilingual education law, Title III of NCLB, which has 
clear accountability for helping ELLs acquire English and keep up with 
their English-proficient peers in reading, math, and science. NCLR 
worked with Congress to make sure that parents are part of the 
education process, particularly immigrant parents who are not English 
proficient. NCLR has been working in collaboration with the Department 
of Education to improve implementation of the ELL provisions of NCLB 
and to fight back efforts to erode accountability for ELLs.
    During reauthorization of NCLB, NCLR hopes to work with Congress to 
strengthen--not discard--its accountability provisions. NCLR's 
publication, Improving Assessment and Accountability for English 
Language Learners in the No Child Left Behind Act, provides a roadmap 
for NCLB reauthorization. We look forward to the opportunity to discuss 
our recommendations with the Subcommittee.
    NCLR has also worked to inform the Latino community about NCLB, 
particularly the parents of students most likely to benefit from NCLB, 
yet most likely to be ignored. Specifically, NCLR has conducted 
workshops and trainings for Latino, limited-English-proficient, and 
farmworker parents. In the rural community of Woodburn, Oregon, we 
conducted a day-long training which attracted about 100 farmworker 
parents of ELLs. Their deep commitment to the education of their 
children was clear. Their main challenge in fulfilling their role under 
NCLB--to hold their local schools accountable for improving educational 
outcomes--is their lack of English proficiency.
    We know we have more work to do as more people need to transition 
to English. We hope that our failure to effectively communicate our 
message to Congress and other policy-makers will not result in Congress 
taking steps to make immigrant integration less effective.
    In my testimony today, I will focus on the need for ``official 
language'' or English-only policies and their potential impact on 
education. I will also briefly discuss how these policies can affect 
health care and public safety. In addition, I will address the Inhofe 
Amendment approved by the Senate during its deliberation on the 
``Comprehensive Immigration Reform Act of 2006'' (S. 2611), the 
bipartisan, compromise legislation approved by the Senate in May. 
Finally, I will propose a policy agenda to help limited-English-
proficient (LEP) adults and ELL children learn English.
Need for English as the Official Language
    At issue is whether or not there is a need for an English as the 
official language policy. By any rational or historical standard, the 
answer is ``no.'' The facts bear this out.
    English is already the language of government. Studies of the U.S. 
Government Accountability Office (GAO) have consistently shown that the 
overwhelming majority of U.S. Government documents are printed in 
English only. In fact, only about 200--or less than 1%--of U.S. 
Government documents are published in a language other than English 
(see U.S. General Accounting Office, Letter to Honorable Richard 
Shelby, Honorable William F. Clinger, Jr., and Honorable Bill Emerson, 
September 20, 1995, GAO/GGD-95-243R, Federal Foreign Language 
Documents; and U.S. General Accounting Office, Letter to Honorable 
Richard Shelby, June 5, 1998, GAO/GGD-98-99 Federal Non-English-
Language Documents 1995-1997).
    Nearly every American speaks English. According to the 2000 U.S. 
Census, 92% of Americans have ``no difficulty speaking English.'' The 
vast majority of Americans (215,423,557 out of 262,375,152--82%) speak 
only English at home. In addition, second language speakers also speak 
English. According to the U.S. Census, most people who speak a language 
other than English also speak English ``very well.''
    Today's immigrants learn English as quickly as previous groups. 
According to the 2000 Census, of the people who report speaking Spanish 
at home, 72% report speaking English ``well'' or ``very well.'' 
Research on the second and third generations consistently shows 
adherence to the three-generation pattern that immigrants have followed 
for more than a century. For example, a report on language assimilation 
by the Lewis Mumford Center for Comparative Urban and Regional Research 
at Albany (Language Assimilation Today: Bilingualism Persists More Than 
in the Past, But English Still Dominates, available on line at http://
mumford.albany.edu/children/researchbriefs.htm) found that the second 
generation is largely bilingual; 92% of the Hispanics speak English 
``well'' as do 96% of the Asians, though most also speak another 
language at home. By the third generation, the pattern is English 
monolingualism. The study also finds that recent immigration levels 
have not changed the pattern.
    This is remarkable given that there has been insufficient 
investment in English language acquisition programs. Since fiscal year 
(FY) 2004, funding for adult education programs has decreased by more 
than $10 million, funding for Title III of NCLB has decreased by more 
than $12 million, and the Even Start family literacy program has been 
decimated, with funding cuts of nearly $148 million. It is fair to 
expect immigrants to integrate into American society, and English 
language acquisition is a large part of that, but we should adopt 
policies that will make that happen. Congress has not done enough to 
aid English language acquisition.
Impact of English as the Official Language on Education, Health, and 
        Public Safety
    English as the official language is the wrong policy option for 
improving the educational status of the nation's 5.5 million ELLs, 
strengthening our health care delivery, and maintaining safe 
communities.
English as the Official Language Would Weaken Education for English 
        Language Learners
    The debate over how best to educate the nation's ELLs has shifted 
dramatically since passage of NCLB. Before NCLB, the ELL student 
population was often overlooked. Little to no accountability for the 
learning of these students existed. Indeed, most states did not include 
ELLs in their accountability systems. In addition, many activists and 
policy-makers argued about what was the best method for helping ELLs 
acquire English. NCLB has correctly changed the debate on ELLs to a 
simple question: How can schools improve the academic achievement and 
attainment of ELLs? NCLB gives states, school districts, and schools 
the power to design their own responses to this question with one 
caveat: They will be held accountable for helping ELLs learn English 
and meet the same reading and mathematics standards as other children. 
States and districts will have to report to parents on their progress, 
and parents will hold schools accountable if they cannot meet their 
goals.
    English as the official language would severely weaken NCLB and 
place millions of ELLs at risk. Specifically, the heart of NCLB is its 
accountability provisions. Accountability under NCLB is based primarily 
on student test scores. Appropriate student assessments, therefore, are 
critical for measuring student achievement. For some students, native-
language assessments are the most likely to accurately measure student 
achievement. NCLB gives states the right to choose whether or not they 
wish to use a native-language assessment, but it does not mandate 
native-language assessments. English as the official language would 
preclude states from using the most accurate assessments and would 
undermine NCLB's accountability system.
English as the Official Language Would Weaken the Parental Involvement 
        Provisions of NCLB
    Prior to NCLB, many activists, parents, and educators expressed 
concern that students were being inappropriately placed in bilingual 
education programs. While there was little research to support this 
claim, it was critical, nevertheless, to give parents the power to 
choose which language instruction program is best for their children. 
Under NCLB, parents must be notified no later than 30 days after the 
beginning of the school year of, among other things, why their children 
have been assigned to ELL services, their children's English 
proficiency levels, how they were assessed, their academic levels, and 
the instructional program in which their children are or will be 
participating. Parents must also receive information about whether or 
not the school has met its annual English-language acquisition and 
academic achievement benchmarks, and their right to remove children 
from or to opt out of bilingual education programs. They must also 
receive assistance in choosing an instructional program for their 
children. These must be provided ``in an understandable and uniform 
format and, to the extent practicable, in a language that the parent 
can understand'' (Title III, No Child Left Behind). English as the 
official language would preclude schools from providing parents of ELLs 
with the information they need to fulfill their roles under NCLB.
English as the Official Language Would Weaken Other Education Programs
    NCLB contains several programs with the potential to increase the 
English language acquisition of ELLs, including supplemental services, 
public school choice, and after-school programs. Specifically, under 
Title I of NCLB, students in schools which fail to make adequate 
progress must provide students with supplemental tutoring services and 
the option to transfer to a better school. School districts must notify 
parents of these options ``in an understandable and uniform format and, 
to the extent practicable, in a language the parents can understand'' 
(Title I, NCLB). For these provisions to be effective, parents must 
fully understand their options. In addition, supplemental services 
providers and after-school programs funded through the 21st Century 
Community Learning Centers program may be precluded under an ``English 
only'' law from performing effective outreach and recruitment to 
parents of ELLs.
    English as the official language would also weaken other education 
and related programs, including Head Start, Even Start, and School 
Nutrition by prohibiting programs from performing effective outreach to 
limited-English-proficient (LEP) populations.
English as the Official Language Would Weaken Health Care Services and 
        Public Safety
    English as the official language is particularly harmful in the 
area of health care. A recent article in the New England Journal of 
Medicine (Language Barriers to Health Care in the United States, 
available on line at http://content.nejm.org/cgi/content/full/355/3/
229) notes that few hospitals are providing interpretation services for 
patients. As a result, practitioners sometimes misunderstand patients' 
symptoms and patients are placed a risk of misunderstanding doctors' 
instructions. According to the article, an incorrect interpreter told 
the mother of a young child with an ear infection to put oral 
amoxicillin in the girl's ears. English as the official language could 
preclude federally funded hospitals and health clinics from effectively 
serving LEP patients.
    English as the official language could weaken federal and local 
governments' ability to respond to natural or man-made emergencies. 
Hurricane Katrina demonstrated that our nation must do a better job of 
responding to large-scale disasters. Effective communication in the 
face of an emergency is critical for LEP persons and English speakers 
alike. For example, according to an NCLR white paper (In the Eye Of The 
Storm: How the Government and Private Response to Hurricane Katrina 
Failed Latinos, available on line at http://www.nclr.org/content/
publications/detail/36812/):
    ``Approximately 70 to 80 Jamaican, Peruvian, and Brazilian 
immigrants who were employed as casino service workers in Gulfport, 
Mississippi, were left by their employer at the apartment complex where 
they resided. The workers reportedly had no access to transportation, 
and while local television stations advised residents to evacuate and 
directed them to shelters, none of these advisories were provided in 
Spanish or Portuguese. A few days later, a few Jamaican immigrants were 
searching under the debris where the apartments once stood looking for 
their co-workers who were missing and presumed dead.''
    Federal agencies such as the Federal Emergency Management Agency 
(FEMA) and the Centers for Disease Control (CDC) are critical in the 
case of a natural disaster, an Avian Flu pandemic, or an act of 
terrorism. If LEP persons do not understand instructions or written 
information from FEMA or the CDC, all Americans will be negatively 
impacted.
    The lack of language services can also place proficient English 
speakers at risk in cases of local emergencies. For example, if an 
apartment building is on fire and the first person who sees it is LEP, 
and there are no 911 operators who can understand what he is reporting. 
The response from the fire department would be delayed and the lives of 
many would be at risk.
    English as the official language would weaken law enforcement and 
criminal justice proceedings. For example, if a victim of domestic 
violence who does not speak English reports a crime to the police, he 
or she will receive a notice from the court or the prosecution as to 
when to come to trial. Failure to provide that notice in a second 
language could result in the victim not knowing when to come to court 
and the case could be dismissed.
Impact of the Inhofe Amendment
    The Senate immigration bill includes an amendment introduced by 
Senator James Inhofe (R-OK). The Inhofe Amendment states that, ``Unless 
otherwise authorized or provided by law, no person has a right, 
entitlement, or claim to have the Government of the United States or 
any of its officials or representatives act, communicate, perform or 
provide services, or provide materials in any language other than 
English.''
The Inhofe Amendment Could Weaken Implementation of Executive Order 
        13166
    This amendment may undercut Executive Order 13166, ``Improving 
Access to Services for Persons with Limited English Proficiency, signed 
by President Bush on August 11, 2000. The Executive Order is intended 
to improve access to government services for LEP individuals while at 
the same time reducing financial, paperwork, and legal burdens on 
government agencies and service providers. In order to facilitate 
compliance with the Executive Order, the Department of Justice provided 
guidance to federal agencies and federal funds recipients ``to 
determine when language assistance might be required to ensure 
meaningful access, and in identifying cost-effective measures to 
address those identified language needs.'' The DOJ identified the 
following factors (see Tuesday, June 18, 2002, Federal Register, Volume 
67, Number 117, page 41459) to help agencies and federal funds 
recipients make this determination:
    1. The number or proportion of LEP persons in the eligible service 
population
    2. The frequency with which LEP individuals come into contact with 
the program
    3. The importance of the program or activity to the LEP person 
(including the consequences of lack of language services or inadequate 
interpretation/translation)
    4. The resources available to the recipient and the costs of 
providing language assistance
    After considering these factors, if federal agencies and federal 
funds recipients determine that they should provide language 
assistance, then they must develop a plan to do so. The DOJ guidance 
for implementation of the Executive Order states that its goal is ``to 
achieve voluntary compliance'' (see Tuesday, June 18, 2002, Federal 
Register, Volume 67, Number 117, page 41465). In other words, the 
Executive Order is intended to provide a framework for federally 
conducted and supported programs to provide services to LEP persons. 
Its goal is to achieve compliance with the minimum of financial and 
paperwork burden on these programs.
    Clearly, the Executive Order is beneficial to service recipients, 
but also to government agencies and others providing services by 
clearly identifying the circumstances under which agencies must make an 
effort to provide language assistance. This makes programs more 
effective and reduces potential litigation. The Inhofe Amendment could 
strike out the Executive Order, thereby removing the current framework 
which meets the needs of both service recipients and providers.
The Inhofe Amendment Could Decrease English Language Acquisition 
        Opportunities
    The Inhofe Amendment may render moot an amendment included in the 
Senate immigration reform bill introduced by Senator Lamar Alexander 
(R-TN) which would provide vouchers for English-as-a-Second Language 
(ESL) services to individuals seeking to legalize under the Senate 
bill. Specifically, the underlying Senate bill amended by Senator 
Inhofe would provide opportunities for undocumented immigrants to 
adjust their status if they meet certain requirements, including 
demonstrating their English proficiency or that they are in a class to 
learn English. The Inhofe Amendment would strike language in the 
underlying Senate bill so that immigrants wishing to adjust their 
status must be English proficient when they begin the legalization 
process. That is, under the Inhofe Amendment anyone wishing to adjust 
their status must already be English proficient. Thus, there would be 
no need for the ESL vouchers under the Alexander Amendment. As a 
result, fewer immigrants will have access to ESL services, and fewer 
will learn English.
Better Policy Options: An Effective Integration Agenda
    Given the facts, English as the official language policies can only 
be viewed as counter productive and extremist. First, as noted above, 
translation of documents is not a burden on our government. Less than 
1% of federal government documents are in languages other than English. 
Second, the English language is not ``under attack.'' Almost every 
American speaks English. In fact, at a time when we need more 
bilingualism to fight terrorism and compete in a global economy, more 
than 80% of Americans speak only English. Third, recent immigrants are 
learning English and those who do not are seeking the opportunity to 
learn English.
    The statement that our nation is in danger of losing its identity 
or character because of the presence of LEP persons is unfounded. The 
premise that LEP persons will only learn English if they are not 
provided language services is faulty. These arguments lead to 
ineffective policies, and raise questions among Hispanics in particular 
about the spirit of English-only proposals.
    Congress must do better, and it has the power to do so. Rather than 
pursue policies to isolate LEP persons, many of whom are U.S. citizens, 
Congress should take affirmative steps to support an English language 
acquisition and immigrant integration agenda. This includes increasing 
access to adult education, strengthening--not gutting--NCLB's 
accountability system, and enhancing parental involvement.
    LEP adults want to learn English, but are often denied the 
opportunity. A recent study by the National Association of Latino 
Elected and Appointed Officials (NALEO) Education Fund (see Tucker, Dr. 
James T., Waiting Times for Adult ESL Classes and the Impact on English 
Learners) showed that 57.4% of the ESL providers they surveyed had 
waiting lists of LEP persons seeking ESL services. Other providers were 
at capacity but did not keep waiting lists. There should be no question 
of the desire LEP persons have to learn English. As noted above, 
Congress has done very little to help. Congress should increase funding 
for adult education programs, and approve the Workforce Investment Act, 
which codifies the English Language and Civics Education (EL/Civics) 
program. In fact, Congress should undertake a major new investment in 
ESL and immigrant integration. Congress should also increase funding 
for Even Start, the nation's premier family literacy program.
    Congress should strengthen the provisions of NCLB affecting ELL 
students, including fine tuning, not discarding, the provisions 
intended to hold schools accountable for helping ELLs acquire English 
and meet the same content standards as other children. In addition, 
Congress should fully fund the Parent Assistance Programs authorized in 
NCLB and target future funding to help parents of ELLs understand their 
roles and responsibilities under that law.
                                 ______
                                 

               [From the Washington Post, July 23, 2006]

                       The GOP Lag Among Latinos

                           By David S. Broder

    Sen. Mel Martinez of Florida is one frustrated and worried 
Republican.
    For six years, first as secretary of housing and urban development 
and more recently as a senator, the Cuban refugee has labored to build 
support for President Bush and other Republicans among his fellow 
Hispanics.
    But now, he said in an interview, ``I see us throwing it away'' in 
the fight that has split the GOP on the immigration issue.
    I went to see Martinez the morning after NDN--an affiliate of the 
Democratic Party--released a survey of Hispanic voters who 
predominantly speak Spanish. It showed a sharp decline in their 
approval of Bush and the GOP. A group that makes up 5 percent of the 
electorate and that has been the source of striking Republican gains in 
the past two presidential races is turning away. Bush's favorability 
rating has sunk from the 60 percent level to 38 percent among these 
voters, and Democrats as a party lead the GOP by 24 percentage points.
    Martinez had read a news story about the poll at breakfast and said 
that ``it is no surprise. I have seen it coming.'' The day before, he 
said, he had met with a group of House Republicans, looking for support 
for a compromise on the immigration bill that he helped shepherd 
through the Senate.
    Martinez said he warned the House members that their opposition to 
the guest worker provisions in the Senate bill and its opening a path 
to citizenship for the 11 million to 12 million illegal immigrants 
estimated to be living in this country was damaging the party.
    But he made no headway. ``They go to their town meetings and all 
they hear from the people there is 'close the border,' `` Martinez 
said. ``They think that's the way to get reelected this year. They 
don't think about the long-term cost.''
    A poll this month for The Post found that immigration was outranked 
as an issue by the war in Iraq and the economy. But those voters who 
called immigration their top concern leaned heavily--63 percent--to the 
GOP. So you can understand why Republicans who are on the ballot this 
fall are taking a hard-line position.
    But the long-term threat to the GOP that Martinez sees is no myth. 
The percentage of Hispanics in the voting population is going to 
increase every election cycle for the near future, and the share of 
those voters who speak Spanish will also rise, thanks to the number of 
recent immigrants.
    Between 2000 and 2004 Bush made his sharpest gains among Spanish 
speakers, boosted by an extensive outreach and advertising campaign on 
Spanish-language stations, largely invisible to the English-speaking 
audience.
    The appeal, according to NDN analysts, was not primarily to the 
conservative religious and social values of this largely Catholic 
constituency. Rather, it was keyed to their aspirations for the good 
life, for fulfilling the American dream that brought them here.
    Martinez, who fled Cuba by boat as a young boy, embodies that 
spirit. ``The people who come from the Caribbean! and Latin America are 
not looking for welfare,'' he said. ``They want to work, to start 
businesses. Their dream is to own their own home.'' And that is why 
they listened to Bush and the Republicans extol America as a land of 
opportunity.
    But they also have great pride--and sensitivity. Martinez commented 
that ``immigration is not really an issue for Cubans, but we want to 
see people treated with respect. When they start saying that it's un-
American to have ballots printed in Spanish, it sends a message that 
we're not wanted, not respected.''
    In a vote last week, 181 House Republicans supported a ban on 
bilingual ballots, but nearly all Democrats and a minority of 
Republicans joined to defeat the measure.
    Both Martinez and the NDN people see immigration as an issue that 
could be decisive nationally. NDN's Simon Rosenberg likens it to the 
effect on California politics in 1994 when Republican Gov. Pete Wilson 
supported Proposition 187, an initiative to cut off social services to 
illegal immigrants. No Republican has won a major office in a regular 
statewide election since--Arnold Schwarzenegger's victory carne in a 
special recall vote.
    Proposition 187 mobilized Hispanic voters and solidified them 
behind the Democrats. This immigration fight, Rosenberg said, could do 
the same thing nationally * * * and swing enough electoral votes in 
Arizona, New Mexico, Colorado and Nevada alone to make the Democrats 
favorites in the next presidential election.
    Martinez puts it succinctly. ``We can throw away all that we've 
gained if we follow a Pete Wilson-style strategy.''
                                 ______
                                 
                                     Washington, DC, July 26, 2006.

    Dear Subcommittee Member: We, the undersigned 65 national and local 
organizations, write to express our views on English Only policies. We 
believe such policies could jeopardize effective communication with 
people who are speakers of other languages. Specifically, we have very 
urgent and deep concerns about the impact of the Inhofe Amendment, 
which was adopted by the Senate as part of its immigration legislation 
(S. 2611), on the health, safety, and education of millions of U.S. 
citizens and residents. Thus, we believe that the Inhofe Amendment and 
other similar legislative proposals should be rejected.
    English only proposals are based on several arguments about the use 
of English: translation of government documents is burdensome and 
expensive, new immigrants are not learning and do not want to learn the 
English language, and that bilingualism is a threat to our national 
unity. These arguments have no foundation in facts. For example, GAO 
studies have consistently shown that the overwhelming majority of U.S. 
Government documents are printed in English only. In fact, only about 
200--or less than 1%--of U.S. Government documents are published in a 
language other than English.
    In addition, according to the U.S. Census, 92% of Americans ``had 
no difficulty speaking English,'' and the vast majority of Americans 
(215,423,557 out of 262,375,152--82%) speak only English at home. 
Census data also show that most people who speak a language other than 
English also speak English ``very well.''
    Immigrant students are also learning English. Nearly four in ten 
(39.5%) first-generation immigrant children are limited-English-
proficient, compared with two in ten (20.9%) second-generation children 
and less than one in ten (0.5%) third-generation children. The decline 
in the percentage of immigrant students who are LEP is even sharper for 
Latinos. For example, among Mexican immigrant children, 55.3% of the 
first generation, 35.7% of the second generation, and only 4.9% of the 
third generation are LEP.
    English only policies, including the Inhofe Amendment, would not 
increase the use of the English language. Limited-English-proficient 
adults, for example, want to learn English but have few opportunities 
to do so. According to the Massachusetts Department of Education, only 
23,000 out of a total 887,000 people in Massachusetts who still need 
Adult Basic Education (ABE) are enrolled in the appropriate courses. 
The Inhofe Amendment would not create a single ABE slot and would not 
help a single person learn English.
    Moreover, the Inhofe Amendment is overbroad. The Inhofe Amendment 
is so vague that it could undermine current laws, consent decrees, 
executive orders, regulations, other federal policies, state policies, 
and court decisions affecting the education of U.S. citizen children, 
as well as the health and safety of all Americans.
    English only policies divide rather than unite our nation. All 
Americans, including immigrants, understand fully the importance of 
mastering English in order to achieve the American dream. We should not 
be engaged in a needless debate on language at a time when the nation 
must be united. Thus, we urge Congress to reject English only 
proposals.
            Sincerely,

                                NATIONAL

AFL-CIO
American-Arab Anti-Discrimination Committee
American Jewish Committee
American Library Association
Asian American Justice Center
ASPIRA Association, Inc.
Brennan Center for Justice at NYU School of Law
Center for Community Change
Council of Latino Agencies
League of United Latin American Citizens
Legal Momentum
Mexican American Legal Defense and Educational Fund
Migrant Legal Action Program
National Association of Latino Elected and Appointed Officials 
        Educational Fund
National Advocacy Center of the Sisters of the Good Shepherd
National Asian American Pacific Islander Mental Health Association
National Asian Pacific American Families Against Substance Abuse
National Asian Pacific American Women's Forum
National Council of La Raza
National Council of Teachers of English
National Education Association
National Hispanic Medical Association
National Latina Institute for Reproductive Health
National Migrant and Seasonal Head Start Association
National Network to End Violence Against Immigrant Women
National Puerto Rican Coalition

                                NETWORK

People For the American Way
Southwest Key Program, Inc.
Teachers of English to Speakers of Other Languages, Inc.
                              state/local
Asian Pacific American Community Support and Service Association, OR
Asian Law Alliance, San Jose, CA
CASA de Maryland, Silver Spring, MD
Centro Hispano, Madison, WI
Centro Latino of Caldwell County, Inc., Lenoir, NC
Coalition of Florida Farmworker Organizations, Inc., Florida City, FL
Communities for Comprehensive Immigration Reform, Charlotte, NC
Community Child Care Council of Santa Clara County, CA
Congreso de Latinos Unidos, Philadelphia, PA
Council of Spanish Speaking Organizations, Inc., Philadelphia, PA
Del Norte Neighborhood Development Corp., Denver, CO
El Centro, Inc., Kansas City, KS
El Pueblo, Inc., Raleigh, NC
El Vinculo Hispano, Siler City, NC
Hands Across Cultures, Espanola, NM
HELP-New Mexico, NM
Hispanic Coalition, Corp & Latin American Immigrants Federation, FL
Hispanic Office of Planning and Evaluation, Inc., Boston, MA
Hyde Square Task Force, Jamaica Plain, MA
Kentucky Coalition for Comprehensive Immigration Reform, Lexington, KY
La Causa, Inc, Milwaukee, WI
Latin American Coalition, Charlotte, NC
Latin American Community Center, Wilmington, DE
Latino Family Services, Detroit, MI
Latino Leadership, Inc., FL
Latinos Unidos de Alabama, Birmingham-Hoover, AL
MAAC Project, San Diego, CA
Mary's Center for Maternal & Child Care, Inc, Washington, DC
Mujeres Latinas en Accion, Chicago, IL
New York Immigration Coalition, New York, NY
North Carolina Justice Center, Raleigh, NC
Orange County Human Rights and Relations, NC
Salem/Keizer Coalition for Equality, Salem, OR
Virginia Justice Center for Farm and Immigrant Workers, VA
United Dubuque Immigrant Alliance, Dubuque, IA
                                 ______
                                 
    Chairman Castle. Thank you, Mr. Gonzalez.
    Mr. Trasvina?

       STATEMENT OF JOHN TRASVINA, INTERIM PRESIDENT AND
                    GENERAL COUNSEL, MALDEF

    Mr. Trasvina. Chairman Castle, Congresswoman Woolsey, thank 
you for the opportunity to represent MALDEF's views against 
English-only laws and policies. No one, particularly a newcomer 
to America, needs a law or constitutional amendment to know 
that learning English is vital to participating in, 
contributing to, and succeeding in American society.
    English-only laws do nothing constructive to advance the 
important goal of English proficiency. Historically, we as a 
nation and as a people were correct to reject English-only, 
without at all minimizing the importance of education in 
English. English-only laws jeopardize the health, safety and 
well being not only of English language learners, but of 
American communities as a whole.
    Laws that interfere with the government's ability to 
communicate are simply bad public policy. Such laws fuel 
divisiveness and leave all of us more vulnerable to danger, and 
yield no discernible benefit. They do not promote English as 
our official language so much as they make discrimination our 
official language.
    English-only is founded upon the myth that the English 
language is somehow under a threat, as Congresswoman Woolsey 
already noted. An overwhelming majority, 92 percent of Latinos, 
believe that teaching English to the children of immigrants is 
very important, a percentage far higher than other respondents.
    Indeed, Latino immigrants are learning English and doing so 
as quickly or more quickly than previous generations of 
immigrants. As is typical of immigrant populations in the U.S., 
by the third generation most Latinos tend to speak only 
English. Latino immigrants, then, do not need official English 
or English-only legislation to coerce them into learning 
English. That desire and determination already runs deep in the 
Latino community.
    They do, however, require the means and the opportunity. I 
would note, as I heard Senator McKinley describe the Iowa 
legislation, legislators do not need an English-only law to 
give them the impetus to provide classes for adult English. 
That is something that no legislator needs and it not being 
done. That is one of the failings of these English-only laws.
    For ELL students in grades K through 12, two-thirds of whom 
are native-born U.S. citizens, poor instruction denies them the 
tools to gain the language skills necessary to participate 
fully in the American economy and society. Since 1975, at least 
24 successful education discrimination cases have been brought 
on behalf of ELL students in 15 states.
    With limited opportunities to learn English, these students 
face particularly poor outcomes. It is critical that we improve 
programs for these students to help them learn English, not 
penalize them for the poor quality of instruction that denies 
them the opportunity to learn the language well.
    Adults who seek English as a second language classes also 
face an acute shortage of such classes. A June, 2006 study by 
the NALEO Educational Fund found tremendous unmet need and 
waiting periods of up to 3 years. Providing real opportunities 
to learn English is the most efficient and effective means of 
fostering English language proficiency.
    By contrast, official English laws, including the Inhofe 
amendment to the Senate immigration bill, do nothing to help 
them achieve fluency. Instead, such proposals compromise the 
health, safety and well being not only of English language 
learners, but of communities in which they live. These laws 
undermine the Federal Government's ability to communicate with 
the public in situations where communication is urgently 
needed, leaving all U.S. residents more vulnerable to danger.
    I have heard about all the exceptions of the English-only 
laws. What you are left with after all these exceptions is that 
there is very little that the law actually covers. What it does 
not cover is more resources and opportunities for learning 
English.
    When Dade County, Florida enacted an anti-bilingual 
ordinance in the 1980's, something that U.S. English supported 
at the time, its implementation underscored the silliness, 
divisiveness and danger of English-only laws. The first thing 
that went were the species signs at the zoo, because they were 
not in English. Then the county clerk stopped allowing 
translations of marriage ceremonies. Perhaps the most 
significant to health and safety, Jackson Memorial Hospital 
ended prenatal classes in Spanish and patient billing 
information.
    At the Federal level, there is no exemption on its Form 
1040 for people who do not speak English. They, too, are 
taxpayers. Indeed, the IRS has some of the best language 
services because they promote compliance and revenue. During 
wartime, the Treasury Department regularly promoted the selling 
of war bonds in many languages. Patriotism, after all, comes in 
all languages.
    The push for English-only policies today and the hostile 
climate in which they have arisen are hardly unique in 
America's history. Fueled by anti-German sentiment during and 
after World War I, many states, including Iowa, passed English-
only laws that sought to restrict the use of foreign languages 
in public. Hamburgers became Salisbury steaks. I understand the 
city of Berlin, Iowa became Lincoln, Iowa and the Iowa Governor 
ordered telephone operators to interfere with conversations in 
German.
    But it took the U.S. Supreme Court in 1923 to address the 
English-only laws in Nebraska and in Iowa to state that the 
protection of the Constitution extends to all, to those who 
speak other languages as well as to those born with English on 
the tongue, and perhaps it would be highly advantageous if all 
had ready understanding of our ordinary speech.
    But that cannot be coerced with methods which conflict with 
the Constitution. A desirable end cannot be promoted by 
prohibited means. We must do more to provide the availability 
and quality of English acquisition programs.
    In closing, I want to thank the bipartisan majority of the 
House, including Chairman Castle, Ranking Member Woolsey and 
the bipartisan membership of this subcommittee who voted 2 
weeks ago to defeat the King amendment to the Voting Rights 
Act. The King amendment would have denied millions of U.S. 
citizens the language assistance that they need to vote in an 
informed manner. The bipartisan defeat of the King amendment, 
like the U.S. Supreme Court's ruling in 1923, reaffirmed the 
inclusiveness of our U.S. Government and society and was a 
victory for true lovers of both English and the Constitution.
    Thank you for the consideration of our views.
    [The prepared statement of Mr. Trasvina follows:]

  Prepared Statement of John Trasvina, Interim President and General 
 Counsel, Mexican American Legal Defense and Educational Fund (MALDEF)

    Chairman Castle, Congresswoman Woolsey, thank you for the 
opportunity to testify regarding Official English/English-Only laws and 
policies. I am John Trasvina, interim President and General Counsel of 
the Mexican American Legal Defense and Educational Fund (MALDEF).
    We can all agree, newcomers to the United States included, that 
learning English is critical to participating in, contributing to and 
succeeding in American society. Yet English-only and Official English 
laws do nothing constructive to advance the important goal of English 
proficiency. Instead, such laws carry with them the potential to 
jeopardize the health, safety, and well-being not only of English 
Language Learners (ELLs), but of our communities as a whole. Laws that 
interfere with or undermine the government's ability to communicate 
quickly and effectively are simply bad public policy. Such laws fuel 
divisiveness and discrimination, and leave all of us more vulnerable to 
danger, all without yielding any discernible benefit.
    Official English and English-only policies are founded upon the 
myth that the primacy of the English language is somehow under threat. 
In fact, more than 92 percent of our country's population speaks 
English, according to the last Census, confirming that the problem 
English-only laws are designed to address simply does not exist. 
Moreover, English-only laws are built upon, and help to perpetuate, a 
baseless stereotype of immigrants, and in particular of immigrants from 
Latin America: specifically, the false perception that Latino 
immigrants do not want to learn English.
    In reality, Latinos, both native-born and newly-arrived, embrace 
English and place tremendous importance and value upon attaining 
English-language fluency. By wide margins, Latinos believe that 
learning English is essential for participation and success in American 
society. A recent survey by the Pew Hispanic Center found that an 
overwhelming majority of Latinos--92 percent--believes that teaching 
English to the children of immigrants is very important, a percentage 
far higher than other respondents.\1\
    Indeed, Latino immigrants are learning English, and doing so as 
quickly as or more quickly than previous generations of immigrants. As 
is typical of immigrant populations in the United States, by the third 
generation most Latinos tend to speak only English. Latino immigrants, 
then, do not need official English or English-only legislation to 
coerce them into learning English; that desire and determination 
already runs deep in the Latino community. They do, however, require 
the means and the opportunity. English Language Learners are too often 
hampered in their efforts to achieve full proficiency.
    For ELL students in grades K-12, two-thirds of whom are native-born 
U.S. citizens,\2\ poor instruction denies them the tools to gain the 
language skills necessary to participate fully in the American economy 
and society. There is ample evidence of the challenges these students 
face: Since 1975, at least 24 successful education discrimination cases 
have been brought on behalf of ELL students in 15 states.
    For example, in December 2005, a federal district court cited the 
State of Arizona for contempt for failing to take action pursuant to a 
2000 judicial decree intended to remedy ongoing inequalities in the 
educational opportunities available to ELL students.\3\ The 2000 decree 
in Flores v. Arizona found many inequalities in programs for ELL 
students in the state, including 1) too many students per classroom; 2) 
insufficient classrooms available for ELL students; 3) insufficient 
numbers of qualified teachers and teachers' aides; 4) inadequate 
tutoring programs for ELL students; and 5) insufficient teaching 
materials for classes in English language acquisition and content area 
studies.
    ELL students' efforts to learn English are further impeded by the 
fact that a high proportion of ELL K-12 students attend linguistically 
segregated schools. Although ELL students represent a relatively small 
share of the total student population (approximately 10 percent), more 
than 53 percent of ELL students are concentrated in schools where more 
than 30 percent of their peers are also ELL. By contrast, only 4 
percent of non-ELL students attend schools where more than 30 percent 
of the students are ELL.\4\
    With limited opportunities to learn English, ELL students face 
particularly poor outcomes, failing graduation tests and dropping out 
of high school at far higher rates than classmates who are fluent in 
English. It is critical that we improve instruction for these students 
to help them learn English, not penalize them for the poor quality of 
instruction that denies them the opportunity to learn the language 
well.
    Adults who seek ESL classes also face an acute shortage of high-
quality English-acquisition programs, which are too few and too often 
oversubscribed. A June 2006 study by Dr. James Tucker for the NALEO 
Educational Fund surveyed the demand for and availability of adult ESL 
programs nationwide, and found tremendous unmet need. In Phoenix, 
Arizona, for example, a large ESL provider reported an 18-month long 
waiting period for in-demand evening classes. In Boston, Massachusetts, 
there are at least 16,725 adults on waiting lists for ESL classes, and 
waiting times for some programs approach three years. In New York City, 
courses are so oversubscribed that last year, only 41,347 adults--out 
of an estimated one million adult English Language Learners--were able 
to enroll. New York City programs can require waits of several years 
for adult learners.
    Providing real opportunities to learn English is the most efficient 
and effective means of fostering English proficiency. By contrast, 
English-only and official English proposals, including the Inhofe 
Amendment, do nothing to eradicate the barriers I have described or to 
help ELLs achieve fluency. Instead, they compromise the health, safety, 
and well-being of not only ELLs, but of the communities in which they 
live. English-only laws would undermine the federal government's 
ability to communicate with the public in situations where 
communication is urgently needed, thereby leaving all U.S. residents 
more vulnerable to danger.
    Examples of situations in which government officials must 
communicate efficiently and effectively to ensure the safety of the 
general populace abound. In the event of a natural disaster or 
terrorist threat, for example, federal emergency workers must be able 
to convey important information and instructions to as broad an 
audience as possible, a need that may require the use of languages 
other than English. National English-only policies could impede the 
government's ability to convey warnings or post danger or hazard signs 
in languages other than English. They could prevent local law 
enforcement from effectively investigating crimes, communicating with 
crime victims or witnesses, or providing critically needed services to 
victims of domestic violence and abuse. In the area of public health, 
they could hinder the ability of medical personnel to communicate 
effectively with patients at federal or federally-funded hospitals, 
potentially complicating diagnosis and treatment, or even facilitating 
the spread of communicable diseases. English-only policies could 
prevent language minorities from seeking cost-effective preventive 
health care, leading to dangerous or expensive complications, or 
prevent parents from immunizing their children, putting entire 
communities at risk.
    The Inhofe Amendment to the Senate's comprehensive immigration 
reform bill highlights the dangers created by English-only type 
legislation. If enacted, the Inhofe Amendment would make English the 
national language and provide that ``[u]nless otherwise authorized or 
provided by law, no person has a right, entitlement, or claim to have 
the Government of the United States or any of its officials or 
representatives act, communicate, perform, or provide services, or 
provide materials in any language other than English.''
    Standing alone, the Inhofe Amendment, with its vague and ambiguous 
language, may be read to undermine or even rescind Executive Order 
13166, titled Improving Access to Services for Persons with Limited 
English Proficiency.\5\ EO 13166 is designed to enforce and implement 
Title VI of the Civil Rights Act of 1964, which prohibits 
discrimination on the basis of race, color, or national origin by 
recipients of federal funding.\6\
    Under EO 13166, federal agencies that provide financial assistance 
to non-federal entities must publish guidance on how their recipients 
can provide meaningful access to people who are Limited English 
Proficient (LEP). EO 13166 charged DOJ with the task of providing LEP 
Guidance to other federal agencies and for ensuring consistency among 
these agency-specific policy statements. Accordingly, other agencies 
have promulgated LEP guidance similar to that of DOJ.
    DOJ's policy guidance on EO 13166 reaffirms the agency's ``long-
standing'' and continuing ``commitment to implement Title VI through 
regulations reaching language barriers * * *'' \7\ The guidance permits 
funding recipients flexibility to assess factors such as the projected 
demand for particular LEP services, the nature and importance of a 
particular service or activity, and the resources available to the 
recipient. The flexibility of this framework permits agencies and 
funding recipients to serve LEPs and carry out their Title VI 
obligations, without imposing unreasonably costly or burdensome 
requirements. While DOJ's policy guidance pursuant to EO 13166 allows 
funding recipients to use professional judgments and consider resource 
constraints in providing LEP services, it makes clear that they are to 
take meaningful steps to achieve ``voluntary compliance,'' and sets out 
a mechanism for enforcement.\8\
    The entities that are subject to Title VI and the Executive Order 
provide critical services, and in many instances it is vital that LEPs 
have meaningful access to these services, both for their own health and 
safety and for that of the public. The DOJ LEP Guidance, for example, 
references such fundamental law enforcement services as 911 assistance, 
crime investigation, community policing and crime prevention programs, 
juvenile justice programs, and domestic violence prevention and 
treatment initiatives. In the context of health care and human 
services, HHS' Guidance contains discussions of such programs as SCHIP 
and Head Start, health promotion and awareness activities, and the 
``vital'' nature of such documents as consent and intake forms.\9\ 
DOT's guidance notes that its funding recipients include hazardous 
materials transporters and other first responders, and state and local 
agencies with emergency transportation responsibilities, such as the 
transportation of supplies for natural disasters, planning for 
evacuations, quarantines, and other similar action.\10\
    The Inhofe Amendment may operate to erode the framework set out by 
EO 13166 and correlative policy guidance, thereby eroding agencies' and 
funding recipients' obligation to provide meaningful access to such 
important services by LEPs. At the same time, like other English-only/
Official English proposals, it would serve no useful purpose in helping 
anyone learn English, while inflicting very real harms upon ELLs and on 
the communities in which they live.
    In addition to the practical implications of English-only/Official 
English laws on access to important services and information, such laws 
also perpetuate false but persistent stereotypes about the Latino 
immigrant community, and fuel divisiveness and anti-immigrant 
sentiment. The push for English-only policies today, and the hostile 
climate in which they have arisen, are hardly unique in America's 
history. In the late 1910's, amidst nationwide anti-German sentiment 
fueled by World War I, several states passed English-only laws that 
sought to restrict the use of foreign languages in public. The most 
famous example was a 1918 edict by Governor William Harding of Iowa, 
which became known as the Babel Proclamation, and outlawed the use of 
foreign languages in all schools, all public addresses, all 
conversation in public places, on trains, and over the telephone.\11\ 
Most of those arrested under this proclamation were turned in by 
eavesdroppers and switchboard operators for using a foreign language 
during private telephone conversations.\12\
    Although proponents of anti-German laws of that time portrayed them 
as efforts to have ``a united people, united in ideals, language and 
patriotism,'' \13\ these efforts had unmistakably xenophobic roots. The 
Supreme Court addressed the anti-foreign language movement in 1923 in 
the seminal case of Meyer v. Nebraska,\14\ in which it found that 
English-only laws unconstitutionally infringed upon liberties protected 
by the Fourteenth Amendment of the Constitution. The case involved a 
challenge brought by a German group against a Nebraska law that 
prohibited the teaching of the German language to young children. The 
Nation's highest court noted that the life, liberty and property 
protected by the Fourteenth Amendment included the right ``those 
privileges long recognized at common law as essential to the orderly 
pursuit of happiness by free men.'' \15\ In holding that teaching and 
learning a foreign language were privileges included in that 
protection, the Court stated:
    The protection of the Constitution extends to all, to those who 
speak other languages as well as to those born with English on the 
tongue. Perhaps it would be highly advantageous if all had ready 
understanding of our ordinary speech, but this cannot be coerced with 
methods which conflict with the Constitution--a desirable end cannot be 
promoted by prohibited means.\16\
    The Meyer Court's invalidation of the challenged English-only law 
was rooted in the Court's recognition of constitutional principles of 
tolerance and respect for diversity.\17\ Contemporary English-only 
proposals are no less offensive to these ideals and directives. They 
also threaten to inflict very real harms on ELLs, and to erode public 
safety and public health more generally. At the same time, they do 
nothing to advance the important goal of English proficiency for all 
ELLs--a goal that they themselves view as paramount to success and full 
participation in American society. We must do more to improve the 
availability and the quality of English-acquisition programs, both for 
K-12 students and for adult learners. MALDEF urges Congress to take 
constructive steps toward helping ELLs learn English and contribute 
more fully to America's economic and social fabric. English-only and 
Official English laws are not the answer.

                                ENDNOTES

    \1\ Pew Hispanic Center, Hispanic Attitudes Toward Learning 
English, (June 7, 2006), factsheet available at http://pewhispanic.org/
files/factsheets/20.pdf.
    \2\ Michael E. Fix and Jeffrey S. Passel, Urban Institute, U.S. 
IMMIGRATION: TRENDS AND IMPLICATIONS FOR SCHOOLS, (Jan. 28 2003), 
available at http://www.urban.org/url.cfm?ID=410654.
    \3\ Flores v. State of Arizona, 405 F.Supp.2d 1112 (D. Ariz. 2005) 
(contempt order).
    \4\ Fix and Passel, Urban Institute, U.S. IMMIGRATION: TRENDS AND 
IMPLICATIONS FOR SCHOOLS, at 24.
    \5\Following passage of the Inhofe Amendment, the Senate also 
passed an amendment offered by Sen. Salazar, which specifically defines 
laws as ``provisions of the United States Code, the United States 
Constitution, controlling judicial decisions, and Presidential 
Executive Orders.'' 152 Cong. Rec. S4725 (May 17, 2006). The Salazar 
Amendment expressly preserves EO 13166.
    \6\ 42 U.S.C. Sec. 2000d.
    \7\ Id.
    \8\ See 67 Fed. Reg. at 41465-466.
    \9\ See 68 Fed. Reg at 47311-47323.
    \10\ See 68 Fed. Reg. at 34698-34708.
    \11\ Stephen J. Frese, Divided by a Common Language: The Babel 
Proclamation and its Influence in Iowa History, 39 THE HISTORY TEACHER 
1, 59 (Nov. 2005) (available at: http://www.historycooperative.org/
journals/ht/39.1/index.html.
    \12\ Id., note 1.
    \13\ Brief and Argument for State of Nebraska, Defendant in Error. 
Meyer v. Nebraska, 262 U.S. 390 (1923).
    \14\ Meyer v. Nebraska, 262 U.S. 390 (1923).
    \15\ Id. at 399.
    \16\ Id. at 401.
    \17\ The holding was reinforced by a 1990 federal district court 
decision that again found an English-only law to be unconstitutional. 
In Yniguez v. Mofford, 730 F.Supp. 309 (D.Ariz.1990), an Arizona 
district court struck down an English-only amendment to the Arizona 
Constitution, prohibiting the use of foreign languages by government 
employees in the course of their work. The court found that the 
provision was ``so broad as to inhibit * * * constitutionally protected 
speech'' and forced public employees ``to either violate their sworn 
oaths to obey the state constitution, and thereby subject themselves to 
potential sanctions and private suits, or to curtail their free speech 
rights.'' Although this decision was later vacated on procedural 
grounds by the Supreme Court, the central holding was never overruled.
                                 ______
                                 
    Chairman Castle. Thank you, Mr. Trasvina. I am a little 
worried about your Iowa comments. Senator McKinley is going to 
demand time to rebut here in a moment, but we will go on from 
here.
    Mr. Ellison?

   STATEMENT OF ART ELLISON, ADMINISTRATOR, BUREAU OF ADULT 
        EDUCATION, NEW HAMPSHIRE DEPARTMENT OF EDUCATION

    Mr. Ellison. Chairman Castle, Congresswoman Woolsey and 
members of the subcommittee, my name is Art Ellison, and I 
represent the National Council of State Directors of Adult 
Education.
    I want to thank you for allowing the council to submit 
testimony regarding the need for all citizens to be proficient 
in the English language, especially new immigrants for whom a 
command of the English language is the key to their success and 
that of their children.
    In our view, Mr. Chairman, the key element in this 
discussion is assuring that all citizens have access to the 
adult education English language serves that will ensure their 
success. The adult education state directors, the managers of 
adult education and English literacy programs in the states, 
keenly understand the need for English literacy. We provide 
adult education services for 3 million adults a year.
    Even though limited English proficient adults comprise only 
15 percent of our potential students, almost half of our 
enrollment is comprised of English literacy students. We are 
proud of the quality educational services that our adult 
education teachers and tutors provide, both for English-
speaking adult learners in need of basic literacy skills or a 
high school credential, as well as a significant part of their 
work in English literacy civics and citizenship services for 
limited English proficient adults.
    These services are supported by Federal funds from the 
Adult Education and Family Literacy Act, Title II of the 
Workforce Investment Act of 1998. For every Federal dollar 
appropriated for these services, the state and local partners 
contribute $3. Thus, three-fourths of the financial support 
comes from non-Federal resources. States provide these services 
through local school districts, community colleges, and faith-
based and community-based organizations.
    There are at least three areas of everyday life in which 
English skills are essential. That would be in one's work, 
interactions with one's family, and interactions in the 
community. The adult education state directors agree that our 
nation's immigrants need English language skills that enable 
them to fulfill their responsibilities, as well as enjoy the 
benefits of working, raising a family, and contributing to 
communities throughout America.
    Every day, hundreds of thousands of adults learn to speak 
and write the English language, appreciate our history, respect 
our flag, and assimilate into our society through participation 
in adult education and family literacy programs. Every day, 
hundreds of thousands of newcomers move along the path from 
low-paying jobs to a diploma, a career, and a home of their own 
through participation in adult education and family literacy 
programs. And every day, millions cannot access adult education 
programs because classes are not available.
    English literacy skills are critical for anyone to take 
part in all that is America. Even though we serve 1.4 million 
limited English-proficient adults a year, we have waiting lists 
in programs in many states across the country, including 
Arizona, California, Colorado, Illinois, Indiana, Louisiana, 
Michigan, Nebraska, New Jersey, New York, Ohio, Pennsylvania 
and Wisconsin.
    In order to help our nation's immigrants succeed, the adult 
education state directors encourage you to support increased 
funding for adult education programs to allow increased access 
to English as a second language classes, to the millions who 
cannot participate in those services today because the classes 
are not available. As the main provider of these educational 
services, we hope that any expansion of ESL education by the 
Federal Government will buildupon and not duplicate the system 
that has worked so well in the past.
    Our workforce, our families', and our communities' need for 
those millions of limited English proficient adults to have the 
opportunity to achieve their full potential and to achieve the 
American dream.
    Thank you.
    [The prepared statement of Mr. Ellison follows:]

            Prepared Statement of Art Ellison, Policy Chair,
         National Council of State Directors of Adult Education

    Mr. Chairman and Members of the Subcommittee, my name is Art 
Ellison and I represent the National Council of State Directors of 
Adult Education. I am also the State Director of Adult Education in New 
Hampshire. I want to thank you for allowing the Council to submit 
testimony regarding the need for all citizens to be proficient in the 
English language, especially new immigrants for whom a command of the 
English language is the key to their success and that of their 
children.
    In our view, Mr. Chairman, a key element in this discussion is 
assuring that all citizens have access to the adult education/English 
language services that will ensure their success.
    The Adult Education State Directors, the managers of adult 
education and English Literacy programs in the states, keenly 
understand the need for English Literacy. We provide adult education 
services for three million adults a year. Even though limited English 
proficient adults comprise on 15% of our potential students, almost 
half of our enrollment (1.4 million adults) is comprised of English 
Literacy students.
    We are proud of the quality educational services that our adult 
education teachers and tutors provide both for English speaking adult 
learners in need of basic literacy skills or a high school credential 
as well as the significant part of their work in English literacy, 
civics and citizenship services for limited English proficient adults. 
These services are supported by federal funds from the Adult Education 
and Family Literacy Act, Title II of the Workforce Investment Act of 
1998. For every federal dollar appropriated for these services, the 
state and local partners contribute three dollars. Thus, three fourths 
of the financial support comes from non-federal sources.
    In his television address on May 15, 2006, President George W. Bush 
emphasized that ``the success of our country depends upon helping 
newcomers assimilate into our society and embrace our common identity 
as Americans. Americans are bound together by our shared ideals, an 
appreciation of our history, respect for the flag we fly, and an 
ability to speak and write the English language.''
    Services in English literacy, Civics, and Citizenship preparation 
enable limited English proficient adults to fulfill their 
responsibilities as well as enjoy the benefits of working, raising a 
family, and contributing to communities in your states and throughout 
America.
Work
    A recent study by the Council for Advancement of Adult Literacy\1\ 
reports ``nearly half the growth in the workforce during the 1990s was 
due to immigrants. During the first two decades of the 21st century, 
migrants are expected to account for most of the net growth among 
workers between the ages of 25 and 54.\2\ Among the foreign-born adults 
in the United States who reported speaking a language other than 
English at home in the 2000 Census, a third have less than a high 
school education, twice the rate for adults born in the United 
States.\3\ Thus, a substantial number of adults need extensive ESL, 
literacy, and GED/academic instruction if they are to acquire more than 
minimum wage jobs and have hope of economic stability.
---------------------------------------------------------------------------
    \1\ Crandall, JoAnn, K. Sheppard, (2004) Adult ESL and the 
Community College, Council for Advancement of Adult Literacy, New 
York..
    \2\ Wrigley, H.S., E. Richer, K. Martinson, H. Kubo, and J. Strawn 
(2003), The Language of Opportunity: Expanding Employment Prospects for 
Adults with Limited English Skills, Washington, DC: National Institute 
for Literacy and National Adult Education Professional Development 
Consortium.
    \3\ Van Duzer, D., D. Moss, M. Burt, J. K. Peyton, and L. Ross-
Feldman (2003), OECD Review of Adult ESL Education in the United 
States: Background Report. Prepared for the Office of Vocational and 
Adult Education, U.S. Department of Education, Washington, DC: USDOE/
OVAE
---------------------------------------------------------------------------
    If America is to remain competitive, attention must be given to the 
English literacy skills of our nation immigrants and the skills of 
native-born adults in the workforce today. The current workforce is 150 
million. The public schools graduate 3 million per year. Thus, only a 
possible 2% of the annual workforce comes from public schools. We must 
insure that each and every member of the workforce has skills they need 
to succeed in today's highly technological workforce. In short, English 
literacy is critical to obtaining and maintaining jobs and creating 
opportunities for advanced education and training in order to qualify 
for jobs with family sustaining incomes.
    As President Bush also emphasized his May 15 television address, 
``English is also the key to unlocking the opportunity of America. 
English allows newcomers to go from picking crops to opening a grocery, 
from cleaning offices to running offices, from a life of low-paying 
jobs to a diploma, a career and a home of their own.''
    The qualifications for jobs that provide a family-sustaining income 
continue to rise. The adult education programs in your state now 
emphasize and document not only attainment of the GED or high school 
diploma, but also transition from adult secondary levels to the 
community college and advanced training. Family sustaining jobs require 
high school equivalency plus some college for native-born and foreign-
born adults.
Family
    The National Center for Education Statistics released its National 
Assessment of Adult Literacy in December, 2005. Ninety three million 
adults have reading, math, and/or English skills below the high school 
level. Approximately 30 million of those adults are challenged by 
simple literacy tasks and 11 million of them cannot even read, write or 
speak English. Hispanics represented 12 percent of the NAAL population 
but 39 percent of the adults with Below Basic Prose literacy. The 
percentage of Hispanics with Below Basic prose literacy increased 9 
points between 1992 and 2003; the percentage with Below Basic document 
literacy increased 8 percentage points. In addition, score for adults 
who spoke Spanish or Spanish and another non-English language before 
starting school dropped 17 points from 1992-2003 for prose and document 
literacy but did not change significantly for quantitative literacy.
    It is difficult to see how children can succeed in school when so 
many adults, almost half of the adult population, have basic skill 
needs. The issue is even more critical when parents do not speak 
English or have limited English proficiency.
    In addition, the American Medical Association reports forty-six 
percent (46%) of adult in America cannot read and follow medical 
instructions.\4\ The health of the family, parents and their children, 
depend on the adults' reading and math skills. Imagine how much more 
critical it is when the adults have limited English literacy skills.
---------------------------------------------------------------------------
    \4\ Nielsen-Bohlman, L., Panzer, A.M., Kindig, D. A., Editors, 
(2004), Health Literacy: A Prescription to End Confusion, American 
Medical Association Committee on Health Literacy.
---------------------------------------------------------------------------
    For the family to support their children's learning, maintain their 
health, manage their finances, and provide a supportive structure for 
the family, English literacy skills are critical.
Community
    The richness of our culture is in our communities. It is in those 
neighborhoods where people are grounded. It is there where, as 
President Bush said, we learn to ``embrace our common identity as 
Americans,'' and where ``Americans are bound together by our shared 
ideals, an appreciation of our history, (and) respect for the flag we 
fly. * * *'' Essential to that participation and emersion in our 
history and society is English literacy.
Summary
    The Adult Education State Directors agree that our nation's 
immigrants need English language skills that enable them to fulfill 
their responsibilities as well as enjoy the benefits of working, 
raising a family, and contributing to communities throughout America.
    Every day, hundreds of thousands of adults learn to speak and write 
the English language, appreciate our history, respect our flag, and 
assimilate into our society through participation in adult education 
and family literacy programs.
    Every day, hundreds of thousands of newcomers move along the path 
from low paying jobs to a diploma, a career and a home of their own 
through participation in adult education and family literacy programs.
    Every day, millions cannot access adult education programs because 
classes are not available
    Mr. Chairman, English literacy skills are critical for anyone to 
take part in all that is America. Even though we serve 1.4 million 
limited English proficient adults a year, we have waiting lists in 
programs in many states across the country including: Arizona, 
California, Colorado, Illinois, Indiana, Louisiana, Michigan, Nebraska, 
New Jersey, New York, Ohio, Pennsylvania, and Wisconsin.
    In order to help our nation's immigrants succeed, the Adult 
Education State Directors encourage you to support increased funding 
for adult education programs to allow increased access to English as a 
Second Language classes to the millions who cannot participate in those 
services today because classes are not available. As the main provider 
of these educational services we hope that any expansion of ESOL 
education by the federal government will build upon and not duplicate 
the system that has worked so well in the past. Our workforce, our 
families, and our communities need for those millions of limited 
English proficient adults to have the opportunity to achieve their full 
potential and to achieve the American dream.
                                 ______
                                 
    Chairman Castle. Thank you, Mr. Ellison.
    We will now turn to the members here, and again there will 
be the same clock with 5 minutes for the questions and the 
answers. So when somebody asks a question of the whole panel, 
just remember that all of you have to get your statements in in 
5 minutes and be relatively brief.
    I am at this point to yield to start the questioning to the 
chairman of the full Education and Workforce Committee, Mr. 
McKeon of California.
    Mr. McKeon. Thank you. I thank the gentleman for yielding.
    You know, I just know that there is somewhat of a 
disconnect here, because in testimony of a couple of you, you 
say that there is no need to do anything in this area of 
official language or make any changes because everybody is 
learning to speak English, and then you go on to say but we 
need more help, helping people learn English.
    I guess there is some logic to that, but one of the 
concerns I have, and I happen to speak a little Spanish. I 
served as a missionary for our church years ago in a Latino 
community in Texas and New Mexico. I remember in those days the 
people in New Mexico for the most part didn't even want their 
children to learn Spanish because they felt then they would 
have an accent and it would be harder for them to get jobs. 
Things have changed a little bit, but that is the way it was 
there.
    In Texas, it was a little different. More of the people 
were still learning and speaking Spanish. I hate for people to 
not be able to speak both, if they come from that culture, and 
when you speak four languages, you are to be commended. I think 
as a country, we do a pretty poor job of teaching languages.
    But the concern I have is I see a little different from 
what I am hearing. We just moved into a new home and I watched 
the construction that was being built, and just about everybody 
working on the constructionsite spoke Spanish. I see it in 
other parts of the community.
    I come from California. You get into San Fernando or parts 
of the valley, all the signs are in Spanish, all the language 
is in Spanish. I saw a movie that showed a lady that moved from 
Mexico to San Fernando and she felt like she hadn't even left 
Mexico. Until she was forced to do another job and to get out 
of the community, she never would have learned English. There 
was no reason for her to.
    But that causes a segmented society. It causes a segregated 
society by English by choice because you are more familiar, you 
are more comfortable where you can communicate, rather than 
forcing yourself out of a comfort zone to learn another 
language. It makes it a little tougher on people.
    But one of the reasons for these hearings is to show the 
difference on immigration between the House-passed bill and the 
Reid-Kennedy bill over in the Senate. They have two amendments 
there on language that, to me, look like they are at cross-
purposes, and they both passed. I am wondering what your 
opinion would be if that became law? What would be the effect 
of those, as I see it, competing amendments? How would that be 
carried into law? How would that be translated? Could I hear 
from you on that?
    Mr. Mujica. I don't see them as sort of competing 
amendments. They both say pretty much the same thing. Regarding 
what you were saying about the segmenting people, all of us who 
have studied a foreign language know that the best way of 
learning a foreign language is by exposure to the foreign 
language.
    If we have new immigrants and people living in this country 
completely isolated from the new language of the new country, 
they are never going to learn it. They get up in the morning. 
They hear Spanish news and Spanish TV. They go to work. They 
work with other Spanish-speakers. When are they going to learn 
English? And that is the problem.
    We all know that they all want to learn English, but 
frankly they do not get the opportunity to learn English. A 
good example is what Israel does. They have a system called 
ulpan. Ulpan is a school where an immigrant goes and does not 
need to work for 6 months or so. They are given money by the 
government to exist. They can go full time. They will learn 
what it is to be an Israeli. They will learn Hebrew. They will 
learn how to function in the new country, and therefore they 
will be helped to assimilate.
    Right now, there is no help. Someone gets to this country 
by any means and they are on their own. They have to sink or 
swim. And many of them just sink. They work at a very low 
level. They make very little money and they stay there for 
life, unless they can assimilate and learn English.
    Mr. McKeon. You point out a good contrast. They don't have 
a big problem in Israel with illegal immigration. It is very 
hard to get into that country illegally. We have that problem, 
and it is one of the things that is forcing this debate. And 
what happens is, as you point out, the people come here and 
they associate with the people that they are comfortable with 
because they can communicate with them, so there is no reason 
for them to expand and learn English, and so they are never 
going to advance without learning English.
    So that is why the real emphasis on this whole process. My 
first campaign manager when I first ran for Congress was from 
Cuba. He was the oldest of three sons. He went to school, 
learned English, taught all of his family, and the family has 
done very well.
    But the mother, who never had to leave home, it is hard for 
her to speak English. She is just much more comfortable in 
Spanish. The boys can all speak both languages. The father, 
because of work, pushing himself out into the work environment, 
learned English. But if you don't have to, if you stay in the 
home or stay in a work environment, you are never going to 
learn that other language and you are always going to be 
hampered in advancement in this country.
    Mr. Trasvina. Mr. McKeon, if I could address the notion 
that immigrants are somehow in a comfort zone, they are in the 
most difficult and dangerous jobs in America. They come here 
with aspirations and the notion that they are somehow unwilling 
or not needing to learn English completely ignores the spirit 
in which they come for advancement for themselves and for their 
children.
    There is the desire to learn English. There are 3 years of 
waiting lists in Boston, 18 months in Phoenix. Examples go 
around the country of waiting lists, of people who are working, 
working at night. In Los Angeles, we have 24-hour English 
classes. People how get off from work at restaurants and 
buildings at night, then going to English classes. There are 
long waiting lists for those classes.
    In addressing your question about the Inhofe amendment and 
the other amendments that have come up, they do have serious 
impacts upon the ability of the government to communicate, the 
ability of judges or legislators acting to address specific 
concerns addressing language access and addressing the 
government's ability to communicate and serve taxpayers and 
serve residents.
    So we have strong concerns with the notion that we need 
either the official language, national language, common 
language legislation. What we need are the resources and 
programs for English language training. Typically, people come 
to this country and they take the time to learn English, and 
then they get off of the programs and they are into the English 
language society.
    What you may see in some pockets of the country where there 
is a persistence of Spanish language signs or other types of 
services, it is not the same people using them for generations. 
It is people coming in and graduating from them and going into 
the mainstream. That is what we promote and that is what adding 
more English classes promotes, and that is what the English-
only approach does nothing to advance.
    Mr. Gonzalez. Mr. Chairman, just to respond to a couple of 
the points which were important points.
    Mr. McKeon. My time is gone.
    Chairman Castle. I will let you go ahead and make your 
response and we will wrap it up after that.
    Mr. Gonzalez. Sure. First of all, we are talking about a 
small number of people who are recent immigrants, and those are 
the people that we are talking about transitioning into 
English.
    Mr. McKeon. A small number would be?
    Mr. Gonzalez. Would be the 8 percent who do not respond to 
the U.S. census saying----
    Mr. McKeon. About how many people would that be?
    Mr. Gonzalez. Well, 8 percent of about 80 million people 
would be, let's see----
    Mr. McKeon. Eight million?
    Mr. Gonzalez. Yes.
    Mr. McKeon. That would be 8 percent of 100 million.
    Mr. Gonzalez. Yes, well, it would be 8 percent, the 
remaining 8 percent who do not respond to the census request 
census data showing that they speak English very well. So that 
would be 8 percent of the U.S. census population.
    The second point, which is of these so-called enclaves, a 
lot of the second languages you hear in these communities are 
by business owners who are trying to market to people. It is 
not that they are trying to retard their ability to learn 
English, it is just that it is smart marketing for them to 
communicate in an effective language. And so that is why you 
are going to hear that.
    As far as Inhofe and Salazar, taken together or pulled 
apart separately, what they have in common is that neither one 
of those will help a single person learn English.
    Mr. McKeon. Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Chairman.
    Ms. Woolsey is recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    First of all, I want to say that if I had to go to a 
foreign country where people didn't speak English and I had to 
live and work, I would be like a fish out of water. I couldn't 
do it. And we have a country where 80 percent of our population 
speaks only English. That should be our embarrassment. We don't 
teach languages in school enough these days. Shame on us. 
Therefore, maybe that is why we are so afraid of anybody 
speaking a foreign language or having to accommodate them.
    Senator McKinley, if 92 percent of our population speaks 
English, what is the need for having a symbol, and is it just 
symbolic to you that we have an official statement of what we 
speak in this country?
    Mr. McKinley. One of the things we have seen in Iowa is 
that the immigrants definitely know that it is important for 
them to learn English if they are going to participate in the 
communities. To address the issue that was raised earlier, I 
just recently came from San Francisco. I was in Chinatown, and 
we talk about the enclaves.
    On my way to the airport I rode with a Russian immigrant 
who spoke probably as good English as I, though with an accent. 
And I asked him about Chinatown and he said they don't speak 
English there. You can't live there unless you are Chinese. And 
in walking in the streets, I heard all the young Chinese 
students speaking Chinese. That may work in San Francisco, but 
that would not work in Iowa. In order to participate in the 
community, you must speak English.
    Ms. Woolsey. Well, let me just interrupt you a minute. I 
represent the district halfway across the Golden Gate Bridge 
north of San Francisco, so I can speak with authority when I 
tell you 99 percent of those Chinese-speaking individuals speak 
English. They are some of the best students we have in our 
schools in the Bay Area. So they are speaking two languages.
    So your list of where the Iowa act does not apply, that 
list seems totally inclusive. What is left off of that list? 
Where would it apply?
    Mr. McKinley. Well, I think in large part what we are doing 
is setting the standard. With an increasing number of 
immigrants coming to Iowa, we want to make it very, very clear 
that it is important they speak the language. In testimony we 
had across the state, we are hearing from schools, law 
enforcement centers, jails, and increasingly from women's 
domestic centers that there is a real problem serving these 
people who need services who don't speak English. Oftentimes, 
those are emergency services that they need to be able to speak 
English. I think it is absolutely critical. And in Iowa, 
enactment of the law was a non-event.
    Ms. Woolsey. Well, Mr. Trasvina, in your opinion, what is 
the best way to promote English language? By labeling our 
country English-only? Or are there other ways to support 
teaching new immigrants English?
    Mr. Trasvina. There are a wide variety of ways of teaching 
people English. The last way to do it is to tell someone who 
needs domestic violence services, gee, you should be learning 
English. That is the problem with this approach. We are either 
going to take the approach where we advance English through the 
public schools and adult English classes, or we take the 
approach that the Supreme Court rejected which is saying you 
don't limit people's rights because of their ability or lack of 
ability to speak English.
    And Senator McKinley mentioned San Francisco. Like you, I 
am a San Franciscan, and the U.S. Supreme Court recognized in 
the Lau decision in 1960 that there was educational 
discrimination, and the very reason why there was so much 
Chinese-only speaking at that time was because the classes that 
the Chinese American students got at some of the elementary 
schools there were totally inappropriate to their language 
abilities. And the reason we have a Chinatown in San Francisco 
is because of the housing discrimination right after the late 
1906 earthquake.
    So we have to look at this in the historic context where 
immigrants were not always widely accepted. And the way to do 
that, the way to incorporate people into the society is to 
provide the English classes, not to put up a sign and say, 
well, you really should speak English and the services are 
closed to you.
    Ms. Woolsey. Thank you.
    Mr. Mujica, what does making English our official language 
mean to you? And what are the norms that you suggest?
    Mr. Mujica. Well, first of all, I would like to say that we 
are not trying to make this country an English-only country. 
Most countries have an official language. Why don't we say 
something about Mexico? Mexico has an official language, 
Spanish. Is it a problem that it is a Spanish-only country like 
Chile, Argentina and every country in Latin America, and 50 or 
80 other countries around the world?
    Ms. Woolsey. Well, we are coming to the end of my time, but 
do they use their government officials, people elected to do 
the really heavy lifting in their country, having hearings, 
talking about whether their official language is Spanish?
    Mr. Mujica. No, they don't have to.
    Ms. Woolsey. That is right.
    Mr. Mujica. They knew that their country was Spanish, which 
incidentally is the language of the white European conquerors. 
It is not the original language of Mexico.
    Ms. Woolsey. Right, but my point is this is silly what we 
are doing today.
    Thank you.
    Chairman Castle. Thank you, Ms. Woolsey.
    I yield to myself for 5 minutes. Let me just start with a 
comment, if I may, Mr. Ellison and a couple of others mentioned 
it, too, but I agree with you with respect to the adult 
education and the need to expand these programs. To me, 
education is a key component of it. And I agree with the other 
comments some of you made about Even Start and the various 
other programs which we have to get started.
    I am going to ask some broader questions, and I truly don't 
know the answer to these things, so I am not asking in any kind 
of pejorative sense. I am curious about the true opinions about 
this. But I try to think a lot about this particular issue. I 
have no great opinion about English as the official language, 
but I worry about the problem of assimilation and how we are 
doing it in this country with helping people with assimilation 
as well.
    It seems to me, and maybe I am not right about this, but it 
seems to me that there are effects here which are different 
than previous immigration populations, not including the 
English-speaking populations, but those that were not English 
coming from Europe. First is just that, proximity, because of 
proximity, Mexico obviously, but also Latin America and the 
island countries which have easier access than getting from 
Europe to America in the 17th century or the 18th century, 
whatever, by boat. And people tend to go back and forth as a 
factor.
    And then also the other factor I have is that of illegal 
immigration in the United States. That is, those people who for 
whatever reason are not here legally at this point. They may 
have over-stayed a work permit or education or something of 
that nature, or maybe are here entirely illegally. We obviously 
have some border issues as far as Mexico is concerned, which is 
not just Mexicans, as we all know. It can be a variety of 
people.
    And then those who are sort of in a limited legal 
situation, that is they are here because they are migrant 
workers or whatever, but they are going to go back to wherever 
they are from, which they could do, which you might not have 
done if you were from Italy or Russia or some other country 
where you came here permanently.
    So my question is, is this impacting the desire for 
individuals to become a part of the culture, to learn the 
English language, et cetera? Is it different than it might have 
been for other immigrants who came before from different 
circumstances? I am not trying to make a point with that 
question. I am just curious about the information with respect 
to that.
    I don't know the exact statistics. I can't argue about how 
many illegal immigrants are here and how many are Latino or 
anything else, but clearly we have some fairly substantial 
numbers in that area. I would like to hear from Mr. Trasvina 
and Mr. Gonzalez and Mr. Mujica on that subject. I know it is 
sort of broad, but I am curious as to your thoughts on that.
    Mr. Trasvina. Yes, Mr. Chairman, you have asked a broad 
question. And we are in a 21st century world where we do have 
different patterns. The need for language and literacy are 
greater than they were at the turn of the previous century, 
where people would come to this country from Europe and go 
through Ellis Island and eventually they would learn English. 
The needs for English are tremendously important.
    As a global society, we do have a lot more people going 
back and forth, and we do have a very large Spanish-speaking 
region to the south of us. Now, there may be some policy 
decisions and discussions about going back to where we were 
prior to 1975 where we treated Mexican immigration different 
than other countries, taking it out of the per-country ceiling, 
but that is a separate issue on immigration.
    In terms of language, it is all the more important to 
provide the resources for people to learn English. As I said 
earlier, the spirit with which people come to improve 
themselves, they are not satisfied in the most dangerous and 
difficult jobs, and they know that for the most part people who 
come here legally or otherwise are coming on a one-way trip. 
They may go back home. They may have remittances, but they do 
want to be here, and they are here, and they are going to be 
staying permanently.
    That being said, it is all the more reason why we need to 
invest at the lower years in their education because these 
children are going to be the taxpaying and Social Security-
paying individuals that we are all going to be relying upon in 
the future.
    Chairman Castle. Thank you.
    Mr. Gonzalez, the other thing I would like to hear about is 
if there are a higher number of illegal immigrants because of 
the ease of getting here versus the old way of getting here in 
previous years. Are they more reluctant to get into the various 
systems, because they are not here legally? I mean, I would be 
concerned if I was in another country and I wasn't legally 
there, I would be very concerned about even registering for a 
class or whatever it may be. So I would like to add that 
element to the question as well.
    Mr. Gonzalez. Certainly. I think one of the things we 
should consider is looking at this in a historical context. 
One-hundred years ago when immigrants, or even longer than 
that, when immigrants came to this country and they may have 
been in enclaves and they may have had limited opportunities to 
learn English, we didn't know about that. If you were English-
speaking and native-born, you did not know. You did not shop. 
You did not go to restaurants with people who were just coming 
into the country, so you did not see and hear other people 
speaking another language.
    We have made so much progress in this country in breaking 
down these social barriers that now we see people who are 
newcomers shopping at the same places we shop and eating in the 
same restaurants. And that raises some concerns, 
understandably, but I think we need to keep that historical 
context.
    You did raise an important question about the chilling 
effect of some policies or other barriers that people who are 
undocumented may have that would preclude them from pursuing 
ESL classes or K through 12 education or other services that 
would help people learn English.
    We hear constantly from people around the country who are 
trying to register their kids in school that we were denied, I 
could not register my child for school because they told me 
that I had to present proof of citizenship, which is illegal, 
but it is happening, that type of behavior at the local level.
    Chairman Castle. It is illegal that the school would demand 
it?
    Mr. Gonzalez. It is illegal for the school to demand that 
type of information before registering someone for school. It 
is the 1982 Supreme Court case, Plyler v. Doe. But having these 
debates at the national level, where we talk about English as 
the official language, without providing resources for people; 
where we talk about immigrants sub-segregating in enclaves; 
immigrants refusing to learn English.
    That has a chilling effect as well on people wanting to, 
thinking about, well, wait a minute, if they are talking about 
these things at the national level, then maybe as an 
undocumented immigrant I don't have access to these programs. I 
think that is where one of the negative impacts of these 
debates can really play themselves out in a way that results in 
fewer people learning English.
    Chairman Castle. Thank you.
    Mr. Mujica?
    Mr. Mujica. What is the question? The same?
    Chairman Castle. I am sorry. Yes, it is just the same 
question or discussion, if you will.
    Mr. Mujica. Yes. I think there is a change of attitude. In 
the last 50 years or so we have had this sickness called 
political correctness show up in this country and then other 
countries. It used to be that you came to this country to be 
part of this country. I am a genealogist by hobby and I have 
studied many, many families. I have heard testimony. They came 
to be Americans. They arrived here and they kissed the ground 
and they said, we are in the new land. We are in our new home. 
And unfortunately, they even forbade their kids to speak the 
native language because they wanted to assimilate so quickly, 
to be part of the new world.
    Today, we have huge numbers of similar people coming 
through a border that doesn't exist. Mexico has a 2,000-mile 
border with the United States or longer, and we have a lot of 
people legal or illegal who are getting here and then they are 
being told by their self-elected leaders, people like MALDEF 
and La Raza, that they have rights. They have rights to their 
language. They have rights to their culture.
    They are coming to the land that the gringo stole from them 
anyway, so they are coming to their own land. Aztlan is still 
alive, you know, the old land comprising half of the United 
States and Mexico. So the attitude is quite different. We have 
a lot of people coming to this country and segregating 
themselves and not really wanting to be part of the country. It 
is a shame. It is not the case of every immigrant, but you will 
never hear a European saying they don't want to be part of this 
country or they do not want to learn the language.
    There is nothing magic about English. English meanwhile for 
the last 50 or 100 years became the global language, so there 
was no need for Americans, or at least Americans thought they 
had no need to learn other languages because their language was 
widely spoken everywhere. I, as an architect, go to about 40 
countries every year and although I speak other languages, and 
I am studying Russian right now, I always end up speaking 
English because they speak English everywhere, and very well.
    So we are not trying to protect the English from 
disappearing. Quite the contrary, English is prevalent all over 
the place. But also we are not trying to make this nation a 
multilingual nation. That would be going backwards. We have 
functioned in English and that has been the glue that held this 
country together for hundreds of years. People coming from all 
over the world are able to talk to each other in a common 
language, which as I said, became the global language. And we 
are trying just to keep it.
    I have heard testimony here where they blame official 
English laws with everything under the sun. They left out 
global warming. I think they should also blame it on official 
English. But we are just trying to recognize the obvious, and 
we are recognizing that we have people from other countries 
right now that need help, and that is what we should worry 
about.
    Let's get it over with. Let's declare English the official 
language of this country, which is the obvious, and let's find 
the money to help all these new immigrants learn the language 
and succeed.
    Chairman Castle. Thank you. I thank all of you. Good 
questions.
    Mr. Grijalva is recognized. I am sorry. Mr. Hinojosa is 
next. I apologize.
    Mr. Hinojosa. Thank you very much, Chairman Castle.
    Before I ask my questions, I would like to make a statement 
for the record. I must express my deep disappointment in these 
proceedings. First, this hearing is part of a concerted effort 
by the House majority to derail comprehensive immigration 
reform and fan the flames of anti-immigrant sentiment before 
the general election in November of this year. No matter how 
many hearings we hold, the public will not be fooled. The 
majority is at the helm of all of our branches of government, 
all three. It seems to me that failure to fix our broken 
immigration system is the majority's failure to govern.
    Second, while I do not question the chairman's intention to 
have a balanced hearing, let's be clear. We can no more have a 
balanced hearing on English as the official language than we 
can have one on states' rights or separate-but-equal. English-
as-the-official-language has been a code for official 
discrimination. I understand the personal effects of such 
policies and sentiments. In my own home state of Texas, 
children would be punished and beaten for speaking Spanish in 
school.
    For those who think this is past history, sadly it is not. 
I experienced it myself. I went to segregated elementary school 
and I was part of those who were spanked. Not too long ago, a 
high school student in Kansas was suspended from school for 
speaking Spanish to his friend in the hallway. Surely, these 
are not the practices we want to sanction with a policy of 
English as the official language.
    Finally, instead of focusing on an issue that divides us, 
the subcommittee should be looking at how we help our children 
learn English. The Government Accountability Office has just 
released a report on the implementation of the accountability 
provisions in No Child Left Behind and limited English-
proficient students. I ask unanimous consent, Mr. Chairman, 
that this report that was just released be entered into the 
record.
    Chairman Castle. Without objection, so ordered.
    [The Internet URL of the GAO report follows:]

                http://www.gao.gov/new.items/d06815.pdf

    Mr. Hinojosa. Thank you.
    The record finds that we are a long way off from including 
LEP children in our accountability systems in a valid and 
reliable manner that the Department of Education has not 
provided the guidance, the technical assistance, or the 
enforcement necessary to ensure that states are meeting the 
requirements of the law.
    Furthermore, Mr. Chairman, I ask unanimous consent that a 
letter from the Congressional Hispanic Caucus addressed to you 
as chairman of this subcommittee and to Ranking Member Woolsey 
also be entered into the record.
    Chairman Castle. Also without objection, so ordered.
    [The letter follows:]
                             Congress of the United States,
                                     Washington, DC, July 26, 2006.
Hon. Michael Castle,
Chairman, Subcommittee on Education Reform, Committee on Education and 
        the Workforce, House of Representatives, Washington, DC.
Hon. Lynn Woolsey,
Ranking Member, Subcommittee on Education Reform, Committee on 
        Education and the Workforce, House of Representatives, 
        Washington, DC.
    Dear Chairman and Ranking Member: On behalf of the Congressional 
Hispanic Caucus (CHC), we are writing to express our position with 
respect to the proposition of making English the official language of 
the U.S. We recognize English is the language of commerce, the language 
of success; however, we do not support any proposal seeking to make 
English the U.S. official language.
    English is and always will be the common and unifying language of 
the United States. Many millions of immigrants have, throughout the 
history of our Nation, come to this country and learned English in 
order to participate fully in our common society, economy, and 
political systems. This process of integrating new immigrants into the 
``melting pot'' of American culture through English language 
acquisition continues at a rapid pace today.
    Both native-born U.S. citizens and immigrants clearly understand 
the importance of learning English. Recognizing the critical importance 
of linguistic integration, new immigrants are learning English at a 
faster pace than did earlier groups of immigrants. Despite these new 
Americans' efforts to become proficient in our common language, 
proposals to make English the official language would harm English 
language learners and greatly affect the well-being of all Americans.
    English is not ``under attack'' in the United States. The vast 
majority of U.S. government documents are printed in English, and the 
vast majority of U.S. residents speak only English. To be inclusive we 
encourage, and in instances require, they be carried out in other 
languages to inform the limited-English proficient (LEP) public of 
important, and often critical, information. We believe that when it 
comes to sharing essential information about the health and well-being 
of individuals or the security of this nation, there should not be a 
debate over which language to use.
    The average adult English-as-a-Second-Language (ESL) student is a 
low-income wage earner, holding two jobs, supporting a family, and 
learning English in the few hours available to them in the early 
morning hours or the evenings. There is no shortage of motivation to 
learn. Instead, the extreme demands for ESL services far exceed the 
available supply of open classes. Eager students join thousands of 
others greeted by lengthy waiting times that range from 12 to 18 months 
for the largest ESL providers in Albuquerque and Phoenix, up to three 
years or more in Boston and other northeastern cities. In New York 
City, the American dream of learning English is something only the 
lucky few obtain by winning lotteries held for scarce ESL placement; 
others often must wait several years for classes that only scratch the 
surface of the need
    The federal government should do everything within its power to 
encourage English proficiency in all U.S. residents, but it should not 
penalize those who are still in the process of learning English. To 
establish English as the official language of this country does not 
advance the goal of English proficiency. To that end, we strongly urge 
Congress not to respond to a nonexistent problem by penalizing those 
who are in the process of learning our common language, thereby 
penalizing all Americans and putting us at greater risk.
    Thank you for your consideration.
            Sincerely,
                                   Grace Flores Napolitano,
                              Chair, Congressional Hispanic Caucus.
                                       Charles A. Gonzalez,
                                Chair, CHC Civil Rights Task Force.
                                 ______
                                 
    Mr. Hinojosa. Now, Mr. Chairman, I wish to ask finally some 
questions. My first question is to Mr. John Trasvina.
    The 1994 Improving America's Schools Act required states to 
include limited English-proficient children in their Title I 
accountability system. It required that LEP students be 
assessed in a language and form most likely to yield results. 
It required that assessment results for LEP students be valid 
and reliable.
    No Child Left Behind continued all of those requirements. 
However, the GAO report I referred to shows that we are nowhere 
near compliance with these requirements. My question to you is, 
what do you recommend that we do as we approach the 
reauthorization to ensure that the law is implemented as 
Congress intended?
    Mr. Trasvina. Mr. Hinojosa, with regard to the No Child 
Left Behind Act, it has not been effective for English language 
learners because of flaws in implementation. What we really 
need is for the 5 million or 6 million English language 
learning students in this country is greater attention on these 
assessment programs.
    Without effective assessments, we are not going to be able 
to begin to determine in what particular districts the 
particular needs of the students are. So the lack of 
assessments, as the GAO report to be released today describes, 
it really confirms what we have been saying all along, and it 
is the first barrier to overcome in order to provide the 
prescriptive suggestions for curricula for these students.
    Mr. Hinojosa. Thank you.
    Mr. Chairman, can I ask one question of the state senator?
    Chairman Castle. Certainly.
    Mr. Hinojosa. Thank you.
    Senator McKinley, what legislation have you passed to 
increase opportunities for limited English-proficient residents 
of Iowa to learn English?
    Mr. McKinley. We have passed legislation which established 
new immigrant centers to help new immigrants assimilate. We 
expanded that again this year. Plus, we have consistently 
funded community colleges across the state who offer these 
offerings. We have expanded English ELL legislation. So we have 
addressed this is a number of manners.
    Mr. Hinojosa. In the 10 years that I have been here in 
Congress, I have been amazed at how we have to fight to get the 
Federal appropriation for adult continuing education and these 
English programs because they are usually reduced or 
eliminated. And so we have to fight to get those funds.
    I can tell you that right there in South Texas, I was there 
on Saturday morning and I went to visit the students who are 
learning English so that they could try to pass their test for 
the citizenship that they were applying for, American 
citizenship. And their complaint was that there were very few 
students there. There were 25, but that they just didn't have 
the money for the professors so that they could have larger 
classes.
    So if you have all the money that you need in Iowa for 
these programs, you are very unusual, because in the state of 
Texas, we do not have enough money. And I blame myself and my 
Congress for not really putting the money forward to make that 
possible.
    I yield back, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Hinojosa.
    Mr. Souder is recognized for 5 minutes.
    Mr. Souder. I have to say that anybody who is watching 
this, if the whole country watched it, you wouldn't see 85 
percent for English as the official language. You would see 90 
percent because in fact you have given no compelling reasons 
not to do it. And in fact, the world hasn't collapsed in Iowa.
    One of the things I can't conceive of moving to another 
country and not learning their language before I moved there. 
It is one thing to visit for a couple of weeks or even study 
there as a student. Most people try to learn another language. 
It baffles me. We are watching huge immigration trends.
    A lot of people think everybody in their area, including in 
my area, are illegal. They aren't. We have many refugees coming 
in. We have people with legal status who are there who are 
going through transition. But if we don't have an organized 
official language, we are going to descend into chaos.
    I have one high school in my district, it is not San 
Francisco, but it is getting close at least in the aspect of 
language, that has 83 languages and dialects. At Fort Wayne, 
Indiana, it is not a coast. But all across America, this is a 
huge challenge. We have the largest population of dissident 
Burmese that have come into my area. They are people of Burma. 
Everybody calls them Burmese, but they are not.
    The Mon and the Shan, for example, were killed by the 
Burmese, but they are people from Burma and they don't even 
speak their own language, if they don't have English as a 
common denominator. I was at one meeting with leaders from the 
African community in Fort Wayne, 23 different African nations 
in Fort Wayne with different languages. You are just going to 
have chaos.
    The fire department doesn't know how to handle it. We have 
1,800 Bosnians that have come in through refugee organizations. 
There is no way to do this if we don't have a certain amount of 
order. And anybody who thinks we are going to do work permits 
without English fluency, I don't know how you think that that 
could possibly pass Congress without English fluency and some 
kind of standard on work permits.
    In trying to resolve the tremendous we have of all of the 
illegals in the United States, I mean, I didn't vote for making 
it a felony and deporting everybody, but there has to be some 
kind of a standard here of commonality, of commitment to be 
here, at least enough commitment to be here that you are going 
to learn our language.
    I want to ask Mr. Mujica, it is astounding. In my district, 
I hear this all the time. Mexico has an official language. 
There are hundreds of thousands of Americans who live in 
Mexico, but they still have an official language; 27 nations I 
believe have English as their official language, in Africa and 
the Caribbean particularly.
    Is there a big problem? Is it a huge crisis in those 
countries where English is an official language? Is it a crisis 
for the American citizens who are living in Mexico where 
Spanish is their official language?
    Mr. Mujica. It is no problem. Most countries have an 
official language. Some countries have two or three and they 
have problems. It costs plenty of money. The European Union 
right now I think has something like 21 languages and they are 
speaking seriously about just making English the official 
language so they could translate things in zero languages, just 
do it all in English instead of translating, I believe, in nine 
languages.
    Mr. Souder. And you alluded to the commonality. English 
isn't just because of Americans, but because of the remnants of 
the British Empire in many places, the commonality for trade 
because India and China are the two biggest countries, and that 
is where the immigration real tide is going to come from, and 
they are very difficult languages with many dialects.
    Mr. Mujica. Right.
    Mr. Souder. And when they travel around the world, as you 
see tourism, that the only way to deal with this is English. It 
just flabbergasts me with these kind of criteria that Iowa has 
found. I think it is a fair question to say, what exactly is 
covered under English as an official language, but to not say 
that at least this is where we are headed just amazes me, 
because you see this huge trend nationally.
    I come from, and I know, and I have said over and over, two 
of the four newspapers in Fort Wayne, Indiana were in German 
prior to Hitler taking rise in Germany. I understand people are 
going to do multiple languages, but I just don't understand 
this resistance to saying, look, this is our official language.
    Come here. We are going to work out how we do this, but 
come here. If you want to be a citizen, for sure you are going 
to be fluent. If you want a work permit, for sure you are going 
to be fluent. If you are going to come to America, then learn 
our language. It is just such a basic question and fundamental 
thing to say it is our official language. The opposition just 
astounds me.
    Would you like to comment?
    Mr. Trasvina. Mr. Souder, I guess even in English, we have 
difficulty being understood because I am astounded that you 
hear from this panel any resistance to English or any 
resistance to opening up the opportunities for English.
    Mr. Souder. What is the opposition to it being the official 
language?
    Mr. Trasvina. The opposition to it being the official 
language and spending a lot of time and resources passing bills 
is that it takes away from the real core purpose of America 
which is to promote English opportunities.
    Mr. Souder. I am sorry. It doesn't take a lot of time and 
money to pass a bill. You are spending more in opposing the 
bill. What is the substantive opposition to passing the English 
as an official language?
    Mr. Trasvina. Well, there are three. One is that it does 
absolutely nothing to help those people that you mentioned in 
your district. The Bosnian refugees, for example, we have cut 
over the past 10 or 15 years refugee resettlement.
    Mr. Souder. I am sorry. Reclaiming my time. That is not a 
reason. The fact that you think it accomplishes nothing is not 
a reason to be against it. What harm does it do?
    Mr. Trasvina. The harm that it does is that while it does 
nothing to advance the English, what it does do is promote the 
divisiveness in the society so that for example it strengthens 
the argument and the vile nature of somebody who complains to 
the person standing in front of them in the grocery line, they 
see a Latino woman talking to her child in Spanish, saying oh, 
why don't you speak English; it is the official language.
    We have seen instances where that has occurred, in Monterey 
Park when U.S. English went after the Chinese language business 
signs in the 1980's, or when there was an effort to try to get 
the FCC to take away licenses of Spanish-language broadcasters 
because U.S. English said, well, they crowded out the English-
language stations.
    It is that type of divisiveness that is raised in this 
country without any ability to promote English. English is 
something that the U.S. Government used to promote treasury 
bonds being sold in World War II. Languages other than English 
are used for many, many purposes.
    So the concerns you have, I am sure they are valid concerns 
in Fort Wayne and other cities in your district about the fire 
department not being able to communicate with everyone. The way 
to get to that is to promote English classes and opportunities 
for English.
    Mr. Souder. I just find it amazing that you would say that 
it is divisive. I understand how people can abuse it. Quite 
frankly, those people are probably already harassing people, 
not displaying a very Christian attitude. But I just find it 
amazing that the reason we can't promote what is self-evident 
in this country that English is our official language is 
because it is viewed as divisive.
    Chairman Castle. Thank you, Mr. Souder.
    Mr. Grijalva is recognized for 5 minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    I also want to echo the comments that my colleagues have 
made regarding the balance of this panel. It is very much 
appreciated, and during this series of hearing we have had, 
very unique. And so I am very grateful for that.
    Many of the questions that I had hoped to ask have been 
asked. I just want to comment briefly, and then a couple of 
quick questions. There is a whole insidious part of this whole 
discussion that we are having here today about official English 
and English-only.
    And that is the presumption made by English-only 
legislation, and I think it promotes, and that is the insidious 
side, this racially tinged myth and false stereotypes that 
immigrants don't want to learn English, and that gets cemented 
into people's thinking they don't want to learn.
    That is contrary to the reality out there. In my district, 
the waiting list to get into ESL classes under adult education 
is 2 years. In New York City, they have to have a lottery to 
see who can get into the English classes. We have underfunded 
Title III, and as a consequence cannot really assess where 
children whose primary languages are other than English, how 
they are doing under No Child Left Behind.
    English-only mandates have not, and will not magically 
transfer and transition every non-English speaker into English 
speakers. That is not going to happen. The real effort to do 
that is going to require resources and not the kind of 
political resentments that we hear, not the phobias that are 
around us all the time on this issue about culture, language, 
ethnicity.
    And so my questions are at two levels. First of all to Mr. 
Gonzalez and Mr. Trasvina individually and for the 
organizations that you represent, there was an earlier comment 
made by another panelist that your organizations are actively 
promoting the segregation of our society, the linguistic 
isolation of our society. If you could comment on that, to get 
that on the record.
    And then the other issue that I would like both of you to 
comment briefly if you could, on the commonality of commitment 
to rights in this country, which this also talks to that issue, 
and if you could as briefly as you can deal with those two 
issues.
    Mr. Gonzalez. Sure, thank you, Congressman.
    First of all, the National Council of La Raza, as I 
mentioned in my statement, is in the business of helping people 
learn English. We have 300 community-based organizations that 
are affiliated with our organization. About half of those 
provide some ESL services. We have 96 charter schools in our 
network which provide services to a variety of students, 
including English language learner students. We are in the 
business of helping people learn English.
    I think there is a disconnection that is kind of coming 
through this hearing. On the one hand, people are talking about 
how immigrants support official English. They supported it in 
Iowa and there are those folks, immigrants, who are part of Mr. 
Mujica's organization. But then they are also arguing that we 
need to coerce people to learn English through official English 
laws.
    That is an important disconnection that I think we should 
explore because that, in the case of Iowa, we could have had 
people learn English without their official English law. Could 
we have had people learn English without all the ESL services 
they later provided to help them learn English?
    So I think that is the critical question as policymakers. 
What is our goal? Is it our goal to help people learn English 
or is it our goal to approve symbolic measures that have no 
impact on people's lives? So I think those are the things that 
I think are important to consider.
    The other thing, going to Mr. Souder's question, I am sorry 
I didn't answer your question, but there is a real danger in 
official English policies, of government policies of official 
English. We have to realize that we are in a real world here 
where we have a severe budget deficit, and if we have a 
government-as-official-language, English as the official 
language of government, with limited resources, at some point 
someone is going to make a decision not to provide translation 
services.
    If it becomes at a point where there is a natural disaster, 
an avian flu pandemic or a mass transit accident, and people 
have limited resources, they are going to choose, because of 
that ability, not to provide services. They are going to choose 
not to. It is a real world we are working in. The U.S. 
considers symbolic measures, but they have real-world 
implications that affect people who are English-proficient, 
people who are non-English-proficient, immigrants and non-
immigrants.
    And going back to the issue that this is a policy that is 
being attached to an immigration bill that doesn't fix the 
immigration system, but also harms U.S. citizens. And that is I 
think the bottom line for the policymakers in addressing this 
in the area of immigration.
    Chairman Castle. Thank you, Mr. Grijalva.
    Mr. Osborne is recognized for 5 minutes.
    Mr. Osborne. Thank you very much, and thank you all for 
being here today. We appreciate your attendance.
    My daughter is an ESL teacher, so I know some of the 
problems of which we speak. I am going to try to hit every one 
of you, so I would appreciate it if you would give me a 
relatively brief answer. I am sorry to be here late, so if some 
of these things have been discussed before, disregard them. 
Just say we have already answered that.
    First of all, Mr. Mujica, what do you believe the practical 
effect of Executive Order 13166 has been? Has it been difficult 
to execute and enforce? Do you have any thoughts as to why the 
president has not rescinded the order?
    Mr. Mujica. Well, presidents typically do not rescind 
executive orders signed by another president. We are of the 
opinion that he should rescind it. We think it is very much of 
a problem to try to make this country multilingual, to try to 
provide translators for every language that one needs. We have 
322 languages. How are we going to have 50 translators in a 
hospital? How are we going to have 25 translators in the 
doctor's office or whatever?
    It is impractical. It sounds pretty good. It sounds like it 
makes sense, but in practical terms it is extremely expensive, 
and if there is something divisive, that is divisive. It is 
sending the wrong message, saying it doesn't matter what you 
speak, we will be there; we will translate for you.
    Mr. Osborne. Thank you for your answer, and thank you for 
being concise.
    Mr. McKinley, has the Iowa law had any overall detrimental 
impact? Is there any downside to what Iowa has done?
    Mr. McKinley. We have seen no detrimental impact at all. As 
a matter of fact, through a series of meetings we held last 
fall across the state dealing with immigration issues, the 
English-as-the-official-language law was not even brought up 
but once, and that wasn't by an immigrant, but by a political 
activist. So it is has not been a problem at all.
    Mr. Osborne. OK, thank you.
    Now, I am going to ask a question of Mr. La Raza and also 
Mr. Trasvina. Maybe this is a question that would apply to both 
of you. In your testimony, you state that there is no need to 
enact a law declaring English as the official language because 
English is already believed to be the common language used in 
America. If this is true, then why oppose legislation that just 
reaffirms this common belief?
    Mr. Trasvina. We oppose it for the reasons that German 
parents in Zion County, Nebraska, vociferously opposed the 
official English law of Nebraska in 1921. It denied the parents 
the ability to speak to their children and teach them their 
religious lessons, those Lutheran lessons because of the bar 
against teaching German at the lower levels, and English as the 
official language in Nebraska. It removes the issue from 
advancing English into making getting rid of English the price 
tag for admission into this country.
    The laws have practical consequences. Now, you can have a 
Swiss cheese kind of law where everything is listed in the 
exceptions and there is nothing left to it, but it takes us 
away from the promoting of English. And that is really the only 
way to promote English, to get this country together on the 
language basis, it is through real efforts on English, not on 
these statutes.
    Mr. Osborne. Well, the only counter I would have to that is 
that I don't believe that making English the official language 
would prevent a parent from speaking their native tongue to 
their children or having them conversant in that tongue. I 
don't see that being a practical outcome of the law. But 
apparently you do. I don't see it that way.
    Let me move on to my last question to Mr. Ellison. Why do 
you believe that there is such a long waiting list for ESL 
programs? Has this been a long-term problem or is it just 
something that you have seen in recent years?
    Mr. Ellison. I think the reason for the waiting lists are 
the fact that there are not enough resources for the programs. 
It has been a problem over the years, but it has been growing 
and growing and growing. There are a couple of parts to that. 
The waiting list numbers are huge in some states.
    What happens when you have a waiting list is you also have 
people who don't go into register because you are not going to 
try to get into a program when you know that program already 
has a waiting list of a year or two. So there is another unmet 
need out there that goes even beyond the official numbers who 
are on the waiting list.
    Mr. Osborne. Well, I am a strong proponent of the ESL 
programs, and certainly believe in more funding. Also, I might 
just say that if I were to move to another country and was 
going to seek citizenship in that country, I would learn that 
language, and I would not necessarily rely on the government to 
teach me or the schools. I mean, there are ways to learn a 
language without having some formal program.
    So with that, I yield back, Mr. Chairman. Thank you.
    Chairman Castle. Thank you, Mr. Osborne.
    We have reached the end of this hearing. I would just like 
to thank each of our witnesses for the logistics of getting 
here and being here and sharing your thoughts with us. I think 
it is helpful to build in terms of what we may have to do 
sometime in the future, but I just want to offer my thanks to 
you and to Ms. Woolsey and to Mr. Osborne, who is still here.
    With that, we stand adjourned.
    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]
    [Supplemental materials submitted for the record follow:]

                      American Library Association,
                                         Washington Office,
                                     Washington, DC, July 25, 2006.
Hon. Michael Castle,
Chairman, Subcommittee on Education Reform, Committee on Education and 
        the Workforce, Rayburn House Office Building, Washington, DC.
    Dear Chairman Castle: On July 26, the House Subcommittee on 
Education Reform will hold a hearing ``Examining Views on English as 
the Official Language.'' On behalf of the 69,000 members of the 
American Library Association (ALA), I write to share with you the 
American Library Association's views on English Only polices.
    ALA opposes all language laws, legislation, and regulations that 
restrict the rights of citizens who speak and read languages other than 
English, and those language laws, legislation, and regulations which 
abridge pluralism and diversity in library collections and services. 
ALA works with state associations and other agencies in devising ways 
to counteract restrictions arising from existing language laws and 
regulations, and encourages and supports the provision of library 
resources and services in the languages in common use in each community 
in the United States.
    Libraries around the country serve the needs of culturally diverse 
communities. In 2000, 47 million people reported they spoke a language 
other than English at home. Libraries provide free family literacy 
programs for non-English-speaking patrons. In addition, hundreds of 
librarians across America lead outreach programs that teach 
citizenship, conduct career workshops and offer GED classes. Libraries 
also develop multilingual and multicultural materials for their 
patrons.
    The American Library Association recognizes the importance of the 
English language in American society. However, current proposed English 
Only laws don't increase access or provide additional resources for 
English-language instruction programs. Thousands of immigrants are on 
waiting lists to get into ESL classes because these programs are not 
adequately funded.
    The American Library Association believes that enacting laws that 
would discriminate against non-English speaking or limited English 
speaking individuals would limit their freedom of expression and access 
to information and services.
    Please contact me if you have any questions.
            Sincerely,
                                           Emily Sheketoff,
                                                Executive Director.
                                 ______
                                 
                                     English First,
                                         8001 Forbes Place,
                                    Springfield, VA, July 25, 2006.
Hon. Michael Castle,
Chairman, Subcommittee on Education Reform, Committee on Education and 
        the Workforce, Rayburn House Office Building, Washington, DC.
    Dear Chairman Castle: My name is Jim Boulet, Jr. I have served as 
Executive Director of English First since 1995 and joined the 
organization as its research director in 1988.
    The last hearing on official English was held in 1996. I testified 
at that hearing. The legislation in question, ``The English Language 
Empowerment Act,'' would go on to pass the House by a vote of 259 to 
169. We thought the fight for official English would soon be over. But 
that bill died in the U.S. Senate and here we are again today.
    I share this brief history lesson to remind this Subcommittee that 
it is a challenge to pass any legislation through both the House and 
the Senate. It is for this reason alone that Congress does not eagerly 
revisit any issue upon which it has worked its will in the past.
    For this reason, English First is always encouraging any 
Representative or Senator who wishes to take a lead on official English 
matters to fight for legislation which accomplishes the maximum 
possible at that time toward solving the American language crisis.
    I make this same recommendation today to this Subcommittee: Please 
pass the strongest, most explicit, self-executing official English bill 
you possibly can.
    Time is not our friend, given that there are those who serious 
propose to grant amnesty to twelve to twenty million illegal aliens. 
Any language problems which currently exist in America at this moment 
will only be exacerbated in the wake of any amnesty or guest worker 
program.
    I fully realize that the Senate's amnesty bill (S.2611) is not 
before us today. But I must note that the English requirements imposed 
by S.2611 upon illegal aliens are so weak that the same authors of that 
bill eagerly demanded (and enacted) a reauthorization of mandatory 
multilingual voting for the next twenty five years.
    Allow me to turn to a few quick thoughts about what this 
Subcommittee should seek to accomplish.
    Today's hearing is designed to give the House of Representatives 
some understanding of the most effective way to address the question of 
an official language. It is the belief of English First that by 
following certain principles, this Subcommittee will ensure that the 
most effective official English bill possible emerges from its 
deliberations.
    Principle 1: Understand that our opponents will oppose any and all 
official English bills. Time and time again I have seen groups like 
MALDEF and the National Council of La Raza attack even the most modest 
official language effort as needlessly draconian and probably racist.
    The reason is for their vehemence is that they are playing symbolic 
politics with language issues.
    Symbolic politics has nothing to do with whether the program in 
question accomplishes anything useful. It is well known that bilingual 
ballots are full of translation errors which hinder, rather than help, 
people cast an informed vote. Presented this evidence, the anti-English 
lobby demanded not only the reauthorization but the expansion of 
multilingual voting mandates.
    This past Sunday, we learned via David Broder's Washington Post 
column that Senator Mel Martinez (R-FL) believes bilingual ballots are 
a symbol of respect. During the 1970's, a former Washington Post 
reporter who investigated the matter declared that bilingual education 
was the Hispanic equivalent of affirmative action.
    Congressmen and Senators can expect to be called racists no matter 
what their official English legislation actually does about America's 
language problem.
    Accordingly, English First urges you to enact the strongest 
official English bill you possibly can and make all the name-calling 
you will suffer for your effort worthwhile
    Principle Two: The language the federal government chooses to speak 
to all immigrants matters far more than the language American citizens 
speak to each other.
    The United States government neither can nor should force anyone to 
learn English against his will. Opponents of official English do not 
seem to understand this basic fact.
    Example: E. J. Dionne publicly fretted in the Washington Post 
(``Divisive in any Language,'' May 23, 2006) that Senator Inhofe's 
``English First'' amendment to the immigration bill amendment might 
somehow prevent him from praying in French over his children. Fear not, 
Mr. Dionne. Pray away.
    No official English law will forbid people from bring their own 
trusted translator to a government office. The purpose of an official 
English law is to preclude people from bringing a lawyer with them 
ready to enumerate their right to demand an official translation into 
any language spoken upon plant Earth.
    Believe it or not, a policy of unlimited translation upon demand is 
America's current language policy, thanks to Clinton Executive Order 
13166.
    E.O. 13166 was signed on August 11, 2000, as most of the Washington 
press corps was on their way to the Democratic National Convention. 
E.O. 13166 declared that language choice was part of a person's 
national origin and thus protected by the 1964 Civil Rights Act.
    The legal underpinning of E.O. 13166 rested upon just one case out 
of dozens, the Alabama English case (Sandoval), at that time on appeal 
to the Supreme Court. In 2001, the Supreme Court overturned the lower 
court's Sandoval ruling. Yet E.O. 13166 remains the law of the land.
    Accordingly, Senator Tom Coburn (R-OK) and Congressman Peter King 
(R-NY) have introduced legislation flatly repealing Clinton Executive 
Order 13166 (S.557 and H.R. 136, respectively).
    The Inhofe ``English First'' amendment to the immigration bill does 
a considerable amount of heavy legal lifting on the language front and 
also deserves this Subcommittee's support.
    Specifically, the Inhofe amendment says that ``unless otherwise 
authorized or provided by law, no person has a right, entitlement or 
claim to have the government of the U.S. or any of its officials or 
representatives act, communicate, perform or provide services, or 
provide materials in any language other than English.''
    The Inhofe amendment, if passed and signed into law, would not 
forbid translations offered as a courtesy should a government employee 
happen to know another language, but would eliminate any legal 
entitlement to demand such translations from any federal employee.
    The Inhofe amendment also says that ``if any forms are issued by 
the federal government in a language other than English * * * the 
English language version of the form is the sole authority for all 
legal purposes.''
    This provision of the Inhofe amendment is based upon U.S. patent 
law. A patent application may be submitted in any language, but an 
English translation must be included and that English translation is 
considered the sole controlling legal authority.
    Errors in translation are inevitable. Once the Inhofe amendment is 
signed into law, a translation error in, say, a tax form, will not mean 
two different tax rates.
    Much of the Senate debate revolved around whether the Inhofe 
amendment would, if passed and signed into law, overrule Clinton 
Executive Order 13166. It would.
    Principle Three: ``Don't You Always Seem to Know You Don't Know 
What You've Got 'Til It's Gone.''
    The person who sang this line from ``Big Yellow Taxi'' had trees in 
mind. But there are so many other things, like a common language, which 
America has taken for granted but now stands to lose.
    The United States is a big country which used to be united by one 
language. A person looking for work or a company looking for customers 
could travel from Maine to California without knowing any language but 
English.
    By contrast, the nations of Western Europe, and their many 
languages, would fit roughly between Pennsylvania and Texas. Geographic 
necessity has driven many Europeans to become multilingual, while 
language study in the United States has always been more of a hobby for 
the linguistically gifted.
    While no one is against learning other languages, just like no one 
is against children learning about math or science, it would seem 
reasonable to avoid placing the perfect ahead of the good by insisting 
that every American become a linguist.
    English First considers Congressman Steve King's ``English Language 
Unity Act (H.R. 997) to be a worthy platform upon which this 
Subcommittee can build by incorporating some of the specific self-
executing provisions of Congressman Peter King's National Language Act 
(H.R. 4408) or H.R. 4408's Senate counterpart, the Inhofe amendment to 
S.2611.
    Furthermore, the Subcommittee should consider including an explicit 
repeal of E.O. 13166, such as Congressman Peter King's H.R. 136 or 
Senator Tom Coburn's S.557 in its own official English bill.
    English First urges you to reject the Salazar approach to official 
English as added to S.2611. The Salazar amendment would lock into place 
every multilingual mandate any federal bureaucrat has ever dreamed of, 
whether Congress ever agreed to the idea or not.
    Thank you for your time. I look forward to your questions.
            Sincerely,
                                           Jim Boulet, Jr.,
                                                Executive Director.
                                 ______
                                 
                               National Council of La Raza,
                                                   August 14, 2006.
Hon. Raul Grijalva,
Subcommittee on Education Reform, Committee on Education and the 
        Workforce, Rayburn House Office Building, Washington, DC.
    Dear Congressman Grijalva: On behalf of the National Council of La 
Raza (NCLR), the largest national Hispanic civil rights and advocacy 
organization in the U.S., I write to thank you for the opportunity to 
fully answer a question you posed at the Subcommittee on Education 
Reform hearing, ``Examining Views on English as the Official 
Language,'' held on July 26, 2006. Specifically, you asked in response 
to a comment made by another witness whether or not NCLR is ``actively 
promoting the segregation of our society.''
    As an American institution founded nearly 40 years ago, our mission 
at NCLR is to help open the door to the American Dream to all Latinos. 
Inherent in that mission is our work to help integrate Hispanic 
immigrants into American society. We have more than 150 community-based 
organizations which are helping people learn English, acquire job 
skills, buy a home, and become citizens so they can contribute as much 
as they can to the well-being of this great nation. In addition, NCLR's 
network of more than 90 charter schools serves a diverse group of 
students, including English learners. Critics of NCLR's policy agenda 
and proponents of English as the official language are either unaware 
of NCLR's work or choose to ignore these facts.
    Proponents of English as the official language and opponents of 
NCLR's policy agenda sometimes claim that NCLR is not interested in the 
full integration of Latinos or immigrants in American society. They 
sometimes cite our organization's name, ``National Council of La 
Raza,'' as proof of our support for segregation. For example, they 
incorrectly translate our name as ``the race.'' In Spanish, as in 
English, words have multiple meanings, and the term ``La Raza'' is 
translated in this context as ``the people'' or ``the community.'' 
Since Hispanics are an ethnic group whose members include all races, 
this is clearly the more accurate translation, as noted on our website 
and in all our materials.
    Thank you for the opportunity to present NCLR's views. I look 
forward to working with you and your staff on this and other issues 
critical to the Latino community.
            Sincerely,
                                             Raul Gonzalez,
                                              Legislative Director.
                                 ______
                                 

       Prepared Statement of Kent Williamson, Executive Director,
                National Council of Teachers of English

    The National Council of Teachers of English is a non-profit, non-
partisan membership organization serving more than 50,000 English 
language arts teachers who are committed to improving the teaching and 
learning of English. We are grateful that the Subcommittee is 
collecting testimony on English as the official language of the United 
States, and we are eager to assist by providing a perspective on how 
the proposed legislation may affect the scope and quality of efforts to 
provide high-quality English instruction to English Language Learners 
(ELLs).
    NCTE's mission is to ``promote the development of literacy, the use 
of language to * * * achieve full participation in society, through the 
learning and teaching of English and the related arts and sciences of 
language.'' We are keenly aware that the nature of the literacy 
challenge in our schools is growing in scale and complexity at an 
accelerated pace, and we take responsibility for helping to meet this 
challenge. The National Clearinghouse for English Language Acquisition 
(NCELA) recently estimated that there are more than five million 
English language learners in U.S. schools, a number that has grown by 
65% over the past decade.\1\ If we are to serve these students and 
their families well by expediting their English language proficiency, 
we need a full complement of learning, assessment, and professional 
development tools. Establishment of English as the official language 
would deprive English teachers of resources that research has shown to 
be critical in advancing English language learning.
---------------------------------------------------------------------------
    \1\ NCELA. (2006). The growing number of limited English proficient 
students 1991-2002. Washington, DC: U.S. Department of Education.
---------------------------------------------------------------------------
    The No Child Left Behind Act has cast a bright light on the tested 
performance of English language learners, making districts, schools, 
and teachers accountable for steady, significant progress in math, 
reading, and (soon) science. The intent of the law is to ensure that 
ELL students receive the benefit of a rigorous education, and are 
prepared for success in academic, work, and civic contexts. Thus far, 
NCLB has given states the right to choose whether to use native-
language assessments for ELL students; this flexibility is consistent 
with research that shows that second language acquisition is a gradual 
developmental process and is built upon students' knowledge and skill 
in their native language.\2\ If all NCLB-mandated assessments were in 
the English language only, not only would students' actual learning in 
math, science, and reading be mistakenly estimated by the tests (where 
language competence performance would confound measures of actual 
growth in subject-matter knowledge), there would be pressure to force 
every student into English-immersion programs immediately. This, in 
turn, could actually delay fluency in English for all but a few 
students who had already acquired content knowledge and sophisticated 
reading and writing skills in their native language.
---------------------------------------------------------------------------
    \2\ Gibbons, P. (2002). Scaffolding language, scaffolding learning: 
Teaching second language learners in the mainstream classroom. 
Portsmouth, NH: Heinemann.
---------------------------------------------------------------------------
    There is little evidence to suggest that immigrant students or 
their families are inadequately motivated to learn English, a putative 
rationale for legislation to make English our official language. On the 
contrary, there is ample evidence that the key problem in advancing 
English language learning today is one of supply, not demand. A recent 
national staffing survey suggests that while more than 41% of public 
school teachers have ELL students, only 2.5% of all teachers who 
instruct English language learners possess a degree in English as a 
Second Language instruction or bilingual education, and only 12.5% of 
teachers who work daily with English language learners have recently 
received any professional development in teaching these students.\3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Education, National Center for Education 
Statistics (2002). Schools and Staffing Survey, 1999-2000: Overview of 
the Data for Public, Private, Public Charter, and Bureau of Indian 
Affairs Elementary and Secondary Schools (NCES 2002-313). Washington, 
DC: Author. Table 1.19, pp 43-44.
---------------------------------------------------------------------------
    As an organization, NCTE recently strengthened its commitment to 
supporting English teachers in educating ELLs.\4\ But volunteer and 
professional societies cannot do the job alone. NCLB recognizes the key 
roles that families play by mandating parental involvement in decisions 
regarding which language instruction program is best for their 
children. The choice becomes a hollow one under English as the Official 
Language legislation, if legal provisions that currently require 
advisory notices to parents ``* * * in a language that the parent can 
understand'' (Title 3, No Child Left Behind Act) are eliminated.
---------------------------------------------------------------------------
    \4\ NCTE Position Paper on the Role of English Teachers in 
Educating English Language Learners (ELLs), adopted April 2006 (http://
www.ncte.org/about/over/positions/category/div/124545.htm)
---------------------------------------------------------------------------
    If Congress sincerely wishes to preserve and enhance the role of 
English in our society, there are many constructive actions that can be 
taken. Programs designed to accelerate English language literacy can be 
supported in more communities, and targeted funds can be made available 
to defray the costs of teacher training and professional development so 
that the educational equity goals underlying No Child Left Behind can 
be met. Voluntary organizations like ours and others serving ELLs and 
their families can be supported and encouraged. Passage of the English 
as the Official Language Act will do more in the long run to undercut 
the development of English language skills by depriving teachers, 
learners, and their families of critical native language resources 
needed to accelerate progress down the path to full, fluent English 
usage.
                                 ______
                                 

        Prepared Statement of Hon. James Inhofe, a U.S. Senator
                       From the State of Oklahoma

    Chairman Castle and members of the Subcommittee, today's hearing on 
``Examining Views on English as the Official Language'' could not be 
more timely.
    As the primary author of the official English amendment to the 
Senate immigration bill, S.2611, I hope to shed some light on why I 
believe that my approach should be adopted by any House-Senate 
conference committee charged with drafting a final immigration bill.
    In the course of drafting my amendment, my staff and I looked into 
the impact of various state official English laws. We determined that 
the problem has never been overzealous enforcement of these laws but 
rather ensuring any enforcement whatsoever.
    The people who drafted these state laws simply underestimated the 
hostility of state bureaucrats to enforcing any official English 
policy, be that policy a product of the state legislature or enacted by 
the people via a referendum.
    Accordingly, I determined that my amendment should be as specific 
as possible and crafted in such a way to preclude unreasonable 
subversion of Congressional intent by federal bureaucrats.
    After considerable thought, I also felt that the approach taken by 
the Senate's original immigration reform bill on the language question 
was precisely backward.
    Rather than mandating that immigrants prove they have enrolled in 
an English class and invite more abuses similar to those exposed 
regarding U.S. citizenship, I realized the issue is not so much which 
language any immigrant chooses to speak but in which language the 
various federal agencies address all immigrants.
    The message sent by a government office in which signs are in 
English and staff are speaking English is that in America, English is 
our national language. By contrast, a government office that looks and 
sounds like an outpost of the United Nations, with signs in a host of 
languages and staff sounding like a modern-day Tower of Babel, sends a 
very different message.
    My legislation was modeled after Congressman Peter King's National 
Language Act (H.R. 4408). Congressman King has been involved in this 
issue in Congress for many years. I found his bill to strike a 
reasonable balance on this issue, as well as address some of my own 
concerns about ensuring that any final legislation that reaches 
President Bush's desk would be as specific and self-executing as 
possible.
    Mr. Chairman, I'm sure you would agree that we already have too 
many lawsuits in this country without making a federal case about 
language complaints.
    Accordingly, my amendment makes clear that nobody has a right or 
entitlement to sue federal workers or the federal government for 
services or materials in languages other than English.
    My amendment contained certain exceptions for language rights 
enacted by Congress and signed into law, such as the Voting Rights Act, 
which provides for bilingual ballots, and the Court Interpreters Act of 
1978, which provides for translation services in the federal courts.
    What about Clinton Executive Order 13166, which declared that civil 
rights protection for national origin be applied to any person's choice 
of language?
    There is no support in the legislative history or judicial 
interpretations of Title VI for the right or entitlement to federal 
government services or materials in languages other than English. 
Executive Order 13166 purported to interpret Title VI of the Civil 
Rights Act, but it was written before the United States Supreme Court's 
decision in Sandoval.
    Federal courts have rejected the attempts to equate a person's 
language with their national origin in dozens of court cases and court 
decisions going back more than 30 years. Therefore, any expansion of 
the concept of national origin to encompass a theory repeatedly 
rejected by the federal courts must come explicitly from Congress. It 
must be a law. It must be something that Congress proposes and passes 
and not be imposed by a flawed or arbitrary interpretation of the law.
    By passing my amendment, the Senate stated that there is no right, 
entitlement or claim to services and materials in any language other 
than English. Here we are making clear that there is no legal basis for 
Executive Order 13166 that purported to direct services and materials 
in languages other than English.
    The Supreme Court has never held that the language a person chooses 
to speak can be equated to the person's national origin. Though this 
issue was briefed and discussed in Hernandez v. New York, 500 U.S. 352 
(1991), the Court did not make a holding on this question. ``Petitioner 
argues that Spanish-language ability bears a close relation to 
ethnicity, and that, as a result, it violates the Equal Protection 
Clause. * * * We need not address that argument here.'' 500 U.S. at 
360. The Circuits, on the other hand, have rejected such an equation. 
See, e.g., Soberal-Perez v. Heckler, 717 F.2d at 41: ``A classification 
is implicitly made, but it is on the basis of language, i.e., English-
speaking versus non-English speaking individuals, and not on the basis 
of race, religion or national origin. Language, by itself, does not 
identify members of a suspect class.'' See, also, Toure v. United 
States, 24 F.3d at 446 (affirming Soberal-Perez and rejecting request 
for multilingual forfeiture notices). ``A policy involving an English 
requirement, without more, does not establish discrimination based on 
race or national origin.'' ``An v. General Am. Life Ins. Co., 872 F.2d 
426 (9th Cir. 1989) (table).
    The oldest administrative interpretation linking language and 
national origin is the Equal Employment Opportunity Commission's 
arbitrary presumption against English language workplace rules. 29 
C.F.R. Sec. 1606.7. The Supreme Court has never reviewed those purely 
administrative interpretations. But many other courts have reviewed the 
EEOC guidelines and have rejected them and their underlying equation of 
language and national origin. See, e.g., Garcia v. Spun-Steak, 998 F.2d 
1480, 1489-90 (9th Cir. 1993), cert. den. 512 U.S. 1228 (1994) (EEOC 
Guidelines equating language and national origin were ultra vires); 
Vasquez v. McAllen Bag & Supply Co., 660 F.2d 686 (5th Cir. 
1981)(upholding English-on-the-job rule for non-English-speaking truck 
drivers); Garcia v. Rush-Presbyterian St. Luke's Medical Center, 660 
F.2d 1217, 1222 (7th Cir. 1981)(upholding hiring practices requiring 
English proficiency); Long v. First Union Corp., 894 F. Supp. 933, 941 
(E.D. Virginia, 1995)(``there is nothing in Title VII which protects or 
provides that an employee has a right to speak his or her native tongue 
while on the job.''), affirmed, 86 F.3d 1151 (4th Cir. 1996).
    A few cases indicate that if the language policy is a pretext for 
intentional discrimination, a language-related rule might violate 
national origin rules. In addition, two recent lower court decisions 
have adopted the EEOC's interpretation equating language and national 
origin. See, e.g., EEOC v. Synchro-Start Products, 29 F.Supp.2d 911, 
915 n. 10 (N.D. Illinois, 1999)(on advice of law clerk, Judge Shadur 
was ``staking out a legal position that has not been espoused by any 
appellate court.''); EEOC v. Premier Operator Services, 113 F.Supp.2d 
1066 (N.D. Texas, 2000) (Magistrate Judge Stickney, rejecting appellate 
cases against EEOC Guidelines and relying on Synchro-Start Products and 
Judge Reinhardt's dissent from denial of rehearing en bane in Spun 
Steak, found disparate treatment of Hispanic employees in the 
promulgation of an English-workplace rule; the defendant company was 
bankrupt and did not present a defense).
    But almost all cases, including all Circuit decisions, have 
rejected the equation of language and national origin. See, e.g., 
Gloor, 618 F.2d at 270 (``The EEO Act does not support an 
interpretation that equates the language an employee prefers to use 
with his national origin.''); Nazarova v. INS, 171 F.3d 478, 483 (7th 
Cir. 1999)(permitting deportation notices in English); Carmona v. 
Sheffield, 475 F.2d 738 (9th Cir. 1973)(permitting English benefit 
termination notices); Frontera v. Sindell, 522 F.2d 1215 (6th Cir. 
1975) (civil service exam for carpenters can be in English); Garcia v. 
Spun Steak, 998 F.2d 4 1480, 1489-90 (9th Cir. 1993), cert. den., 512 
U.S. 1228 (1994) (rejecting EEOC guidelines); Gonzalez v. Salvation 
Army, 985 F.2d 578 (11th Cir.)(table), cert. den., 508 U.S. 910 
(1993)(rejecting employment discrimination claim); Jurado v. Eleven-
Fifty Corp, 813 F.2d 1406 (9th 0Cir. 1987) (permitting radio station to 
choose language an announcer would use); Vasquez v. McAllen Bag & 
Supply Co., 660 F.2d 686 (5th Cir. 1981) (upholding English-on-the-job 
rule for non-English-speaking truck drivers); Garcia v. Rush-
Presbyterian St. Luke's Medical Center, 660 F.2d 1217 (7th Cir. 1981) 
(upholding hiring practices requiring English proficiency); Long v. 
First Union Corp., 894 F.Supp. 933, 941 (E.D. Virginia, 1995) (``there 
is nothing in Title VII which protects or provides that an employee has 
a right to speak his or her native tongue while on the job''), 
affirmed, 86 F.3d 1151 (4th Cir. 1996); Gotfryd v. Book Covers, Inc., 
1999 WL 20925, Sec. 8 (N.D. Ill. 1999) (rejecting attempt to use EEOC 
guidelines to establish hostile workplace); Magana v. Tarrant/Dallas 
Printing, Inc., 1998 WL 548686, Sec. 5 (N.D. Texas, 1998) (``English-
only policies are not of themselves indicative of national origin 
discrimination in violation of Title VII''); Tran v. Standard Motor 
Products, Inc., 10 F.Supp.2d 1199, 1210 (D. Kansas, 1998) (``the 
purported English-only policy does not constitute a hostile work 
environment''); Mejia v. New York Sheraton Hotel, 459 F.Supp. 375, 377 
(S.D.N.Y. 1978) (chambermaid properly denied a promotion because of her 
``inability to articulate clearly or coherently and to make herself 
adequately understood in * * * English''); Prado v. L. Luria & Son, 
Inc., 975 F.Supp. 1349 (S.D. Fla 1997) (rejecting challenge to English 
workplace policy); Kania v. Archdiocese of Philadelphia, 14 F.Supp. 2d 
730, 733 (E.D. Penn. 1998) (surveying cases: ``all of these courts have 
agreed that--particularly as applied to multi-lingual employees--an 
English-only rule does not have a disparate impact on the basis of 
national origin, and does not violate Title VII'').
    Executive Order 13166 is based on the equation of a person's 
language and that person's national origin. There is no legal basis for 
Executive Order 13166. Neither is there any legal basis for federal 
regulations based on Executive Order 13166, including, but not limited 
to those federal regulations in the following list: Index of Federal 
Regulations on Executive Order 13166 Cabinet-Level Departments Commerce 
Department of Commerce: ``Guidance to Federal Financial Assistance 
Recipients on the Title VI Prohibition Against National Origin 
Discrimination Affecting Limited English Proficient Persons'' (March, 
2003). (reaffirmed on July 29, 2003). Energy Department of Energy: 
Ensuring Access to Federally Conducted Programs and Activities by 
Individuals with Limited English Proficiency (LEP) Plan DRAFT. EPA EPA 
Factsheet. HHS REVISED Guidance to Federal Financial Assistance 
Recipients Regarding Title VI Prohibition Against National Origin 
Discrimination Affecting Limited English Proficient Persons (August 8, 
2003). Strategic Plan to Improve Access to HHS Programs and Activities 
by Limited English Proficient (LEP) Persons (December 14, 2000). 
``Policy Guidance: Title VI Prohibition Against National Origin 
Discrimination As It Affects Persons With Limited English 
Proficiency,'' U.S. Department of Health and Human Services, Office for 
Civil Rights (September 1, 2000). Guidance Memorandum, Title VI 
Prohibition Against National Origin Discrimination--Persons with 
Limited-English Proficiency, U.S. Department of Health and Human 
Services, Office of Civil Rights (January 29, 1998). Proposed HHS 
Regulations as published in the Federal Register (August 30, 2000). 
Fact sheet ``Language Assistance to Persons with Limited English 
Proficiency (LEP)'' U.S. Department of Health and [[Page S4755]] Human 
Services, Office for Civil Rights (September 26, 2000). Appendix A: 
``Questions and Answers'' (August 29, 2000). Appendix B: ``Selected 
Federal and State Laws and Regulations Requiring Language Assistance,'' 
U.S. Department of Health and Human Services Office for Civil Rights 
(August 29, 2000). Justice Bush Justice Department issues reaffirmation 
of E.O. 13166 and a new set of Questions and Answers (October 26, 
2001). Justice Department Policy Guidance Document: ``Enforcement of 
Title VI of the Civil Rights Act of 1964--National Origin 
Discrimination Against Persons With Limited English Proficiency'' (LEP 
Guidance) (August 16, 2000). Commonly Asked Questions And Answers 
Regarding Executive Order 13166, Department of Justice (November 13, 
2000). Civil Rights Forum (Summer-Fall, 2000). EO 13166 Implementation 
Plan (January, 2001). Labor REVISED Department of Labor Policy Guidance 
(May 29, 2003). Department of Labor Policy Guidance. Transportation DOT 
Guidance to Recipients on Special Language Services to Limited English 
Proficient (LEP) Beneficiaries (document undated--appeared in January, 
2001). Treasury Department issues EO 13166 regulations (March 7, 2001). 
Department of Veterans Affairs Guidance to Federal Financial Assistance 
Recipients: Providing Meaningful Access to Individuals Who Have Limited 
English Proficiency in Compliance With Title VI of the Civil Rights Act 
of 1964 Subcabinet agencies Corporation for National and Community 
Service Plan. Consumer Product Safety Commission's Plan for Agency 
Compliance With Executive Order 13166. REVISED General Services 
Administration (2003). General Services Administration. FINAL Institute 
of Museum and Library Services (August 7, 2003). REVISED Institute of 
Museum and Library Services (April, 2003). Institute of Museum and 
Library Services. Legal Services Corporation (January, 2003). National 
Aeronautics and Space Administration Language Assistance Plan for 
Accommodating Persons with Limited English Proficiency in NASA-
Conducted Programs and Activities. National Council on Disability 
Implementation Plan for Executive Order 13166 Improving Access to 
Services for Persons with Limited English Proficiency (Dec. 12, 2000). 
National Credit Union Federation (undated). National Science Foundation 
plan. Office of Special Counsel's Plan for Agency Compliance With 
Executive Order 13166. Pension Benefit Guaranty Corporation's Plan for 
Agency Compliance With Executive Order 13166.
    What the Senate did was make a declaration that English is the 
national language for the United States of America.
    English remains the language of opportunity in America. Our 
President said not long ago that an ability to speak and write the 
English language allows newcomers to go from picking crops to opening a 
grocery, from cleaning offices to renting offices, from a life of low-
paying jobs to a diplomatic career and a home of their own. This is an 
opportunity.
    As recently as March of 2006, a Zogby poll found that 84 percent of 
Americans, including 77 percent of the Hispanics, believe English 
should be the official language of Government operations.
    In 2002, the Kaiser Family Foundation poll, which I don't think 
anyone is going to question, found 91 percent of the foreign-born 
Latino immigrants agreed that learning English is essential to 
succeeding in the United States.
    In 2002, there is also a Carnegie/Public Agenda poll that found by 
a more than 2-to-1 margin, immigrants themselves say that the United 
States should expect new immigrants to learn English.
    My favorite poll is this one. In 2004, the National Council of La 
Raza found that 97 percent, strongly 86.4 percent or somewhat 10.9 
percent, agreed that the ability to speak English is important to 
succeed in this country.
    In 1988, G. Lawrence Research showed 87 percent favored English as 
an official language with only 8 percent opposed and 5 percent not 
sure. That was 1988. Very consistent; about the same numbers.
    A 1996, national survey by Luntz Research asked, ``Do you think 
English should be made the official language of the United States?'' 
and 86 percent of Americans supported making English the official 
language and only 12 percent opposed and only 2 unsure. That was 1996.
    In 2000, Public Opinion Strategies, showed 84 percent favored 
English as the official language, with only 12 percent opposed and 4 
percent not sure.
    In 2004 another Zogby poll, that was a different one than the one I 
quoted, but 92 percent of Republicans, 76 percent of Democrats, and 76 
percent of Independents favored making English the national language. 
Again, that was a March poll of Zogby.
    You have 27 States, you have 51 other nations accepting English as 
the national language, you have all the polling data showing this is 
what people want.
    Let us do the people's business, Mr. Chairman and make English our 
national language.
                                 ______
                                 

  Prepared Statement of Charles S. Amorosino, Jr., Executive Director,
    Teachers of English to Speakers of Other Languages, Inc. (TESOL)

    Thank you for the opportunity to provide written testimony on the 
issue of English as the official language in the United States. 
Teachers of English to Speakers of Other Languages, Inc. (TESOL), is a 
global education association representing over 13,000 English language 
educators. With its mission to ensure excellence in English language 
teaching to speakers of other languages, TESOL and its network of over 
90 affiliates represent more than 42,000 English language educators 
working at every level worldwide.
    TESOL supports language learning and multilingualism for all--both 
native and nonnative English speakers. Likewise, TESOL supports the 
right of all individuals to preserve and foster their linguistic and 
cultural origins, whether their native language is English or another 
language.
    TESOL has historically opposed policies that seek to restrict 
language and communication as stated by its Resolution on Language 
Rights (1987) and its Position Statement on Language Rights (2000). In 
TESOL's view, official English or English-only policies in the United 
States are restrictive measures that will place limits on government 
communication and will do little to promote and foster the learning of 
English.
    In discussing the merits of English-only, proponents have used a 
number of erroneous arguments to mislead the public on the nature and 
goals of such policies.
Myth 1: English-only promotes unity
    Proponents of English-only suggest that a linguistically and 
culturally diverse country is a divided one, and that divisions along 
linguistic lines contribute to racial and ethnic conflicts. They claim 
that the English language, then, is a common bond that holds a country 
together. Citing conflicts over language in other countries such as 
Canada, proponents of English-only suggest an official language in the 
United States will prevent such conflicts by unifying the nation and 
promoting assimilation by immigrants.
Reality
    Linguistic diversity is rarely the cause of conflict in other 
countries, but rather is often used as a symbol to reflect social 
inequalities, as is the case in Canada. More importantly, however, the 
argument above assumes that those who speak a language other than 
English are monolingual, and therefore cannot communicate in English.
    The 2000 Census revealed that although the U.S. population is 
diverse, only 4% of the U.S. population speaks little or no English 
(U.S. Census Bureau, 2003). Moreover, the diverse population that 
speaks a language other than English is not a distinct group that is 
geographically or culturally isolated, but rather, is spread throughout 
the country. As this population is tremendously diverse, there is no 
danger of some kind of unity within this population to challenge 
English-language speakers.Therefore comparison to situations in other 
countries is inaccurate.
Myth 2: English-only will empower immigrants
    According to proponents of English-only, conducting all government 
business in English-only will empower immigrants because they will 
understand that they must know English to fully participate and succeed 
in the United States. This myth would have people believe that 
providing multilingual government services sends a mixed signal and 
creates a dependence on linguistic welfare, isolating immigrants from 
mainstream society and encouraging the growth of linguistic enclaves 
and ghettoes.
Reality
    There is no arguing against the value of learning English in the 
United States; English is already recognized worldwide as the de facto 
language of this country. Immigrants fully understand that the ability 
to speak English is the key to success in the United States. Immigrants 
and those with limited English skills generally do want to learn 
English, but often there are few opportunities to do so. Government 
funding for adult education, language, and literacy programs is much 
more limited than for elementary and secondary education. In many major 
urban areas, the demand for affordable adult English as a second 
language (ESL) programs far outpaces the supply, and thousands of 
adults are on waiting lists to attend available ESL programs.
    Furthermore, if the aim of English-only policies were truly to 
empower immigrants, they would be matched by increasing the 
opportunities for immigrants to learn English. English-only provisions 
have only focused on the language of government, and not on 
opportunities to learn English. For example, the two English-only bills 
introduced at the start of the 109th Congress--H.J.RES. 43 and H.R. 
997--offer no provisions to expand resources and funding for ESL 
programs.
Myth 3: English-only will promote efficiency and fairness in government 
        by conducting all official business in a single language
    Offering multilingual government services is costly and 
inefficient, according to proponents of English-only. Supposedly, 
thousands of dollars spent on multilingual services would be saved if 
government business were to be conducted only in English. Furthermore, 
if government services cannot be provided in all languages, they claim 
that it would be fairer to provide them only in a single language.
Reality
    Very little money is spent federally on translation of documents 
and multilingual services. In fact, when government agencies choose to 
provide multilingual services, it is almost always to promote more 
efficient operations, such as in law enforcement, informing the public 
of their rights and responsibilities, safeguarding public health and 
safety, and providing greater access to government and the political 
process. In the case of the Internal Revenue Service, the primary 
reason multilingual services are provided is for cost-effectiveness: 
The amount of taxes collected as a result of such services far exceeds 
the cost.
    Furthermore, by providing government services in a single language, 
English-only provisions in fact penalize English language learners by 
limiting their access to public services. Any law that makes it more 
difficult for certain segments of the population to access services is 
by its nature discriminatory and cannot be either fair or efficient. 
Moreover, limiting access to public services and opportunities that 
could help immigrants better integrate into the country is illogical, 
as it would further stigmatize and disenfranchise English language 
learners rather than help them acquire the language.
Myth 4: English-only will help protect the English language in the 
        United States, which is in danger of being replaced by Spanish
    Many proponents of English-only fear that the growing Hispanic 
population and visibility of Spanish-language media in the United 
States threatens the status and use of English. Declaring English the 
official language, the argument goes, will protects its status as the 
historical and national language of the United States.
Reality
    According to the 2000 Census, 82% of the population speaks only 
English, and 96% speak English well or very well (U.S. Census Bureau, 
2003). Although the Spanish-speaking population has grown dramatically 
in the United States since 1990, English clearly remains the dominant 
language of the country. Moreover, studies have shown a rapid language 
shift to English among immigrants and their children in the United 
States (Portes & Hao, 1998.) Further, the demand for English language 
teaching has grown dramatically around the world, and English has 
become a common language of global communication. The notion that 
somehow the English language is endangered and is in need of protection 
is a fallacy.
Myth 5: Bilingual education and bilingualism prevent immigrants from 
        effectively learning English and integrating effectively
    Furthering the argument that multilingual government services are a 
kind of linguistic welfare that only encourage the growth of linguistic 
enclaves, proponents of English-only single out bilingual education as 
one of the main causes of this problem. They are against bilingual 
education, saying this discourages and hinders young limited English 
speakers from learning English, further segregating them from 
mainstream society. Moreover, the proponents argue, the language spoken 
at home is a private family matter, and its teaching and maintenance is 
not the responsibility of the government.
Reality
    Bilingual education, which uses the native language of its students 
to aid in academic achievement, can take many different forms. 
Regardless of the methodology used, effective bilingual education 
programs develop high levels of proficiency in the students' native 
language and English, as well as content knowledge. The cognitive, 
linguistic, social, and academic benefits of enrichment bilingual 
contexts have been well documented (Payne & Collier, 1998). Research on 
second language acquisition has consistently shown that the use and 
development of the students' native language while they are acquiring 
English has no detrimental effect on learning English and in fact aids 
second language development and academic learning (Payne & Collier, 
1999).
    With regard to government involvement in language development, the 
U.S. Department of Defense and other security agencies spend millions 
annually training native English speakers to speak a foreign language, 
and the Department of Defense has even gone so far as to develop an 
action plan for building the nation's language capacity (U.S. 
Department of Defense, 2005). Meanwhile, little money is spent to 
develop the existing resources in this country's linguistically and 
culturally diverse communities. Moreover, as the ability to communicate 
in more than one language provides greater access to opportunities in 
this increasingly interdependent world, the language diversity in the 
United States should be viewed as a rich resource that should be 
fostered, rather than as a deficit that needs to be countered.
    Although proponents of English-only declare the intention of such 
legislation is to help unify the country and assist immigrants, the 
reality of English-only is that it will do the exact opposite. English-
only policies will polarize and divide rather than unify; they will 
exclude rather than include immigrants and other English language 
learners from civic life and hence further marginalize this group.
    Like many nations that encourage multilingualism for all, the 
Unites States should treat linguistic and cultural diversity as an 
asset for all individuals in the United States. Policies should create 
services and opportunities for English language development as well as 
competence in other languages. Rather than create exclusionary and 
restrictive language policies, lawmakers should focus their efforts on 
creating more resources and opportunities for English language 
development for English language learners, as well as fostering 
bilingualism and multilingualism for all Americans.
                               references
Portes, A., & Hao, L. (1998). E Pluribus Unum: Bilingualism and 
        language loss in the second generation. Sociology of Education, 
        71, 269-294.
Thomas, W. P., & Collier, V. P. (1997-1998). Two languages are better 
        than one. Educational Leadership, 55(4), 23-26.
Thomas, W. P., & Collier, V. P. (1999). Accelerated schooling for 
        English language learners. Educational Leadership, 56(7), 46-
        49.
U.S. Census Bureau. (2003). Language use and English-speaking ability: 
        2000. Census 2000 Brief. Retrieved May 17, 2005, from http://
        www.census.gov/prod/2003pubs/c2kbr-29.pdf
U.S. Department of Defense. (2005). A call to action for national 
        foreign language capabilities. Retrieved July 8, 2005, from 
        http://www.nlconference.org/docs/White--Paper.pdf

                               RESOURCES

Crawford, J. (n.d.). Anatomy of the English-only movement. Retrieved 
        May 17, 2005, from http://ourworld.compuserve.com/homepages/
        JWCRAWFORD/anatomy.htm
Crawford, J. (n.d.). Making sense of Census 2000. Retrieved May 17, 
        2005, from http://www.asu.edu/educ/epsl/LPRU/features/
        article5.htm
Crawford, J. (2000). At war with diversity: U.S. language policy in an 
        age of anxiety. Clevedon, England: Multilingual Matters.
Portes, A., & Hao L. (2002). The price of uniformity: Language, family, 
        and personality adjustment in the immigrant second generation. 
        Working paper. Center for Migration and Development, Princeton 
        University
TESOL. (1987). Resolution on language rights. Retrieved July 7, 2005, 
        from http://www.tesol.org/s--tesol/sec--
        document.asp?CID=87&DID=232
TESOL. (2000). Position statement on language rights. Retrieved July 7, 
        2005, from http://www.tesol.org/s--tesol/
        bin.asp?CID=32&DID=2115&DOC=FILE.PDF
                                 ______
                                 

        Prepared Statement of State Representative Dwayne Alons,
                         Iowa's Fourth District

    Four years ago the state of Iowa became the 27th state in the 
nation to adopt English as the Official Language legislation. The Iowa 
Senate approved the measure by a vote of 27 to 23 in 2001 and the Iowa 
House of Representatives did so on February 25, 2002 by a 56-42 vote. 
Governor Tom Vilsack signed the English as the Official Language bill 
into law on March 1, 2002.
    Iowa's law declares English as the state's official language and 
requires all state and local official government documents, proceedings 
and publications to be in English. The law reaffirms this declaration 
for official documents, proceedings and publication as a preventative 
measure for government at all levels to keep publishing costs to a 
minimum by making it unnecessary to print these items in multiple 
languages.
    Iowa has long welcomed immigrants to this state. An overwhelming 
number of immigrants choosing to live within Iowa borders bring with 
them the desire to be good citizens and a vibrant part of the fabric of 
their community. Along with that comes their desire to learn the 
English language. Proof of Iowa immigrants' desire to be part of their 
community and this country shows in that according to the U.S. Census 
Bureau's most recent reporting year, from 2003 to 2004 the number of 
foreign-born, naturalized citizens living in Iowa grew by 10,000.
    Our immigrant population continues to see growth. Today Iowa's K-12 
public and nonpublic schools have 1,300 more English Language Learners 
enrolled than the state did in 2002. This represents a 9.6 percent 
increase. Three out of every four English Language Learners identifies 
Spanish as their primary language.
    Just this year, in May 2006, the Iowa Legislature responded to the 
need for additional English language skill development by approving a 
fourth year of state funded eligibility for this growing number of 
students.
    Other statistics show that Iowa's English as the Official Language 
law has not had the detrimental impact as some had feared. For example, 
according to the most recent reporting year by U.S. Census Bureau, from 
2003 to 2004, Iowa saw a 7 percent growth in the number of foreign-born 
persons living in the state. This law has nothing to do with speaking 
in another language in public or in our homes; it just defines the 
terms for doing official governmental business in our state in a single 
language for efficiency and unity.
    I close these brief remarks by repeating a previous statement. Iowa 
has long welcomed immigrants to this state. There is very little 
evidence to show that our status as a welcoming state ended with the 
passage of an English as the Official Language law.
    Thank you for the opportunity to tell you about Iowa's experience.
                                 ______
                                 

           Frequently Asked Questions About Official English

   By James Crawford, Director, Institute for Language and Education 
                                 Policy

    English is the official language in many countries. Why should this 
idea be controversial in the United States?
    So far, no country has designated English as its sole official 
language, with legal restrictions on the use of other languages by 
government. Most nations where English is an official language--such as 
Canada, India, the Philippines, and South Africa--are officially 
bilingual or multilingual. That is, they grant legal protections for 
speakers of languages in addition to English. None has imposed the kind 
of English Only regime that today's official-English advocates are 
proposing.
    It is true that some non-English-speaking countries have adopted 
repressive language policies aimed at restricting the expression of 
ethnic minorities. For example, Turkey and Slovakia have targeted the 
use of Kurdish and Hungarian, respectively, and have persecuted their 
speakers.\1\ Such draconian policies are inconsistent with American 
traditions of free speech and civil rights.
    Isn't bilingualism a threat to national unity, dividing people 
along language lines?
    Language diversity is a fact of life throughout the world, the 
normal state of affairs in all but a few small countries. This has been 
equally true in the United States, where hundreds of immigrant and 
indigenous tongues have coexisted with English. About 380 languages are 
spoken by U.S. residents today, according to the Census Bureau.\2\
    As a marker of ethnic differences, language sometimes plays a role 
in ethnic conflicts. But diverse societies need not be divided 
societies. In a study of 130 nation-states, the sociolinguist Joshua 
Fishman found no correlation between linguistic diversity and civil 
strife.\3\ For every Canada, where language differences have become 
politicized, there is a Switzerland, where four language groups have 
coexisted harmoniously for centuries, enjoying equal rights under their 
constitution.
    Why has language been a source of tension in Canada?
    Canada is a good example of the polarization that can result from 
generations of social inequality based on language. Before 1969, 
French-speaking citizens had limited access to government outside the 
province of Quebec. De facto English Only policies made them second-
class Canadians. Official bilingualism, adopted that year, was a 
belated attempt to guarantee minority rights.\4\ Unfortunately, it came 
too late to head off Quebecois separatism in the 1 970s, including 
French Only policies that have discriminated against English 
speakers.\5\
    The problem in Canada has not been language differences per se, but 
the use of language as a tool of ethnic domination. This phenomenon has 
been less common in the United States, where a libertarian tradition 
has largely prevailed, and restrictive language laws have been the 
exception rather than the rule. As a result, Americans have tended to 
avoid major conflicts over language--until now.
    When has the official language issue come up previously in U.S. 
history? Here are some key dates and events:
    1923--the first official language legislation at the federal level, 
a bill to declare ``American'' the official language. This was a 
tongue-in-cheek assault on Americans who valued English literary 
traditions more than their own. It was not taken seriously by Congress. 
But the proposal was adopted that year in the state of Illinois, where 
Irish American legislators saw an opportunity to embarrass the British 
Empire. In 1969, Illinois quietly replaced ``American'' with English as 
its official tongue.\6\
    1981--the first proposal to declare English the official language 
nationwide. Sen. S. I. Hayakawa (R-CA) introduced a constitutional 
amendment that provided: ``Neither the United States nor any State 
shall make or enforce any law which requires the use of any language 
other than English. This article shall apply to laws, ordinances, 
regulations, orders, programs, and policies.'' \7\
    1996--the first Congressional vote on official English. By a vote 
of 259-169, the House approved the ``English Language Empowerment 
Act,'' a measure requiring English as the language of most federal 
documents, communications, and services.\8\ The bill died in the 
Senate, where the Governmental Affairs Committee declined to act on it.
    2006--the first Senate vote on official English. An amendment 
sponsored by Sen. James Inhofe (R-OK) would designate English as the 
``national language'' and restrict access to government in other 
languages. It passed, 63-34.\9\
    If the United States never declared an oficial language in the 
past, didn't this reflect the fact that--until recently--most Americans 
spoke English and nobody demanded government services in other 
languages?
    Not at all. The United States has been linguistically diverse since 
before it became the United States. During the Colonial period, 
immigrants arrived speaking most if not all European languages; African 
slaves brought many others. In 1664, when the colony of New Netherland 
passed from Dutch to English control--and became New York--18 different 
languages were spoken on the island of Manhattan, not counting the 
numerous Native American languages spoken nearby.\10\
    To accommodate significant language-minority groups and solicit 
their support for the American Revolution, the Continental Congress 
translated important documents into German and French. German settlers 
were especially numerous. In the 1790 census, they represented 8.7% of 
the population of the original 13 states; \11\ millions more arrived as 
immigrants during the 19th century. German Americans established rural 
``language islands'' in states such as Pennsylvania, Missouri, Ohio, 
Illinois, Michigan, and Wisconsin, where their language thrived for up 
to five generations.\12\
    What did America's founders think about the role of English?
    All of the founders saw the dominance of English as an advantage 
for the new nation. But most disapproved of language legislation. One 
exception was John Adams, who in 1780 proposed an ``American Academy 
for refining, improving, and ascertaining the English language,'' 
modeled on the French and Spanish academies. The plan went nowhere in 
the Continental Congress. There was a general consensus among early 
leaders that government, especially at the federal level, should play 
no role in regulating the people's speech.\13\
    Meanwhile, there was some loose talk about replacing English--the 
language of King George III--with German, French, Greek, or Hebrew as 
America's national tongue. But Roger Sherman, a delegate to the 
Continental Congress from Connecticut, summed up the majority view: 
``It would be more convenient for us to keep the language as it was and 
make the English speak Greek.'' \14\
    As a practical matter, wasn't English always the language of 
government in America?
    Mostly but not exclusively. It is worth noting that in 1783, when 
Americans won independence from England, Spain remained a major 
colonial power, laying claim to about half of today's continental 
United States. Spanish was the language of government in the earliest 
European settlements, St. Augustine and Santa Fe, as well as in San 
Antonio, San Diego, San Francisco, and many areas in between.\15\
    In 1800, Napoleon reclaimed the Louisiana Territory for France, 
then sold it to the United States three years later. When Louisiana 
joined the Union in 1812, French speakers remained a majority there. 
Congress required the state to keep official records in English--but 
not only in English. Until after the Civil War, the legislature and 
courts operated bilingually. Some officials, such as Gov. Jacques 
Villere (1816-20), spoke only French.\16\
    Beginning in the 1830s, states including Ohio, Indiana, Illinois, 
Iowa, Wisconsin, and Missouri translated laws and governors' messages 
into German and sometimes other languages, such as Norwegian and Welsh. 
California's 1849 constitution required all statutes to be translated 
into Spanish. In 1857, Minnesota printed its new state constitution in 
English, German, Swedish, Norwegian, and French. In 1875, Texas did so 
in English, German, Spanish, and Czech. New Mexico's 1912 constitution 
specified a variety of language rights for Spanish speakers, including 
a provision for the training of bilingual teachers.\17\
    But isn't it true that large-scale language assistance programs 
such as bilingual education appeared only in the 1960s?
    Not true. In 1839, Ohio became the first state to adopt a bilingual 
education law, requiring instruction in both German and English where 
parents petitioned for it. Louisiana passed the same law in 1847, 
substituting French for German. By the turn of the 20th century, about 
a dozen states and territories had statutes authorizing bilingual 
schools. Such instruction was often provided elsewhere without state 
sanction.\18\
    Surveys conducted in 1900 reported that 600,000 children in U.S. 
elementary schools, public and parochial, were receiving part or all of 
their instruction in the German language. This represented about 4 
percent of the nation's elementary school enrollment--larger than the 
proportion of students (from all language groups) in bilingual 
classrooms today.\19\
    Weren't earlier immigrants more eager to join the Melting Pot and 
assimilate, as compared with those arriving in recent years from Asia 
and Latin America?
    This is a racial stereotype that is unsupported by factual 
evidence. The same unfair charge was made against the so-called ``new 
immigrants''--Italians, Jews, Greeks, and Slavs--who arrived at the 
turn of the 20th century. In 1911, for example, a federal commission 
accused these groups of failing to learn English as rapidly as the 
``old immigrants''--Germans, Irish, and Scandinavians.\20\
    In fact, German Americans, from Colonial times until the early 20th 
century, were more aggressive and more successful in maintaining their 
language and culture than most other groups. Pursuit of Deutschtum 
(German ``identity politics'') was combined with loyalty to an American 
nation-state based on democratic values, not ethnic traits.\21\ No 
doubt German and other immigrant languages would have remained viable 
longer if not for xenophobic restrictions adopted during the World War 
I era.
    Are you saying that policies to restrict languages other than 
English are racist or nativist?
    That has often been the case. Language-restrictionist laws are 
never just about language. Inevitably they reflect attitudes toward--
and authorize discrimination against--the speakers of certain 
languages.
    In the late 19th century, for example, Native Americans were 
targeted by English Only school policies as part of an effort to 
destroy their way of life. As J.D.C. Atkins, Commissioner of Indian 
Affairs, explained the rationale in 1887: ``Teaching an Indian youth in 
his own barbarous dialect is a positive detriment to him. The first 
step to be taken toward civilization, toward teaching the Indians the 
mischief and folly of continuing in their barbarous practices, is to 
teach them the English language.''\22\ In fact, this was the first step 
toward cultural genocide. Virtually all the languages of indigenous 
peoples in the United States are threatened with extinction today, at 
great social cost. It was to help mitigate this catastrophe that 
Congress passed the Native American Languages Acts of 1990 and 
1992.\23\
    Did European immigrant groups ever face this kind of cultural 
repression?
    Rarely, but it sometimes occurred. In 1918, wartime paranoia 
against German Americans led to emergency bans on their language 
throughout the Midwest. The use of the German language was outlawed on 
the street, in church, on the telephone, and in private as well as 
public schools.\24\
    Even after the war, states continued to enact English Only school 
laws. These were aimed especially at German speakers but affected all 
immigrant groups. Arguments in favor of such measures, like those in 
favor of official English today, were couched in the rhetoric of 
national unity.\25\ The most extreme of these laws prohibited foreign-
language instruction before the 8th grade, a restriction that was later 
ruled unconstitutional by the U.S. Supreme Court in Meyer v. 
Nebraska.\26\
    Doesn't a large percentage of the public favor making English the 
official language, according to public opinion polls? Does this mean 
most Americans are racist?
    Yes, and no. Frequently, on first hearing about the official-
English issue, monolingual Americans fail to see the downside. Many 
wonder, since English is so dominant in this country, whether it isn't 
already the official language. And if not, why not? This reaction is 
not surprising since--compared with citizens of many other nations--
Americans have limited experience with the politics of language. But 
when the potential impact of official English is explained, support 
drops off sharply.\27\
    Favoring English as the official language, in itself, should not be 
equated with racism. Yet racist attitudes--toward Latinos in 
particular--have been closely associated with this movement. U.S. 
English, the first and largest English-only group, was a spinoff from 
the immigration-restriction lobby. Its founder was forced to resign in 
1988 after he wrote a memo containing vicious anti-Hispanic 
stereotypes.\28\ That same year an internal survey commissioned by U.S. 
English found that 42% of its members, when asked why they had joined 
the organization, agreed with the statement: ``I wanted America to 
stand strong and not cave in to Hispanics who shouldn't be here.''\29\
    Immigrant languages are spreading so rapidly these days. Doesn't 
this trend threaten the status of English as our common language?
    English is in no way threatened in the United States. Certainly, 
with immigration at higher rates than, say, during the 1 950s, it is 
now more common to hear other languages spoken. In the 2000 census, 
nearly one in five U.S. residents reported speaking a language other 
than English at home--although not to the exclusion of English. Less 
noticeable, perhaps, is a countertrend toward increasing bilingualism. 
Between 1980 and 2000, the number of minority language speakers 
doubled, but so did the number of this group who spoke English ``very 
well.'' \30\
    For the children of immigrants, English proficiency is advancing 
especially fast. A long-term study of Hispanic and Asian teenagers 
found that 94% knew English well, while only 44% knew their parents' 
language well; 72% of second-generation youth said they preferred to 
speak English.\31\
    How does this pattern compare with rates of English acquisition in 
the past?
    Demographic data from a variety of sources indicate that today's 
immigrants are acquiring English more rapidly than ever before. In the 
1890 census, for example, the proportion of non-English speakers (3.6% 
of U.S. residents) was nearly three times as large as in 2000 
(1.3%).\32\ The data also show that it's languages other than English 
that are threatened in the United States today. Without the 
replenishing effects of immigration, most would soon die out.\33\
    The latter phenomenon, known as language shift, was prominent 
during the middle of the 20th century. Owing to strict immigration 
quotas between 1924 and 1965, the foreign-born population of the United 
States declined from 14.7% in 1910 to 4.8% in 1970.\34\ As the number 
of non-English-speaking newcomers plummeted, second- and third-
generation immigrants stopped speaking their ancestral languages. It's 
no wonder that this was the least diverse period, linguistically 
speaking, in American history.
    Now that the proportion of foreign-born Americans has rebounded to 
its historic norm--11.1% in 2000--so has the use of non-English 
languages in American communities. To many people who came of age 
before the 1980s, today's level of bilingualism seems ``abnormal.'' In 
fact, the atypical period was the mid-1900s.\35\
    Would it speed up English acquisition even more if government 
eliminated bilingual assistance programs?
    Some people assume that if non-English speakers can read Social 
Security pamphlets or take driver's tests in their native language, 
they will have no incentive to learn English. Bilingual assistance 
programs supposedly convey the false notion that it's OK to live in the 
United States as monolingual speakers of Spanish or Chinese. Or they 
encourage immigrants to be lazy when it comes to language learning. In 
fact, no real evidence has ever been mustered to support such claims--
only personal anecdotes and ethnic stereotypes.
    Bilingual accommodations are rare in any case. A 1995 study by the 
Government Accountability Office could locate only 265 out of 400,000 
federal publications--less than 1/10 of one percent--that were printed 
in languages other than English.\36\
    Don't children learn English faster if they are ``totally 
immersed'' in English?
    That was the assumption behind English Only school initiatives 
adopted in California (1998), Arizona (2000), and Massachusetts (2002). 
These laws established ``structured immersion'' programs intended to 
teach English to immigrant students in just one school year. But things 
have not worked out quite as planned:
    <bullet> A five-year study, commissioned by the California 
legislature, found no evidence that all-English immersion programs had 
improved academic outcomes for English learners in the state.\37\ In 
2004-05, only 9% of these students were reclassified as fluent in 
English--a rate that was virtually unchanged since the year before 
passage of the English Only law.\38\
    <bullet> Researchers at Arizona State University reported that 60% 
of English learners in Arizona made ``no gain'' in English in 2003 -04, 
while 7% actually lost ground; all were enrolled in English Only 
programs.\39\ Another ASU study found that the academic achievement gap 
between English learners and other students was widening.\40\
    <bullet> In Massachusetts, more than half of the students were 
still limited in English after three years in structured English 
immersion classrooms.\41\
    Isn't it important to send a message to immigrants that they are 
expected to learn our language?
    People who face language barriers every day--on the job, in the 
supermarket, at the hospital--understand better than anyone the 
importance of proficiency in English in America. They don't need 
English Only laws to impress upon them this reality. According to 
surveys by the Pew Hispanic Center, a substantial majority of Latinos 
agree that immigrants ``have to speak English to say they are part of 
American society.'' Meanwhile, 92% say it is ``very important'' for 
immigrant children to be taught English--a higher percentage than non-
Hispanic whites (87%) or blacks (83%).\42\
    What would be a better way to promote English acquisition?
    For many recent immigrants, the biggest obstacle to learning 
English is the shortage of affordable English-as-a-second-language 
(ESL) classes. The federal adult education program served 1.1 million 
students in 2004 but the demand for instruction far outpaced the 
supply. According to recent reports, there were waiting lists of more 
than 17,000 for adult ESL classes in Massachusetts, 12,000 in 
Houston,\43\ 6,000 in Dallas, and 3,000 for a single school in 
Seattle.\44\ English programs operated by the New York Public Library 
are so popular that students must win a lottery to get in.\45\ The 
problem is simple: inadequate funding from state and federal 
governments.
    English-only laws do nothing whatsoever to address this shortage. 
Rather than offering practical help to immigrants in learning English, 
they erect unnecessary barriers for those who are trying to do so. 
Outlawing bilingual programs now offered by government--and ruling out 
additional services in the future--would be counterproductive both for 
English acquisition and the acculturation of immigrants.
    Why is that? How do programs in other languages promote English and 
acculturation?
    Numerous scientific studies have shown that bilingual education is 
more effective than all-English programs in teaching ``academic 
English,'' the kind of skills that immigrant children need to succeed 
in school. As a result, it is also more effective in fostering school 
achievement in English.\46\ Some forms of bilingual education offer the 
added benefit of developing proficiency in other languages that the 
nation needs.
    Bilingual voting materials, which are provided in about 500 
jurisdictions, have proven to increase political participation by 
language-minority citizens. A high level of English literacy is 
needed--higher than what is required for naturalization--to understand 
complex ballot measures and election procedures. In addition, there are 
native-born language minorities, including Puerto Ricans and Native 
Americans, whose English is sometimes limited. Language assistance at 
the polls helps these citizens become informed voters and gives them a 
stake in our democracy.\47\
    Backers of oficial English have disclaimed the ``English Only'' 
label. Aren't they advocating something less extreme than that?
    In fact, it was the U.S. English organization invented the term 
back in 1984, when it sponsored a ballot initiative in California 
entitled ``Voting Materials in English Only.''\48\ The label stuck 
because it accurately sums up the official-English agenda: banning or 
restricting the use of other languages.
    For example, a 1988 ballot initiative in Arizona mandated: ``This 
state shall act in English and no other language.'' The measure was so 
extreme that it even applied to state legislators, who were forbidden 
to communicate with constituents in any language but English. It passed 
narrowly but was later ruled unconstitutional and never took 
effect.\49\
    How does oficial English legislation violate the constitution?
    The Arizona measure was struck down for violating the First 
Amendment guarantee of freedom of speech and the Fourteenth Amendment 
guarantee of equal protection of the laws. The English Only law not 
only violated the rights of state employees and elected officials to 
express themselves, the Arizona Supreme Court found. It also violated 
the rights of limited- and non-English-speaking persons to receive 
information ``when multilingual access may be available and may be 
necessary to ensure fair and effective delivery of governmental 
services.''
    Government cannot abridge fundamental rights without a compelling 
reason to do so, and in this case the court found such a rationale to 
be absent: ``The Amendment's goal to promote English as a common 
language does not require a general prohibition on non-English usage. 
English can be promoted without prohibiting the use of other languages 
by state and local governments.'' \50\
    Has the U.S. Supreme Court ever ruled on this issue?
    Its 1923 decision in Meyer v. Nebraska struck down an English Only 
law, which banned foreign-language instruction below the 8th grade. In 
doing so, it used similar reasoning to that of the Arizona Supreme 
Court in 1998. ``The desire of the Legislature to foster a homogeneous 
people with American ideals prepared readily to understand current 
discussions of civic matters is easy to appreciate,'' the U.S. Supreme 
Court said.
    ``But the means adopted, we think, exceed the limitations upon the 
power of the state. * * * [T]he individual has certain fundamental 
rights that must be respected. The protection of the Constitution 
extends to all, to those who speak other languages as well as to those 
born with English on the tongue. Perhaps it would be highly 
advantageous if all had ready understanding of our ordinary speech, but 
this cannot be coerced with methods which conflict with the 
Constitution--a desirable end cannot be promoted by prohibited means.'' 
\51\
    What is the legal impact of adopting English as the oficial 
language?
    Naturally, the impact depends on the wording of the legislation, 
which varies considerably. Of the 23 active official-English laws\52\ 
at the state level, most consist of simple declarations--``English is 
the oficial language of the state of * * *'' These have had few, if 
any, direct legal effects.
    Other versions, such as the ``English Language Unity Act''\53\ and 
the ``National Language Act,'' \54\ bills now pending in the U.S. House 
of Representatives, would impose sweeping restrictions on government's 
use of other languages. While allowing some exceptions for purposes 
such as national security, public safety, and foreign-language 
teaching, these measures would curtail most rights and services for 
non-English speakers, including the bilingual provisions of the Voting 
Rights Act.
    The ``National Language'' amendment to immigration legislation, 
approved by the U.S. Senate on May 18, would have similar effects. 
Unlike the House bills, it would not repeal any current laws. But it is 
tailored to invalidate Executive Order 13166, issued by President 
Clinton in 2000 and reaffirmed by President Bush in 2001, requiring 
federal agencies and grant recipients to make their programs accessible 
to limited-Englishproficient persons.\55\
    Among other things, restrictive official English proposals would:
    <bullet> ban most federal publications in other languages, for 
example, to explain tax laws, veterans' benefits, medical precautions, 
consumer protection, fair housing rules, and business regulations;
    <bullet> prohibit the use of public funds to translate civil 
lawsuits or administrative hearings; and
    <bullet> eliminate anti-discrimination guarantees for limited-
English speakers in federally funded programs, including the right of 
parents to receive school notices in a language they can understand.
    Still, isn't there something to be said for the idea of uniting 
Americans through a common language?
    Of all the arguments in favor of official English, this is probably 
the most hypocritical. Ever since the campaign emerged in the early 1 
980s, its main effect has been to divide communities. Whenever this 
debate flares up, the news media report outbreaks of language 
vigilantism, as local officials and individuals take it on themselves 
to enforce discriminatory policies, using slogans like ``This is 
America--speak English!'' \56\
    While many English speakers may not see a problem, the targets of 
English Only campaigns find them offensive and threatening. Opposing 
such legislation in his home state of Arizona, Sen. John McCain asked: 
``Why we would want to pass some kind of initiative that a significant 
portion of our population considers an assault on their heritage?'' 
\57\ This is a question that English Only proponents have never been 
able to answer.
    With all the ferment over language today, doesn't government need 
to establish a comprehensive policy?
    Yes. Strictly speaking, the United States has never had a language 
policy, consciously planned and national in scope. It has had language 
policies--ad hoc responses to immediate needs or political pressures--
often contradictory and inadequate to cope with changing times.
    Americans need a language policy that reflects our values of ethnic 
tolerance, respect for civil rights, and generosity in meeting social 
needs. By requiring federal agencies and grant recipients to improve 
access for limited-English speakers, Executive Order 13166 is a small 
step in that direction. But more explicit and enforceable guidelines 
are necessary to ensure these programs are effective.
    We also need a language policy that promotes language learning in 
ways that serve the national interest. It should begin by strengthening 
opportunities to learn English, of course, but should not stop there. 
English alone is not enough in today's global economy. America needs 
English Plus--well developed skills in many languages to enhance 
international competitiveness and national security--as a resolution 
now pending in the House makes clear.\58\
    Finally, we need a policy that values the languages of immigrants 
and indigenous minorities, recognizing them not as a ``problem'' but as 
a resource. Rather than attempting to stamp out language diversity with 
English Only laws, we should conserve and develop multiple language 
skills to encourage community harmony, foster cultural expression, and 
meet the nation's needs.

                               REFERENCES

    \1\ Kontra, M. 1999. 'Don't speak Hungarian in public!'--A 
documentation and analysis of folk linguistic rights. In M. Kontra, R. 
Phillipson, T. Skutnabb-Kangas, & T. V rady (Eds.), Language: A right 
and a resource. Budapest: Central European University Press.
    \2\ Shin, H.B. & Bruno, R. 2003. Language use and English-speaking 
ability: 2000. Washington, DC: U.S. Census Bureau.
    \3\ Fishman, J.A. 1991. Interpolity perspective on the 
relationships between linguistic heterogeneity, civil strife and per 
capita gross national product. Applied Linguistics, 1:5-18.
    \4\ Yalden, M.F. 1981. The bilingual experience in Canada. In M. 
Ridge (Ed.), The new bilingualism: An American dilemma. New Brunswick, 
NJ: Transaction Books.
    \5\ Lemco, J. 1992. Quebec's 'distinctive character' and the 
question of minority rights. In J. Crawford (Ed.), Language loyalties: 
A source book on the oficial English controversy. Chicago: University 
of Chicago Press.
    \6\ Baron, D. 1990. The English-only question: An oficial language 
for Americans? New Haven: Yale University Press.
    \7\ S.J. Res. 72. 1981. 97th Cong., 1st Sess., 27 April. http://
ourworld.compuserve.com/homepages/JWCRAWFORD/ela97.htm
    \8\ H.R. 123. 1996. 104th Cong., 2nd Sess. 1 August. http://
ourworld.compuserve.com/homepages/JWCRAWFORD/hr123d.htm
    \9\ Congressional Record. 2006. 109th Cong., 2nd Sess. 18 May, pp. 
S4735-70.
    \10\ Hansen, M.L. 1961. The Atlantic migration, 1 607-1860: A 
history of the continuing settlement of the United States. New York: 
Harper Torchbooks.
    \11\ American Council of Learned Societies. 1931. Report of the 
Committee on Linguistic and National Stocks in the Population of the 
United States. In Annual Report of the American Historical Association. 
Washington, DC: Author.
    \12\ Hawgood, J.A. 1940. The tragedy of German-America. New York: 
Putnam.
    \13\ Heath, S.B. 1976. A national language academy? Debate in the 
new nation. International Journal of the Sociology of Language, 11:9-
43.
    \14\ Baron, D. 1982. Grammar and good taste: Reforming the American 
language. New Haven: Yale University Press.
    \15\ Horwitz, T. 2006. Immigration and the curse of the Black 
Legend. New York Times, 9 July.
    \16\ Crawford, J. 1992. Hold your tongue: Bilingualism and the 
politics of 'English Only.' Reading, MA: Addison-Wesley.
    \17\ Kloss, H. 1998. The American bilingual tradition. 2nd ed. 
McHenry, IL: Center for Applied Linguistics and Delta Systems.
    \18\ Ibid.
    \19\ Ibid.
    \20\ Immigration Commission, U.S. 1911. Reports of the Immigration 
Commission, Vol. 1. Washington, DC: Government Printing Office.
    \21\ Hawgood. 1940.
    \22\ Atkins, J.D.C. 1887. Report of the Commissioner of Indian 
Affairs. Rpt. in J. Crawford (Ed.), Language loyalties: A source book 
on the oficial English controversy. Chicago: University of Chicago 
Press, 1992.
    \23\ Crawford, J. 2000. Endangered Native American languages: What 
is to be done, and why? In J. Crawford, At war with diversity: U.S. 
language policy in an age of anxiety. Clevedon, UK: Multilingual 
Matters. http://ourworld.compuserve.com/homepages/JWCRAWFORD/brj.htm
    \24\ Luebke, F.C. 1980. Legal restrictions on foreign languages in 
the Great Plains states, 19 17-1923. In P. Scach (Ed.), Languages in 
conflict: Linguistic acculturation on the Great Plains. Lincoln: 
University of Nebraska Press.
    \25\ Crawford, J. 2004. Educating English learners: Language 
diversity in the classroom. Los Angeles: Bilingual Educational 
Services.
    \26\ Meyer v. Nebraska. 1923. 262 U.S. 390. http://
ourworld.compuserve.com/homepages/JWCRAWFORD/meyer.htm
    \27\ Language Policy Web Site. 1997. Opinion polls on official 
English. http://ourworld.compuserve.com/homepages/JWCRAWFORD/can-
poll.htm.
    \28\ Crawford, J. 1988. What's behind official English? Rpt. in J. 
Crawford (Ed.), Language loyalties: A source book on the oficial 
English controversy. Chicago: University of Chicago Press, 1992.
    \29\ Telephone survey by Gary C. Lawrence Co. of Santa Ana, CA; see 
Crawford, 1992. http://ourworld.compuserve.com/homepages/JWCRAWFORD/
HYTCH6.htm
    \30\ Crawford. 2004.
    \31\ Portes, A. & Hao, L. E pluribus unum: Bilingualism and 
language loss in the second generation. Sociology of Education, 71: 
269-94.
    \32\ Crawford. 2004.
    \33\ Veltman, C. 2000. The American linguistic mosaic: 
Understanding language shift in the United States. In S.L. McKay & S.C. 
Wong (Eds.), New immigrants in the United States. Cambridge: Cambridge 
University Press.
    \34\ Gibson, C.J. & Lennon, E. 1999. Historical census statistics 
on the foreign-born population of the United States: 1850-1990. 
Washington, DC: U.S. Census Bureau. http://www.census.gov/population/
www/documentation/twps0029/twps0029.html
    \35\ Crawford. 2004.
    \36\ Associated Press. 1995. Practically English-only. September 
27.
    \37\ Parrish, T.B. et al. 2006. Efects of the implementation of 
Proposition 227 on the education of English learners, K-12: Findings 
from a five-year evaluation. Sacramento: American Institutes for 
Research and WestEd. http://www.wested.org/cs/we/view/rs/804
    \38\ California Department of Education. 2005. Language census, 
2004-05. Sacramento: Author.
    \39\ Mahoney, K., MacSwan, J. & Thompson, M. 2005. The condition of 
English language learners in Arizona: 2005. Tempe, AZ: Education Policy 
Studies Laboratory. http://www.asu.edu/educ/epsl/AEPI/Report/EPSL-0509-
11 0-AEPI.pdf
    \40\ Wright, W. E. & Pu, Chang. Academic achievement of English 
language learners in post-Proposition 203 Arizona. Tempe, AZ: Education 
Policy Studies Laboratory. http://www.asu.edu/educ/epsl/EPRU/documents/
EPSL-0509-103 -LPRU.pdf
    \41\ Sacchetti, M. & Tracy, J. 2006. Bilingual law fails first 
test: Most students not learning English quickly. Boston Globe, 21 May.
    \42\ Pew Hispanic Center. 2006. Fact sheet: Hispanic attitudes 
toward learning English. Washington, D.C.: Author. http://
pewhispanic.org/files/factsheets/20.pdf
    \43\ Pope, J. Immigrants rely on patchy English teaching. 
Washington Post, 22 April.
    \44\ American Immigration Law Foundation. 2002. ESL helps 
immigrants integrate. http://www.ailf.org/ipc/policy--reports--2002--
ESL.asp
    \45\ New York Public Library. English classes for speakers of other 
languages (ESOL). http://www.nypl.org/classes/esol.html.
    \46\ See, e.g., Krashen, S. & McField, G. 2005. What works? 
Reviewing the latest evidence on bilingual education. Language Learner, 
Nov./Dec.
    \47\ Washington Post. 2006. Yes on bilingual ballots. 10 July.
    \48\ Crawford. 1992.
    \49\ Ru!z v. Hull. 1998. 191 Ariz. 441.
    \50\ Ibid.
    \51\ Meyer v. Nebraska. 1923. http://ourworld.compuserve.com/
homepages/JWCRAWFORD/meyer.htm
    \52\ Official-English measures have been declared unconstitutional 
in two other states, Arizona and Alaska. In addition, Hawaii is 
officially bilingual in English and Native Hawaiian. For a complete 
list of official-English states and the texts of these laws, see http:/
/ourworld.compuserve.com/homepages/JWCRAWFORD/langleg.htm
    \53\ H.R. 997. 2005. 109th Cong., 1st Sess., 1 March.
    \54\ H.R. 4408. 2005. 109th Cong., 1st Sess., 18 November.
    \55\ Congressional Record. 2006. 109th Cong., 2nd Sess. 18 May, pp. 
S4754-55.
    \56\ Bender, S.W. 1997. Direct democracy and distrust: The 
relationship between language law rhetoric and the language vigilantism 
experience. Harvard Latino Law Review, 2 (1), 145-74.
    \57\ Cheseborough, S. 1988. McCain raps official English movement. 
Phoenix Gazette, 26 August.
    \58\ H.Con.Res. 9. 2005. 109th Cong., 1st Sess., 4 January.
                                 ______
                                 

            Prepared Statement of James Crawford, Director,
              Institute for Language and Education Policy

    Mr. Chairman and members of the subcommittee: my name is James 
Crawford. I am director of the Institute for Language and Education 
Policy, a newly formed nonprofit organization dedicated to research-
based advocacy for English-language and heritage-language learners. We 
represent professionals in the field of language education who are 
working to promote academic excellence and equity for these students.
    I want to thank Chairman Castle and Representative Woolsey for the 
opportunity to present testimony regarding proposals to designate 
English as the official language.
    We at the Institute believe that such legislation is ill-advised: 
harmful to individuals, to the nation, and to the goal of language 
learning. We are concerned that the U.S. Senate recently passed a 
``national language'' amendment without holding a single hearing to 
consider its potential impact and with only limited debate. So we 
commend the Subcommittee on Education Reform for convening today's 
hearing in the House.
    In our view, ``official English'' is:
    (1) Unnecessary--The overwhelming dominance of English in the 
United States is not threatened in any way. Newcomers to this country 
are learning it more rapidly than ever before. Our language does not 
need ``legal protection.''
    (2) Punitive--Restricting government's ability to communicate in 
other languages would threaten the rights and welfare of millions of 
people, including many U.S. citizens, who are not fully proficient in 
English.
    (3) Pointless--Official-English legislation offers no practical 
assistance to anyone trying to learn English. In fact, it is likely to 
frustrate that goal by outlawing programs designed to bring immigrants 
into the mainstream of our society.
    (4) Divisive--The campaign to declare English the official language 
often serves as a proxy for hostility toward minority groups, Latinos 
and Asians in particular. It is exacerbating ethnic tensions in a 
growing number of communities.
    (5) Inconsistent with American values--Official-English laws have 
been declared unconstitutional in state and federal courts, because 
they violate guarantees of freedom of speech and equal protection of 
the laws.
    (6) Self-defeating--English Only policies are foolish in an era of 
globalization, when multilingual skills are essential to economic 
prosperity and national security. Language resources should be 
conserved and developed, not suppressed.
Language and Liberty
    Our nation has gotten by for more than 200 years without adopting 
an official language. So the obvious question arises: Why do we need 
one now?
    Proponents of official English have responded with platitudes (``A 
common language is what unites us as Americans'') or truisms (``In this 
country it's essential to know English'') or anxieties (``Spanish is 
spreading at unhealthy rates'') or unsupported claims (``Bilingual 
programs discourage people from learning English''). These are not 
compelling arguments. They also reflect an ignorance of history.
    Language has been far less central to American identity than to, 
say, French or Greek or Russian identity. From its infancy the United 
States was conceived as a nation that newcomers could join, whatever 
their ethnic background,\1\ simply by swearing loyalty to the 
democratic principles on which it was founded. To be sure, there have 
been ugly episodes of language-based discrimination, such as the 
English Only school policies that once targeted Native Americans and 
Mexican Americans. Unlike many other countries, however, we have seldom 
passed laws to repress or restrict minority tongues. Language has 
usually been taken for granted here--as a practical rather than a 
symbolic issue--despite the diversity that has historically prevailed.
---------------------------------------------------------------------------
    \1\ Except in a few shameful cases, such as the Chinese Exclusion 
Act of 1882.
---------------------------------------------------------------------------
    Today there are more non-English languages spoken in America than 
ever before, owing to the ease of travel, which has brought immigrants 
from all over the world. But the proportion of minority language 
speakers was certainly as large, if not larger, in 1776, 1865, and 
1910. Where immigrant groups were numerous and enjoyed political clout, 
they were often accommodated in their own vernaculars. Until the early 
20th century, state and local governments provided documents and 
services in languages such as German, French, Spanish, Swedish, 
Norwegian, Welsh, and Czech. Bilingual education was more widespread in 
German and English in 1900 than it is today in all languages.\2\
---------------------------------------------------------------------------
    \2\ For more details, see ``Frequently Asked Questions about 
Official English,'' an attachment to this testimony.
---------------------------------------------------------------------------
    Despite or--more likely--because of these tolerant policies, 
immigrant groups gradually adopted English and stopped speaking their 
ancestral tongues. Sociologist Nathan Glazer has noted the irony: 
``Languages shriveled in the air of freedom while they had apparently 
flourished under adversity in Europe.'' Except in a few periods of 
nativist hysteria, such as the World War I era, laissez-faire policies 
made language conflicts relatively rare in the United States.
    Is there any reason to abandon our tradition of tolerance now? 
Certainly there is no threat to English in America, no challenge to its 
status as the language of educational advancement, economic success, 
and political discourse. According to the 2000 census, 92% of U.S. 
residents speak English fluently; 96% speak it ``well'' or ``very 
well''; and only 1.3% speak no English at all.

       LANGUAGE SPOKEN AT HOME AND ENGLISH-SPEAKING ABILITY, 2000
------------------------------------------------------------------------
                Category                      Number        Percentage
------------------------------------------------------------------------
All speakers, age 5+....................     262,375,152          100.0%
English only............................     215,423,557           82.1%
Other language..........................      46,951,595           17.9%
Speaks English ``very well''............      25,631,188            9.8%
Speaks English ``well''.................      10,333,556            3.9%
Speaks English ``not well''.............       7,620,719            2.9%
Speaks English ``not at all''...........       3,366,132            1.3%
------------------------------------------------------------------------
Source: 2000 Census of Population

    Demographic research also shows that, while the number of minority 
language speakers is increasing, largely because of immigration, the 
rate of Anglicization is also on the rise. Immigrants at the turn of 
the 21st century are learning English--and losing other languages--more 
rapidly than those at the turn of the 20th.
    Official English is truly a ``solution in search of a problem.''
All Stick and No Carrot
    While official-English proposals vary, those now pending before 
Congress take a radical, restrictionist approach. They would not merely 
celebrate ``our common language.'' In addition, they would prohibit 
most uses of other languages by the federal government--whether to 
communicate information, provide services, or enable limited-English 
speakers to exercise rights they would otherwise enjoy.
    The assumption is that English Only policies would create an 
incentive to learn English by making life as difficult as possible for 
those who have yet to do so. Yet where is the evidence that the current 
patchwork of basic services in other languages provides a disincentive 
to English acquisition? How many immigrants say to themselves, for 
example, ``If I can read pamphlets about Social Security in Spanish or 
visit a bilingual health clinic or rely on a court interpreter if I'm 
charged with a crime, why should I worry about learning English?'' 
Don't limited-English speakers face language barriers in countless 
other situations on a daily basis? It would be irresponsible for 
Congress to legislate without empirical data in this area, considering 
that millions of people could be adversely affected.
    English-as-a-second-language instruction, by contrast, has proven 
quite effective in helping adult immigrants learn the language. Yet, to 
date, no official-English bill has included any provisions to address 
the chronic shortage of such classes in most parts of the country. 
Coercion, not empowerment, is the operative principle here.
    A major target of official-English bills, including the Senate's 
national-language amendment, is Executive Order 13166, ``Improving 
Access to Services for Persons with Limited English Proficiency.'' The 
order, issued by President Clinton in 2000 and reaffirmed by President 
Bush in 2001, is grounded in Title VI of the Civil Rights Act of 1964, 
which prohibits discrimination on the basis of national origin in 
federally supported activities. It requires federal agencies and, 
equally important, programs that receive federal funding to ``provide 
meaningful access'' for those whose English is limited. These long-
overdue efforts have just barely begun. Yet Official-English 
legislation would halt them in their tracks by overriding EO 13166, 
prohibiting assistance for limited-Englishproficient persons in 
numerous areas. The national-language amendment in particular would 
instruct federal courts to disregard language as a factor in national-
origin discrimination.\3\
---------------------------------------------------------------------------
    \3\ Senator Inhofe, chief sponsor of the amendment, inserted a 
``legislative history'' into the Congressional Record (18 May 2006, pp. 
S4754-55) that explicitly addresses these points.
---------------------------------------------------------------------------
    Federally funded programs include school districts, which currently 
have an obligation to communicate with parents, ``to the extent 
practicable,'' in a language they can understand. This right of access 
is mandated by the No Child Left Behind Act and by Title VI regulations 
enforced by the U.S. Office for Civil Rights. Official-English 
legislation would eliminate the requirement, making it difficult for 
the parents of English-language learners to assist in these students' 
education or to advocate for their children with school officials. This 
is just one of numerous ways in which English Only policies would be 
harmful not only to individuals but also to national priorities such as 
school reform.
    Sponsors of official-English measures have typically responded to 
such criticisms by carving out exceptions. Some bills would allow 
government to use other languages for purposes of national security, 
trade and tourism promotion, public health and safety, census 
activities, and so forth. The proposed loopholes are narrow, however, 
and would no doubt keep government lawyers busy trying to interpret 
their meaning. Could the Department of Veterans Affairs continue to 
publish pamphlets in Spanish to explain disability benefits for U.S. 
soldiers wounded in Iraq? Probably not. Could the Department of Labor 
keep funding state efforts to inform workers about wage-and-hour 
regulations in Chinese? Doubtful. Would the White House have to shut 
down the Spanish-language section of its web site? Quien sabe?
    The constitutionality of such restrictions is questionable at best. 
The most draconian official-English laws at the state level, in Alaska 
and Arizona, were struck down under the First and Fourteenth 
amendments. State and federal courts ruled that, while advancing no 
compelling public interest, these measures violated free-speech and 
equal-protection guarantees.\4\
---------------------------------------------------------------------------
    \4\ In 1997, federal district and appeals court decisions in 
Yniguez v. Arizonans for Oficial English were vacated as moot by the 
U.S. Supreme Court on a technicality (the lead plaintiff, an Arizona 
state employee, had found another job). A year later the Arizona 
Supreme Court struck down the English Only law as unconstitutional. An 
Alaska district court reached the same result in 2002.
---------------------------------------------------------------------------
    Without exception, the bilingual assistance programs now provided 
by government are designed to safeguard the rights and serve the needs 
of limited-English speakers so as to help them acculturate. Those who 
are thereby brought into the mainstream are more able and more inclined 
to learn English than those remaining on the margins of society, unable 
to access government services. While English Only advocates seem intent 
on making a symbolic statement, their proposals would have very 
practical consequences in areas such as education, social services, 
civil rights, and government efficiency. Among other things, their 
proposals are bad for English acquisition.
A Message of Intolerance
    The symbolic statement itself has consequences that are as damaging 
as the direct legal effects. English Only bills say, in effect, that 
the principles of free speech and equal protection apply only to those 
who are fully proficient in English; that discrimination on the basis 
of language is legitimate, even laudatory in America; and ultimately, 
that those from non-English backgrounds are unwelcome here.
    Whatever ``message'' the sponsors believe they are sending with 
this legislation, the message received is a message of intolerance. 
This phenomenon is evident in the language vigilantism that occurs 
every time the issue flares up, as local officials and individuals seek 
to impose their own English Only rules. Here are a few of the mean-
spirited incidents that occurred after the House passed a ``language of 
government bill'' in 1996:
    <bullet> Tavern owners in Yakima, Washington, refused to serve 
patrons who conversed in Spanish, posting signs such as: ``In the 
U.S.A., It's English or Adios Amigo.''
    <bullet> A judge hearing a child-custody case in Amarillo, Texas, 
accused a mother of child abuse for speaking Spanish to her five-year-
old daughter.
    <bullet> Police in Yonkers, New York, ticketed a Cuban American 
truck driver for his inability to answer questions in English.
    <bullet> In Huntsville, Alabama, the county assessor refused to 
approve routine tax exemptions for Korean property owners whose English 
was limited.
    <bullet> Norcross, Georgia, authorities fined the pastor of a 
Spanish-speaking congregation for posting placards that allegedly 
violated an English Only sign ordinance.
    These acts are deeply offensive, not only to recent immigrants, but 
also to a broader population: persons who are proud of their heritage 
both as Americans and as ethnic minorities. As Senator Mel Martinez, a 
Cuban immigrant and a Republican from Florida, recently explained: 
``When they start saying that it's un-American to have ballots printed 
in Spanish, it sends a message that we're not wanted, not respected.''
    No doubt this is the message that some extremists intend to send--
or to exploit--in hopes of building support for a restrictive 
immigration policy. In doing so, they are dividing communities across 
the nation. Two weeks ago the city council of Hazleton, Pennsylvania, 
coupled an official-English ordinance with harsh penalties for 
businesses that hire or landlords who rent to undocumented immigrants. 
The result has been to exacerbate tensions between longtime residents 
and recently arrived Latinos who are clearly being targeted. Similar 
proposals are fueling race hatred in municipalities from Avon Park, 
Florida, to San Bernardino, California.
    It's ironic that official-English legislation, promoted as a way to 
``unite Americans,'' is having precisely the opposite effect: igniting 
ethnic conflicts. Congress should refuse to fan these flames.
Instead of English Only, English Plus
    The aftermath of September 11 highlighted a longstanding concern of 
national security officials: the United States remains an 
underdeveloped country where language skills are concerned. When our 
military invaded Afghanistan to hunt down al Qaeda, five of that 
country's seven major languages--including Pashto, spoken by 8 million 
Afghans--were not even taught in U.S. colleges and universities.\5\ 
Meanwhile, the FBI was so desperate for translators of Arabic and the 
languages of south Asia that it was forced to place want-ads in 
newspapers, with problematic results.
---------------------------------------------------------------------------
    \5\ According to the National Foreign Language Center at the 
University of Maryland, about 600 U.S. students were learning Farsi, 
the dominant language of Iran, which is a relative of Dari, spoken by 
about 5.6 million Afghans. There were just four U.S. students studying 
Uzbek, which has 1.4 million speakers in Afghanistan.
---------------------------------------------------------------------------
    Monolingualism, for which Americans are justifiably notorious, is 
also an economic handicap. While English is indisputably dominant in 
global commerce, it is spoken by only a small minority of the world's 
population. As globalization increases, competitors who are proficient 
in other languages will have an increasing advantage.
    The President's National Security Language Initiative, designed to 
fund programs in critical languages such as Arabic, Chinese, Hindi, 
Russian, and Farsi, is a positive step. His proposed investment, 
however--$114 million in FY07, including just $24 million at the K-12 
level--is ludicrous. If approved, it would have a limited impact 
relative to the nation's growing needs.
    Yet this is not just a funding problem. More important, it is an 
attitude problem. While a language learned in the classroom is valued 
in this country, a language learned by growing up in a minority 
community is likely to be considered a liability, not an asset. 
``Ethnic bilingualism'' has enormous potential to supply the 
multilingual skills that America needs. Rather than cultivating it, 
however, we rush language-minority children into all-English classrooms 
as soon as possible. Most never get the chance to develop advanced 
skills, including literacy, in their native tongue. Although 
developmental bilingual education does exist, it is getting much harder 
to find. High-stakes testing in English for these students and, in some 
states, English Only instruction laws have forced schools to dismantle 
many bilingual programs.
    Instead of English Only, the United States needs a language policy 
that could be described as English Plus. This approach begins with the 
recognition that, of course, we should pursue the goal of English 
proficiency for all Americans. But while English is necessary, it is 
not sufficient in today's world. To prosper economically and to provide 
security for our people, we need well developed skills in English, plus 
other languages. Step one is to conserve and develop, not destroy, the 
language resources we already have. Rather than treating bilingualism 
as a nuisance or a threat, we should exploit our diversity to enrich 
the lives of individuals and foster the nation's interests, while 
encouraging ethnic tolerance and safeguarding civil rights.
    We believe that a policy of English Plus would advance these 
important goals. Official English would be a step backward for the 
nation.
                                 ______
                                 
                      American Library Association,
                                         Washington Office,
                                     Washington, DC, July 25, 2006.
Hon. Michael Castle,
Chairman, Subcommittee on Education Reform, Committee on Education and 
        the Workforce, Rayburn House Office Building, Washington, DC.
    Dear Chairman Castle: The undersigned broad coalition of 
organizations writes to echo its support and commitment to 
comprehensive immigration reform. Collectively we call on Congressional 
leaders to focus on the substance of the issue and on the economic and 
national security needs of our nation. As evidenced by the calls to 
action made by the American people, business and labor communities, 
unions, religious organizations, immigrant rights groups and others, 
the time to act and repair our broken immigration system is now and the 
way to do it is comprehensive in nature. Republicans and Democrats from 
both Chambers of Congress should work together towards a practical 
compromise that is responsive to our country's needs. Moreover, we urge 
leaders to remain committed to finding a procedural path that will 
result in a piece of legislation that addresses the real issues and 
realities.
    We recognize that the House and Senate approach this debate from 
different perspectives and come to the table with two very different 
pieces of legislation. Undeniably, negotiations during a conference 
committee will be difficult. However, it is imperative that this 
process continue to move forward and not be derailed by partisanship or 
politics. The undersigned groups remain committed to the comprehensive 
reform principles below and stand ready to work with Members of 
Congress to address these issues:
    <bullet> Improve national security through smart and targeted 
enforcement, combined with workable and realistic immigration reform 
measures that would create disincentives for illegal immigration;
    <bullet> The implementation of an efficient, practical and accurate 
employee verification system. This system should be rolled out in a 
reasonable manner so as not overly burden employers or employees either 
financially or functionally;
    <bullet> A future guest worker program that will help to meet the 
employment needs of our economy when U.S. workers are not available and 
ensures appropriate workplace and wage protections while providing 
these contributing members of society the opportunity to earn 
legalization and citizenship; and
    <bullet> A path to earned legalization and citizenship for 
undocumented workers who meet qualifying criteria. This program should 
include also a fix to the employment and family based immigrant visa 
process and numerical limitations.
    The opportunity before us is a unique one. We must all work 
together to reform our immigration policies so that we can enhance our 
security, protect our economy, and continue our heritage as a country 
of immigrants. The alternative, to do nothing or worse, to do more 
harm, is not and should not be an option. We urge you to work with 
leadership towards a solution that Congress and the American people can 
be proud of.
            Sincerely,
                    Essential Worker Immigration Coalition.

                                  U.S. Chamber of Commerce.

                           National Restaurant Association.

                  American Immigration Lawyers Association.

                                National Immigration Forum.

                                              Tamar Jacoby,
   Senior Fellow at the Manhattan Institute National Council of La 
                                                              Raza.

                             Asian American Justice Center.

                     Service Employees International Union.

                         New American Opportunity Campaign.

                American Nursery and Landscape Association.

                                             Esperanza USA.

                                           Grover Norquist,
   President of Americans for Tax Reform Coalition for Immigration 
                                                          Security.

                                 <all>

</pre></body></html>
